No. 20A87
In the

Supreme Court of the United States
THE ROMAN CATHOLIC DIOCESE OF BROOKLYN, NEW YORK,
Applicant,
V.

GOVERNOR ANDREW M. CUOMO, in his official capacity,
Respondent.
APPENDIX FOR RESPONDENT – VOLUME I OF II, PAGES 1-173

November 18, 2020

LETITIA JAMES
Attorney General
State of New York
BARBARA D. UNDERWOOD*
Solicitor General
ANDREA OSER
Deputy Solicitor General
BRIAN D. GINSBERG
Assistant Solicitor General
28 Liberty Street
New York, New York 10005
(212) 416-8016
barbara.underwood@ag.ny.gov
* Counsel of Record

Counsel for Respondent

TABLE OF CONTENTS
PAGE
Complaint (D. Ct. Dkt. Nos. 1, 1-1, and 1-2)......................................................... R.A. 1
Proposed Order to Show Cause for a Preliminary Injunction
and Temporary Restraining Order (D. Ct. Dkt. No. 3)............................ R.A. 27
Declaration of Randy M. Mastro, Ex. 2 (D. Ct. Dkt. No. 7-2) ............................ R.A. 29
Declaration of Debra S. Blog, M.D., M.P.H. (D. Ct. Dkt. No. 20) ...................... R.A. 32
Blog Decl., Ex. A (WHO Situation Report 1)
(D. Ct. Dkt. No. 20-1) ................................................................................ R.A. 59
Blog Decl., Ex. B (WHO Situation Report 3)
(D. Ct. Dkt. No. 20-2) ................................................................................ R.A. 64
Blog Decl., Ex. C (WHO Statement on the Second Meeting of
the International Health Regulations Emergency Committee)
(D. Ct. Dkt. No. 20-3) ................................................................................ R.A. 71
Blog Decl., Ex. D (WHO Declares Global Pandemic)
(D. Ct. Dkt. No. 20-4) ................................................................................ R.A. 77
Blog Decl., Ex. E (National Emergency Declaration)
(D. Ct. Dkt. No. 20-5) ................................................................................ R.A. 81
Blog Decl., Ex. F (WHO Article)
(D. Ct. Dkt. No. 20-6) ................................................................................ R.A. 84
Blog Decl., Ex. G (CDC Guidance)
(D. Ct. Dkt. No. 20-7) .............................................................................. R.A. 105
Blog Decl., Ex. H (CDC Guidance)
(D. Ct. Dkt. No. 20-8) .............................................................................. R.A. 109
Blog Decl., Ex. I (Executive Order 202)
(D. Ct. Dkt. No. 20-9) .............................................................................. R.A. 111
Blog Decl., Ex. J (Executive Order 202.3)
(D. Ct. Dkt. No. 20-10) ............................................................................ R.A. 114
Blog Decl., Ex. K (Executive Order 202.4)
(D. Ct. Dkt. No. 20-11) ............................................................................ R.A. 116
R.A. i

TABLE OF CONTENTS (cont’d)
PAGE
Declaration of Debra S. Blog, M.D., M.P.H. (D. Ct. Dkt. No. 20) (cont’d)
Blog Decl., Ex. L (Executive Order 202.5)
(D. Ct. Dkt. No. 20-12) ............................................................................ R.A. 118
Blog Decl., Ex. M (Executive Order 202.10)
(D. Ct. Dkt. No. 20-13) ............................................................................ R.A. 121
Blog Decl., Ex. N (Executive Order 202.32)
(D. Ct. Dkt. No. 20-14) ............................................................................ R.A. 125
Blog Decl., Ex. O (Executive Order 202.33)
(D. Ct. Dkt. No. 20-15) ............................................................................ R.A. 128
Blog Decl., Ex. P (Executive Order 202.42)
(D. Ct. Dkt. No. 20-16) ............................................................................ R.A. 129
Blog Decl., Ex. Q (Executive Order 202.45)
(D. Ct. Dkt. No. 20-17) ............................................................................ R.A. 130
Blog Decl., Ex. R (Executive Order 205)
(D. Ct. Dkt. No. 20-18) ............................................................................ R.A. 132
Blog Decl., Ex. S (Executive Order 202.61)
(D. Ct. Dkt. No. 20-19) ............................................................................ R.A. 134
Blog Decl., Ex. T (Scientific American Article)
(D. Ct. Dkt. No. 20-20) ............................................................................ R.A. 136
Blog Decl., Ex. U (CDC Report)
(D. Ct. Dkt. No. 20-21) ............................................................................ R.A. 142
Blog Decl., Ex. V (New Scientist Article)
(D. Ct. Dkt. No. 20-22) ............................................................................ R.A. 148
Blog Decl., Ex. W (CDC Guidance)
(D. Ct. Dkt. No. 20-23) ............................................................................ R.A. 155
Blog Decl., Ex. X (Asian Bioethics Review Article)
(D. Ct. Dkt. No. 20-24) ............................................................................ R.A. 163
Blog Decl., Ex. Y (WHO Guidance)
(D. Ct. Dkt. No. 20-25) ............................................................................ R.A. 171
R.A. ii

TABLE OF CONTENTS (cont’d)
PAGE
Declaration of Debra S. Blog, M.D., M.P.H. (D. Ct. Dkt. No. 20) (cont’d)
Blog Decl., Ex. Z (Executive Order 202.6)
(D. Ct. Dkt. No. 20-26) ............................................................................ R.A. 179
Blog Decl., Ex. AA (PEOPLE Article)
(D. Ct. Dkt. No. 20-27) ............................................................................ R.A. 181
Blog Decl., Ex. BB (CDC Guidance)
(D. Ct. Dkt. No. 20-28) ............................................................................ R.A. 185
Blog Decl., Ex. CC (Guardian Article)
(D. Ct. Dkt. No. 20-29) ............................................................................ R.A. 189
Blog Decl., Ex. DD (Vox Article)
(D. Ct. Dkt. No. 20-30) ............................................................................ R.A. 198
Blog Decl., Ex. EE (Status Report)
(D. Ct. Dkt. No. 20-31) ............................................................................ R.A. 210
Blog Decl., Ex. FF (CDC Frequently Asked Questions)
(D. Ct. Dkt. No. 20-32) ............................................................................ R.A. 212
Blog Decl., Ex. GG (CDC Guidance)
(D. Ct. Dkt. No. 20-33) ............................................................................ R.A. 215
Blog Decl., Ex. HH (Gov. Cuomo Announcement)
(D. Ct. Dkt. No. 20-34) ............................................................................ R.A. 220
Blog Decl., Ex. II (Executive Order 202.68)
(D. Ct. Dkt. No. 20-35) ............................................................................ R.A. 225
Blog Decl., Ex. JJ (Affidavit of Elizabeth M. Dufort, M.D., FAAP)
(D. Ct. Dkt. No. 20-36) ............................................................................ R.A. 227
Blog Decl., Ex. KK (Declaration of Howard A. Zucker, M.D.)
(D. Ct. Dkt. No. 20-37) ............................................................................ R.A. 247
Second Supplemental Declaration of Randy M. Mastro, Ex. 3
(D. Ct. Dkt. No. 22-3) .............................................................................. R.A. 265
Declaration of Howard A. Zucker, M.D. (D. Ct. Dkt. No. 29-1) ....................... R.A. 277

R.A. iii

TABLE OF CONTENTS (cont’d)
PAGE
Order Denying Administrative Stay (Ct. App. Dkt. No. 29) ............................ R.A. 285
Letter (Ct. App. Dkt. No. 75-1) .......................................................................... R.A. 286
Ltr., Attachment
(Ct. App. Dkt. No. 75-2) .......................................................................... R.A. 287
Letter (Ct. App. Dkt. No. 78) ............................................................................. R.A. 302

R.A. iv

Case 1:20-cv-04844-NGG-CLP Document 1 Filed 10/08/20 Page 1 of 22 PagelD # : 1

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK
----------------------------------------------------------x
:
THE ROMAN CATHOLIC DIOCESE OF
:
BROOKLYN, NEW YORK,
:
:
Plaintiff,
:
:
vs.
:
:
GOVERNOR ANDREW M. CUOMO in his
:
official capacity,
:
:
Defendant.

Case No.

20 CV 4844

COMPLAINT
JURY TRIAL DEMANDED

----------------------------------------------------------x
Plaintiff The Roman Catholic Diocese of Brooklyn, New York (the Diocese or
Plaintiff), by and through its attorneys, Gibson, Dunn & Crutcher LLP, for its Complaint
against Defendant Governor Andrew M. Cuomo, in his official capacity, alleges as follows:
NATURE OF THE CASE
1.

This case concerns the governments wholesale infringement of a fundamental

First Amendment rightthe free exercise of religionthat, if allowed to stand, will prevent
parishioners in Brooklyn and Queens from being able to attend mass even though the executive
order at issue is not even remotely tailored to the compelling interest required to justify
interference with that fundamental right. Injunctive relief is therefore necessary to protect and
preserve Plaintiffs and its parishioners constitutional rights in the face of this government
overreach.
2.

On October 6, 2020, New York Governor Andrew Cuomo announced a new

series of overbroad COVID-19 restrictions directed at Houses of Worship in certain
neighborhoods that will effectively force over two dozen churches within the Diocese of
Brooklyn to close their doors, even though those churches have been reopened for months in

1

R.A. 1

Case 1:20-cv-04844-NGG-CLP Document 1 Filed 10/08/20 Page 2 of 22 PagelD # : 2

strict adherence to all medical and governmental guidance, without any COVID-related incidents
whatsoever. The Governor now proposes to limit in-person attendance at all Houses of
Worship to the lesser of 10 people or 25% of church capacity in certain designated
geographical areas, and to the lesser of 25 people or 33% of church capacity in others. As
applied to the Diocese, whose impacted churches overwhelmingly seat upwards of 500 to 1,000
parishioners, the percentage caps (which track existing attendance restrictions) are rendered
wholly illusory, and thus the churches will be placed in the untenable position of limiting
attendance at Sunday mass and other foundational Catholic services such as baptisms, weddings,
and funerals, to just 10 worshippers in designated red zones or just 25 worshippers in
designated orange zones. Meanwhile, all other essential businesses can remain open without
any capacity limitations whatsoever, and in the orange zones, even most non-essential businesses
can remain open without any capacity limitations. This express targeting of religious practice for
unwarranted, disparate treatmentincluding the very physical acts that constitute the free
exercise of religion, such as assembling with others for a worship service [and] participating
in sacramental use of bread and wine, Cent. Rabbinical Cong. of U.S. & Canada v. N.Y.C.
Dept of Health & Mental Hygiene, 763 F.3d 183, 193 (2d Cir. 2014) (quoting Employment Div.
v. Smith, 294 U.S. 872, 877 (1990))violates Plaintiffs core First Amendment rights and cannot
stand, especially as applied to the Dioceses churches, which have operated safely for months
now, strictly adhering to existing government guidelines and unquestionably protecting their
parishioners from any spread of COVID-19. The Diocese therefore now files suit to enjoin the
application of the 10- and 25-person capacity limitations on its churches within these red and
orange zones. To be clear, the Diocese does not challengeand, indeed, has supported and
will continue to adhere tothe percentage capacity caps, consistent with how its churches have

2

R.A. 2

Case 1:20-cv-04844-NGG-CLP Document 1 Filed 10/08/20 Page 3 of 22 PagelD # : 3

been operating safely for months. But the Governor's new restrictions go way too far, infringe
way too much, and have no legitimate basis, as applied to the Dioceses churches.
3.

At his press conference announcing the new restrictions, the Governor openly

admitted that the rules are most impactful on houses of worship. But it is well-settled that
official action that targets religious conduct for distinctive treatment is subject to the most
rigorous of scrutiny. Church of Lukumi Babalu Aye, Inc. v. City of Hialeah, 508 U.S. 520, 534
(1993). The Governors action here cannot come close to satisfying this strict scrutiny,
especially as-applied to the Diocese, which has at all times gone above and beyond in
implementing health and safety precautions in response to the pandemic, and has seen no spike
or outbreak of COVID-19 relating to church attendance. At his press conference, the Governor
alluded to COVID spread among other communities that are alleged to have flouted prior
guidance. But this purported basis for the new rules belies any contention that the restraints on
Plaintiffs religious liberty are narrowly tailored: To the extent the Governor is aware of or
suspects that certain communities or congregations are not adhering to public health regulations,
the proper, more narrowly tailored solution is to enforce existing law as to those alleged
violators, or to tailor any new restrictions (assuming new restrictions are necessary, an issue on
which Plaintiff takes no position) to the specific alleged violations, not to impose categorical
restrictions on the free exercise of religion of all citizens across entire zip codes, including
thoselike Plaintiffwho have voluntarily exceeded State public health requirements to great
success.
4.

When the COVID-19 pandemic hit United States soil, the Diocese of Brooklyn

wasted no time implementing voluntary, proactive safety countermeasures to combat it, even
when that meant altering centuries-old religious traditions sacred to the Catholic Church. As

3

R.A. 3

Case 1:20-cv-04844-NGG-CLP Document 1 Filed 10/08/20 Page 4 of 22 PagelD # : 4

early as January 2020, when news of the coronavirus began to dominate United States airwaves,
albeit largely from thousands of miles away, Plaintiff suspended the receiving of the Precious
Blood by its parishioners and strongly encouraged that Holy Communion be taken by hand. And
when the pandemic began to ravage the streets of New York City, Plaintiff only increased its
countermeasures, culminating in the Diocese ordering the closure of all of its churches and
parishes effective March 16before New York State officially went on pause. When the
State issued its lockdown measures shortly thereafter, Plaintiff faithfully abided by both the
government- and self-imposed restrictions, shuttering its churches for months on end.
5.

Reopening church doors was achieved only through countless hours spent

meticulously crafting protocols that would permit parishioners to safely return to worship. The
Diocese assembled an internal committee, chaired by Joseph Esposito, the former Commissioner
of New York City Emergency Management and Chief of Department of the New York City
Police Department, to study and implement COVID-19 safety measures. When the church doors
reopened, all churches within the Diocese operated under the strict protocols put in place by the
committee to ensure that worship was conducted in the safest manner possible: Parishioners
were required to wear masks; every other pew was left empty; occupied pews were spaced to
accord with social distancing protocols; traffic flow was managed to avoid parishioners passing
one another; and sacred church practices, including Holy Communion, were either reformed or
altogether suspended to preserve the health of the congregation. At every turn, the Diocese,
through the work of the committee, went consistently above and beyond what the government
mandated.
6.

But it has worked. Parishioners have successfully returned to worship, albeit in

smaller numbers and with heightened diligence. None of the Catholic churches in the Diocese

4

R.A. 4

Case 1:20-cv-04844-NGG-CLP Document 1 Filed 10/08/20 Page 5 of 22 PagelD #: 5

(or elsewhere in New York City) has experienced any new outbreak or spread of COVID-19.
And yet this delicate balance between religious liberty and public health and safety has now been
upended by the Governors broad-brush response to combatting apparent pockets of COVID-19
spikes in some faith communities by imposing on all faith communities in the affected areas
disparate treatmentwhether or not those communities have been compliant with the preexisting
rules and operating safely, as the Dioceses churches have. This blunt instrumentwhich was
announced by press release rather than by executive order and was thus shielded from public
commenteffectively orders the Dioceses churches within the red and orange zones to
once again shut their doors. That process, albeit excruciatingly painful to a community that
flourishes through in-person worship, may have been necessary in March, when the pandemic
raged unabated and neither the church nor the State was in position to combat it effectively. But
it is altogether unnecessary now, when the Diocese has already proven that its rigorous
countermeasures are effective and has not experienced even a single COVID-19 outbreak since
reopening church doors.
7.

The Supreme Court has long recognized that although there exists an

acknowledged power of a local community to protect itself against an epidemic threatening the
safety of all, such restrictions may be exercised in such an arbitrary, unreasonable manner, or
might go so far beyond what was reasonably required for the safety of the public, as to authorize
or compel the courts to interfere for the protection of such persons. Jacobsen v. Commonwealth
of Massachusetts, 197 U.S. 11, 28 (1905). That is this case. Given the substantial burdens on
religious practice the Governors capacity limitations would impose, the lack of any evidence
whatsoever that their application to the Diocese is tailored to any public health interest, and the
heavy burden on the government to justify restrictions expressly and directly targeted at

5

R.A. 5

Case 1:20-cv-04844-NGG-CLP Document 1 Filed 10/08/20 Page 6 of 22 PagelD #: 6

constitutionally protected religious activity, the restrictions at issue here cannot withstand First
Amendment scrutiny as-applied to Plaintiff.
8.

This Court should accordingly follow the lead of courts throughout the country

and conclude that broad-brush restrictions on religious exercise, such as the Governors latest
executive order, as applied here to these Roman Catholic churches, should be enjoined. See, e.g.,
Roberts v. Neace, 958 F.3d 409 (6th Cir. 2020); Maryville Baptist Church, Inc. v. Beshear, 957
F.3d 610 (6th Cir. 2020); Soos v. Cuomo, 2020 WL 3488742 (N.D.N.Y. June 26, 2020); Berean
Baptist Church v. Cooper, 2020 WL 2514313 (E.D.N.C. May 16, 2020); Tabernacle Baptist
Church, Inc. of Nicholasville v. Beshear, 2020 WL 2305307 (E.D. Ky. May 8, 2020) (all
enjoining government actions attempting to restrict the free exercise of religion on COVIDrelated public health grounds). The COVID-19 pandemic has now been raging in this country
for over six months and, unfortunately, looks to have many more months ahead of it. The
Diocese takes the pandemicand the threat it poses to its parishionersextremely seriously.
But it cannot be that the pandemic alone justifies restrictions that, in another time, would plainly
contravene the Constitution. [R]estrictions inexplicably applied to one group and exempted
from another do little to further [public safety] goals and do much to burden religious freedom.
Roberts, 958 F.3d at 414-15. And [w]hile the law may take periodic naps during a pandemic,
[courts] will not let it sleep through one. Id. at 415. This Court should therefore enjoin the
Governor from enforcing the 10- and 25-person maximum attendance restrictions as applied to
Roman Catholic churches in the designated geographic red and orange zones in Brooklyn
and Queen.
PARTIES
9.

Plaintiff The Roman Catholic Diocese of Brooklyn, New York is a division of the

Roman Catholic Church. The Diocese was founded in 1853 and heads 186 Catholic parishes and
6

R.A. 6

Case 1:20-cv-04844-NGG-CLP Document 1 Filed 10/08/20 Page 7 of 22 PagelD # : 7

210 Catholic churches in the Brooklyn and Queens regions of New York. The Diocese is
headquartered at 310 Prospect Park West in Brooklyn, New York. The Diocese brings this
action for itself and on behalf of its churches and parishes and their member-parishioners.
10.

Defendant Andrew Cuomo is the Governor of the State of New York. On

October 6, 2020, Governor Cuomo announced an initiative that, inter alia, slashes the capacity
limits for houses of worship in certain areas identified by zip code, including those in Brooklyn
and Queens where the Diocese operates.
JURISDICTION AND VENUE
11.

This Court has subject matter jurisdiction over Plaintiffs constitutional claim

pursuant to 28 U.S.C. § 1331.
12.

Venue is proper in this Court under 28 U.S.C. § 1391(b)(2) because a substantial

part of the events or omissions giving rise to the claim occurred in this district.
STATEMENT OF THE CASE
I.

The Diocese Provides A Place Of Worship To Catholics In Brooklyn And Queens
For Over 165 Years.
13.

The Diocese of Brooklyn was founded in 1853. During that time, more than five

million tired and poor Irish Catholic immigrants arrived at the port of New York in search of a
better life. In addition to shelter and opportunity, these immigrants sought the opportunity to
freely practice their religion and openly follow the tenets of the Roman Catholic faith. The
Diocese sought to address that need for all those immigrants who settled in Brooklyn and
Queens.
14.

Today, the combined population of Brooklyn and Queens stands at more than 4.9

million, of whom 1.5 million identify as Catholics. The Diocese of Brooklyn serves this
community in various ways. Due to the multicultural and diverse populations of the two

7

R.A. 7

Case 1:20-cv-04844-NGG-CLP Document 1 Filed 10/08/20 Page 8 of 22 PagelD # : 8

boroughs, masses are regularly held in 33 different languages across the Diocese, throughout 186
parishes with 210 churches. Through 26 ethnic ministries, the Diocese promotes cultural events
and provides an opportunity for immigrants to belong to the larger community while preserving
and sharing their uniqueness and traditions. In the year 2019 alone, the Diocese celebrated
15,885 Baptisms, 11,957 First Communions, 9,549 Confirmations and 1,951 Marriages, and had
an average weekly attendance of almost 230,000 spread across over 1,000 weekly Sunday
Masses in Brooklyn and Queens.
15.

Throughout its 165-plus year existence, the Diocese has provided irreplaceable

gifts to its parishioners and the surrounding community. Its parishes have enriched the lives of
the people of its community by providing spiritual leadership, a place to worship freely, and a
moral compass through New Yorks greatest triumphs as well as its darkest moments.
II.

The Diocese Proactively Shutters To Combat The Spreading Pandemic.
16.

In early 2020, the COVID-19 pandemic descended on New York City and the

United States at large. The Diocese acted swiftly in response, implementing drastic
countermeasures even before required to do so by government mandate, even when those
measures cut to the heart of the Catholic Churchs time-honored religious rituals.
17.

The Diocese began rolling out COVID-19 safety measures as early as January 31,

2020, with the Office of the Vicar General issuing a strong recommendation to Diocesan pastors
and administrators that Holy Communionthe most sacred and time-honored ritual of the
Catholic Churchbe received only by hand, a shift from the general practice detailed below.
18.

In a memo issued to pastors and administrators on March 4, 2020, the Most

Reverend Raymond Chappetto further emphasized that recommendation, writing, It is VERY
STRONGLY suggested that Holy Communion be received in the hand as long as this
[coronavirus] threat continues. The memo also suspended the distribution of the Precious
8

R.A. 8

Case 1:20-cv-04844-NGG-CLP Document 1 Filed 10/08/20 Page 9 of 22 PagelD #: 9

Bloodthe drinking of wine from a chalice as part of Holy Communionand required that the
clergy disinfect their hands before distributing Holy Communion.
19.

According to Catholic belief, upon consecration, the substance of the bread

offered during Holy Communion becomes the Body of Christ, and the substance of the wine
offered during Holy Communion becomes the Blood of Christ. Ordinarily, parishioners are
provided a wafer either in their hand or on their tongue, and at many churches those parishioners
are also provided with the option of receiving wine. However, in response to the pandemic, the
Diocese instructed that Holy Communion no longer be taken on the tongue, and that wine no
longer be distributed during Communion at all.
20.

The March 4 memo implemented a number of other safety measures, which

scaled back, or eliminated altogether, other religious rituals important to Catholic worship. The
memo, for example, suspended the Sign of Peace as traditionally marked with a handshake and
ordered that Holy Water fonts be emptied.
21.

On March 11, 2020, as COVID-19 continued to spread throughout New York

City, the Office of the Vicar General issued a letter that again strongly recommended that Holy
Communion be received by hand and that rehashed the other safety measures implemented by
the Diocese, including the suspension of the Precious Blood and the Sign of Peace by a
handshake.
22.

Just four days later, in response to rapidly changing conditions in the City, and in

advance of any governmental shutdown orders, the Diocese announced that it would be
canceling all public masses effective the next day. That difficult decision followed on the heels
of guidance issued by the Most Reverend Nicholas DiMarzio, the Bishop of Brooklyn,
dispensing parishioners from their obligation to attend Mass.

9

R.A. 9

Case 1:20-cv-04844-NGG-CLP Document 1 Filed 10/08/20 Page 10 of 22 PagelD # : 10

23.

On March 19, the Diocese, at the direction of Bishop DiMarzio, ordered all of its

parishes and churches altogether shuttered.
24.

In the days and weeks that followed, Governor Cuomo issued a series of

regulations restricting public gatherings and other non-essential activities in response to the
COVID-19 pandemic. Most notably, on March 20, Governor Cuomo issued the New York
State on PAUSE order, which required all non-essential businesses across the State to shut
down in-person operations entirely. Pursuant to that order, on March 23, Governor Cuomo
implemented a total ban on non-essential gatherings of any size, held for any reason.
25.

The Diocese of Brooklyn and its over 200 churches immediately and strictly

complied with this ban. Indeed, the Diocese voluntarily closed its doors in the interest of public
health and safety prior to Governor Cuomos PAUSE order, emphasizing that it would
comply with any of the States regulations, and urged parishioners to take the necessary
precautions, including remaining at a safe distance from others.
26.

Governor Cuomos pandemic-related orders remained in effect throughout the

spring and into the summer. New York City, one of the epicenters of the pandemic, was among
the last places in the State to begin the process of reopening. It was not until late May that
houses of worship were permitted to open for private worship and small gatherings of 10 people
or less, not until June 8 that the City officially began phase one of its reopening efforts, and not
until June 22 that houses of worship could officially open their doors to congregants at a 25%
capacity as part of the second phase of the Citys reopening. Phase four of the Citys reopening
efforts, which permitted houses of worship to operate at 33% capacity, did not commence until
July 20 (though, as discussed below, the Diocese has voluntarily refrained from admitting that
additional capacity).

10

R.A. 10

Case 1:20-cv-04844-NGG-CLP Document 1 Filed 10/08/20 Page 11 of 22 PagelD # : 11

27.

The Diocese of Brooklyn remained closed even as the City began to reopen,

faithfully abiding by its own safety measures and exceeding those implemented by the State.
Although the State permitted houses of worship to open their doors at 25% capacity on June 22,
churches within the Diocese, following guidance from Diocesan leadership, did not conduct inperson weekday services until June 29, and did not reopen for weekend public mass until the
July 4 weekend. During that opening and at all times thereafter, the Diocese and its member
churches strictly complied with the 25% capacity requirement, and as discussed in more detail
below, directed and implemented numerous other significant safety protocols, procedures, and
monitoring.
28.

During the period of total closure, numerous weddings, funerals, and baptisms

were canceled. As the government-imposed restrictions eased in May and June, some of these
ceremonies were allowed to take place, but were strictly capped at 10 people. All mass services
were similarly cancelled during the period of closure, and parishioners across Brooklyn and
Queens were instructed to pray and worship from the safety of their homes.
29.

This period of closure was extremely painful for the Diocese of Brooklyn and its

faith community. In addition to the physical and emotional toll that the pandemic took on the
community, parishioners were denied the ability to attend in-person mass, which is of critical
spiritual importance in the Catholic faith. Likewise, the cancellations or severe curtailments of
baptisms, weddings, funerals, and other ceremonies of enormous religious and personal
significance were difficult for many members of the Catholic faith. Nevertheless, the Diocese
abided by the States severe restrictionsand imposed its own exacting restrictions on its
various parishes, even in advance of the State mandate to shutterbecause doing so was in the
best interest of the health and welfare of Dioceses community.

11

R.A. 11

Case 1:20-cv-04844-NGG-CLP Document 1 Filed 10/08/20 Page 12 of 22 PagelD # : 12

III.

The Diocese Successfully Responds To the COVID-19 Pandemic And Safely
Reopens Its Doors.
30.

Even as churches throughout Brooklyn and Queens remained shuttered, the

Diocesan leadership worked steadily behind the scenes to ensure that, when the time came, the
Diocese would be able to offer congregants a safe space for religious expression and worship.
To that end, the Diocese established a commission to craft procedures that would address the
ongoing COVID-19 pandemic while simultaneously ensuring that their parishioners spiritual
needs would be met.
31.

The commission was chaired by Joseph Esposito, the former Commissioner of

New York City Emergency Management and former Chief of Department of the New York City
Police Department. There were eleven other members of the commission, including priests and
laypeople, which was designed to capture input from various stakeholders in the community.
Members of the commission consulted closely with medical professionals, as well as several of
Mr. Espositos prior colleagues in Emergency Management and the Police Department.
32.

The commission met numerous times over the course of May and June,

meticulously studying the COVID-19 guidelines that Governor Cuomo and New York City
Mayor Bill de Blasio had published, as well as all applicable federal, State, and City ordinances
and directives related to the pandemic, in order to provide appropriate instruction and guidance
to church leadership. Each Friday, the commission provided proposed protocols to Bishop
Chappetto. These protocols were then sent to each parish in the Diocese by means of weekly
memoranda, as well as posted to the Dioceses public website and further transmitted to the
public via social media. To ensure that these protocols reached as wide an audience as possible,
the Diocese engaged a media company to assist with the distribution.

12

R.A. 12

Case 1:20-cv-04844-NGG-CLP Document 1 Filed 10/08/20 Page 13 of 22 PagelD #: 13

33.

Starting in late May 2020, the Dioceses churches opened in a staged approach

that has been conducted in accordance with the iterative regulations promulgated by New York
State and New York City. In doing so, all Catholic Churches within the Diocese of Brooklyn
adopted the recommendations of the Dioceses COVID-19 commission on how to institute
procedures to safely accommodate congregants constitutional and spiritual right to worship and
engage in Catholic religious practices. During this initial period of reopening, churches within
the Diocese did not offer mass and limited all church visitors and attendance at ceremonies such
as funerals to 10 people.
34.

By late June, churches within the Diocese could officially reopen at 25% capacity

under applicable City and State guidelines. However, upon the recommendation of the
Dioceses COVID-19 commission, the Diocese waited until June 29 to reopen for in-person
weekday services at the 25% capacity limit, and did not reopen for weekend mass until July 4
(again, operating at only 25% capacity). This choice to proceed cautiously and gradually was
made to ensure that all proper safety protocols had been implemented by each parish within the
Diocese, and because church leadership believed that reopening for weekend services over July 4
would allow for a particularly soft reopening given the expectation that many parishioners
would be out of town for the holiday weekend.
35.

In the lead-up to the 25% capacity reopenings, church leadership assisted various

parishes in obtaining all the supplies that they would need to safely open their doors. The
Diocese identified the types of supplies churches would need to have on hand to reopen, and
published guidance about where parishes could obtain essential items such masks, disinfectants,
fogging machines, and hand sanitizer. Church leadership further instructed that any parish that
was unable to secure the necessary supplies or implement the relevant protocols in advance of

13

R.A. 13

Case 1:20-cv-04844-NGG-CLP Document 1 Filed 10/08/20 Page 14 of 22 PagelD # : 14

the July 4 soft reopening date delay their reopening until they could do so and thus guarantee the
safety of their parishioners.
36.

Prior to reopening, all churches were thoroughly sanitized, either by outside

companies or with equipment recommended by Rocklyn Assets Corp., the property office for the
Diocese. Rocklyn Assets Corp. prepared a comprehensive instructional video for those parishes
that chose to sanitize their churches without outside assistance, in order to demonstrate the
proper techniques for sanitizing large spaces.
37.

Additionally, prior to reopening, all parishes were advised to report any instances

of COVID-19 directly to Bishop Chappetto. This instruction complemented a system that had
been in place since March, whereby priests were encouraged to raise any COVID-related
questions or concerns directly with Bishop Chappetto.
38.

Since reopening in early July, each church within the Diocese has had to adhere to

strict protocols regarding church practices and services. Iterative rounds of written protocols and
a PowerPoint deck provided to parishes before and after reopening outlined these procedures in
detail. Among other requirements, churches within the Dioceses must:

•

Ensure that parishioners wear a mask at all times, except for a brief moment when
they receive a socially distanced Holy Communion;

•

Block off every other pew so congregants cannot sit immediately in front of or behind
one another;

•

Mark off seats with tape six feet apart within each open pew to ensure appropriate
social distancing;

•

Provide hand sanitizer stations throughout the church;

•
•

Remove all hymnals, missalettes, and other worship aids from pews;
Only open for abridged hours both on weekdays and for weekend masses;

14

R.A. 14

Case 1:20-cv-04844-NGG-CLP Document 1 Filed 10/08/20 Page 15 of 22 PagelD #: 15

•

Keep multiple doors open for various points of entry and exit, and direct traffic in and
out of the church, to ensure that worshipers enter and exit in a socially distant
manner; and

•

Retain additional ushers and security guards to enforce compliance with all of the
required procedures and protocols.

39.

The Diocese has also continued to abide by the changes to fundamental church

practices instituted at the outset of the pandemic. Most notably, the Diocese has retained the
changes to the giving and receiving of the sacrament of Holy Communion, requiring that
Communion be taken by hand and dispensing with the distribution of wine.
40.

These preventative measures have proven immensely successful. In the three

months since Catholic churches in Brooklyn and Queens have reopened, there have not been any
reported outbreaks of COVID-19. As a result, in recent weeks, the Diocese had finally begun
work on plans to safely increase the capacity of its churches to 33%, as would have been
permitted under the then-applicable government regulations.
IV.

The State Implements New, Overbroad, And Unduly Burdensome Restrictions
Directed At Houses of Worship And Applicable to Catholic Churches In Brooklyn
And Queens.
41.

On October 6, in response to upticks of COVID-19 cases localized in certain non-

Catholic communities in New York, including in certain Brooklyn and Queens neighborhoods,
Governor Cuomo announced a New Cluster Action Initiative (the Initiative). Governor
Cuomo announced his Initiative by press release instead of by Executive Order, thereby
depriving the public an opportunity to review and comment on the Initiative prior to its
implementation.
42.

The Initiative identifies certain purported at-risk areas, by zip code, and divides

those areas into red, orange, and yellow zones, with red zones representing the highest

15

R.A. 15

Case 1:20-cv-04844-NGG-CLP Document 1 Filed 10/08/20 Page 16 of 22 PagelD # : 16

density of new COVID-19 cases, orange zones representing a warning area, and yellow zones
representing a precautionary area.
43.

As is relevant here, the Initiative targets certain areas in Brooklyn that are divided

into red, orange, and yellow zones, and certain areas in Queens, each also divided into the three
zones. The Diocese operates numerous churches and parishes falling within these purportedly
at-risk areas, including 13 churches and parishes falling within the severely restricted red zones
and 11 falling within the orange zones.
44.

The Initiative drastically inhibits the operation of, and in fact effectively shutters,

all Catholic churches in red and orange zones, requiring that they operate with a 10-person
maximum in red zones, or 25-person maximum in orange zones. While the Initiative also
provides for a 25% capacity limit in red zones and a 33% capacity limit in orange zones, these
percentage caps are illusory, as the Initiative limits operations to the lesser of the fixed 10- or 25person limits or the percentage capacity limits.
45.

The restrictions do not account for, or make any distinction based on, the size of a

church. Take, for example, a church which typically houses 1,000 parishioners, safely operating
at a 25% capacity as a countermeasure to COVID-19. The Governors Initiative requires that
church to reduce its already COVID-19-reduced capacity from 250 parishioners to 10 (if located
within a red zone) or 25 (if located within an orange zone).
46.

All of the Dioceses 13 churches in the red zone, and all but one of the Dioceses

11 churches in the orange zone can accommodate 500 or more people, with the remaining church
seating 200. Indeed, 12 of these churchesincluding four in the red zonecan accommodate
750 or more people, and two churches in the orange zone seat over 1,000. The Initiative thus

16

R.A. 16

Case 1:20-cv-04844-NGG-CLP Document 1 Filed 10/08/20 Page 17 of 22 PagelD #: 17

forces even the very smallest of these churches, operating safely at 25% capacity, to cut its
occupancy by 80% (from 50 parishioners to 10, if within the red zone).
47.

The Initiative also entirely shutters any schools falling within red or orange zones,

including those Catholic schools operated by the Diocese, thereby depriving students of an inperson Catholic education, despite no evidence of COVID-19 outbreaks at those facilities.
48.

And while the Initiative shutters non-essential businesses located in red zones and

restricts dining to takeout only, all essential businessesa broad category that includes
everything from grocery stores to banks to pet shopsremain open without capacity limitations.
In orange zones, commercial businesses remain largely unaffected, with almost all essential and
non-essential businesses remaining open without capacity limitations of any kind. In the orange
zones, only high risk, non-essential businesses, like gyms, are subject to closure, and restaurants
are limited to outdoor dining with a four-person maximum per table (but no overarching capacity
limit).
49.

During a press conference announcing the Initiative, Governor Cuomo recognized

that his order will disproportionately impact houses of worship, noting, Obviously these rules,
the new rules are most impactful on houses of worship. The Governor further claimed that
[t]his virus is not coming from non-essential businesses, but rather [t]his is about mass
gatherings and one of the prime places of mass gatherings are houses of worship.
50.

In the course of explaining his action on this sensitive topic, Governor Cuomo

referenced his love for the Orthodox [Jewish] community and how, in his view, [t]he Torah
speaks about how certain religious obligations can be excused if you are going to save a life. It
appears the Governor may have been responding to certain press reports documenting COVID-

17

R.A. 17

Case 1:20-cv-04844-NGG-CLP Document 1 Filed 10/08/20 Page 18 of 22 PagelD # : 18

19 outbreaks within the Orthodox Jewish community.1 The Governor also claimed that weve
seen one church infect people, an apparent reference to a headline from a press clipping that
simultaneously appeared on the screen at the press conference. This article, however, was a
report on an outbreak at an upstate Slavic Pentecostal Church at which masks were treated as
optional and video evidence suggested that almost everyone was unmasked.
51.

Despite his focus on COVID-19 outbreaks in certain geographically concentrated,

socially insular religious communities located within the targeted areas (and his vague allusion to
an outbreak at an upstate facility with insufficient COVID-19 protocols), the Governor has made
no attempt to ameliorate the disproportionate hardship the Initiative will effect on other
communities, like the Dioceses faith community, that have successfully implemented COVID19 countermeasures and that have experienced no COVID-19 outbreaks to date.
V.

The New Restrictions Effectively Shutter The Diocese, Despite Its Proven Success At
Combating The Pandemic.
52.

Since reopening, churches across the Diocese have seen a steady increase in the

number of people seeking to attend mass or visit a church to pray. Indeed, certain parishes have
had to rely on overflow rooms for parishioners (which the Diocese subjects to the same capacity
limitations) to ensure that the 25% capacity limit could be honored, while still providing a space
for congregants to worship in person. This return to in-person worship has been a lifeline to
many in the religious community, and heartening for those in church leadership who were pained
by the months of (admittedly necessary) closure during the peak of the pandemic. Effectively
closing the doors of the church again now would be devastating to the community, and would

1

See, e.g., Gina Bellafante, When Covid Flared Again in Orthodox Jewish New York, N.Y.
Times (Oct. 5, 2020); Kristina Sgueglia & Melanie Schuman, New York sees startling uptick in
Covid-19 cases in Orthodox Jewish neighborhoods, CNN (Sept. 30, 2020).
18

R.A. 18

Case 1:20-cv-04844-NGG-CLP Document 1 Filed 10/08/20 Page 19 of 22 PagelD # : 19

grossly infringe on the First Amendment rights of Catholics in the affected areas of Brooklyn
and Queens.
53.

Assembly in the church is at the core of Catholic faith. By gathering in person,

Catholics show support for each other and their fellow congregants. Additionally, the sacrament
of Holy Communion, a central component of the spiritual lives of Catholics, may only be
received in person. As emphasized by Bishop Chappetto, the Orders effective prohibition on inperson assembly and worship would be devastating and spiritually harmful.
54.

The Order would also infringe upon other critical religious ceremonies, such as

baptisms, weddings, and funerals. In-person assembly for these and similar services is essential
to the Catholic community. By causing the cancellation or severe curtailment of such services,
the Order would impose irreparable harm on the Diocese of Brooklyn and those it serves.
55.

Nor is it any relief to the Diocese and those it serves that the Order allows for

gatherings of 10 or 25 people in the red and orange zones, respectively. As emphasized above,
such capswhen considered against the number of people that would otherwise be (safely)
served by the affected churches, even after honoring a 25% capacity limitwould eviscerate the
congregation, including because it would render it effectively impossible to conduct public mass.
And these caps would require priests to perform the impossible task of choosing a small minority
of parishioners to participate in worship in person, while leaving the remaining would-be
worshipers out on the street. In addition, the opportunity to conduct lifecycle events such as
weddings, funerals, and baptisms inside the church among a broad (but controlled) compliment
of family, friends, and clergy is spiritually significant.

19

R.A. 19

Case 1:20-cv-04844-NGG-CLP Document 1 Filed 10/08/20 Page 20 of 22 PagelD # : 20

CLAIM FOR RELIEF
Free Exercise  First Amendment; 42 U.S.C. § 1983
56.

Plaintiff repeats and realleges the allegations set forth above as though fully set

forth herein.
57.

The First Amendments Free Exercise Clause provides that Congress shall make

no law respecting an establishment of religion, or prohibiting the free exercise thereof. U.S.
Const. amend I. Where, as here, a law targets religious practice for disparate treatment and is
neither neutral nor generally applicable, that law is assessed under the Supreme Courts strict
scrutiny rubric.
58.

The Governor, acting under color of State law, has deprived and will continue to

deprive Plaintiff of its First Amendment rights.
59.

Specifically, the Governor has instituted an Initiative that plainly and

unconstitutionally targets religious practice for at least three reasons. First, its text limits
Houses of Worship located in red zones to 25% capacity with a 10-person maximum and
Houses of Worship in the orange zone to 33% capacity with a 25-person maximum. Similar
restrictions do not apply to secular businesses like grocery stories and pet food shops. Second,
the way the order operates in practice, including the numerous exceptions to the capacity
limitations that apply to secular businesses, make clear that the order targets religious practice.
Even in the most restrictive Cluster in the orderthe red zonewhere only essential secular
businesses are permitted to remain open, the capacity limitations the Governors order imposes
on Houses of Worship simply do not apply to non-religious institutions. Third, the Governors
own words conceding that the new rules[] are most impactful on houses of worship make clear
that his order targets religious practice for disparate treatment and is neither neutral nor generally
applicable. The Initiatives burdens on religious practice also are not slight: The Initiative will

20

R.A. 20

Case 1:20-cv-04844-NGG-CLP Document 1 Filed 10/08/20 Page 21 of 22 PagelD # : 21

force the closure of numerous Churches and effectively forbid essential in-person religious
practicepractice that the Church is able to undertake (and has undertaken) in a safe way.
Because the Initiative specifically targets the practice of religion, strict scrutiny applies.
60.

The Initiatives red and orange zone caps of 10 and 25 people, respectively, do

not survive strict scrutiny because those caps are not narrowly tailored to the governments
interest in promoting public health and safety, particularly as applied to the Diocese. Defendant
can offer no evidence that COVID-19 infections have arisen at any Church in the Diocese but
rather has identified COVID-19 infections that he claims arose from the practices of entirely
distinct religious communitiesincluding one as far away as Rochester. To the extent the
Governor is concerned with COVID-related compliance issues in those other communities, there
is clearly a less restrictive means of combatting that issue: Enforce the existing rules in those
communities. The Initiative also fails to take into account the significant investments of time,
money, and effort the Church has undertaken to ensure its worship is fully consistent with and
even exceeds the States public safety standards, including its altering of fundamental Catholic
practices to ensure the safety of parishioners and the community at large. The capacity caps in
particular also ignore the distinction between sizes of houses of worshipa particular problem
as applied to churches in the Diocese, all but two of which seat more than 500 people and some
more than 1,000. Finally, the Initiative is clearly untailored as applied to the Diocese given the
starkly different consequences the order imposes on secular business, allowing, for instance,
hundreds of people to shop at a grocery store but limiting worship in a 1,200 seat church to a
mere 10 parishioners (nine including clergy).
PRAYER FOR RELIEF
WHEREFORE, Plaintiff prays for relief and judgment against Defendants as follows:

21

R.A. 21

Case 1:20-cv-04844-NGG-CLP Document 1 Filed 10/08/20 Page 22 of 22 PagelD # : 22

A.

A declaration that application of the Initiatives 10- and 25-person maximum
attendance restrictions to Plaintiff and its member Roman Catholic
parishes/churches in the designated red and orange zones, respectively,
violates the First Amendment;

B.

A temporary restraining order and preliminary and permanent injunctions
enjoining Governor Cuomo from enforcing the 10- and 25-person maximum
attendance restrictions in designated red and orange zones, respectively, as
applied to Plaintiff and its member Roman Catholic churches in those zones;

C.

An award of fees, costs, expenses, and disbursements, including attorneys fees
and costs to which Plaintiffs are entitled pursuant to 42 U.S.C. § 1988; and

D.

Such other and further relief as the Court may deem just and proper.
DEMAND FOR JURY TRIAL

Pursuant to Federal Rule of Civil Procedure 38, Plaintiff demands a trial by jury in this
action of all issues so triable.
Dated: New York, New York
October 8, 2020
GIBSON, DUNN & CRUTCHER LLP
By:

Randy M. Mastro
Randy M. Mastro
Akiva Shapiro
William J. Moccia
Lee R. Crain
200 Park Avenue
New York, New York 10166
Tel.: (212) 351-4000
Fax: (212) 351-4035
RMastro@gibsondunn.com
AShapiro@gibsondunn.com
Attorneys for Plaintiff

22

R.A. 22

JS44 (Rev. 1o& j1se

1:20-cv-04844-NGG-CLFt~fflVER siJmi (j/08/20

Page 2 ( f tv f ' f f l4 D

# : 23

The JS 44 civil cover sheet and the information contained herein neither replace nor supplement the filing and service of pleadings or other papers as required by law, except as
provided by local rules of court This form, approved by the Judicial Conference of the United States in September I 974, is required for the use of the Clerk of Court for the
purpose of initiating the civil docket sheet (SEE INSTRUCTIONS ON NEXT PAGE OF THIS FORM.)

L (a) PLAINTIFFS
Roman Catholic Diocese of Brooklyn, New York
(b)

DEFENDANTS

Governor Andrew M. Cuomo in his official capacity

County of Residence of First Listed Plaintiff

County of Residence of First Listed Defendant

(EXCEPT IN U.S. PLAINTIFF CASES)

(IN U.S. PLAINTIFF CASES ONLY)
IN LAND CONDEMNATION CASES, USE THE LOCATION OF
THE TRACT OF LAND INVOLVED.

NOTE:

(C)

Attorneys (If Known)

Attorneys (Firm Name, Address, and Telephone Number)

Gibson Dunn & Crutcher LLP
200 Park Ave, 48th Floor
II. BASIS OF JURISDICTION (Place an X in One Box Only)

DI

D2

IR] 3

U.S. Government
Plaintiff

(For Diversity Cases Only)

Federal Question
(U.S. Government Not a Party)

D4

U.S. Government
Defendant

III. CITIZENSHIP OF PRINCIPAL PARTIES (Place an X in One Box for Plaintiff

Diversity
(Indicate Citizenship of Parties in Item III)

IV. NA TlJRE OF SUIT (Place an X in One Box Only)

D
D
D
D
D
D
D
D

CONTRACT
110 Insurance
120 Marine
130 Miller Act
140 Negotiable Instrument
150 Recovery of Overpayment
& Enforcement of Judgment
151 Medicare Act
152 Recovery of Defaulted
Student Loans
(Excludes Veteraos)
153 Recovery of Overpayment
of Veteran's Benefits
I 60 Stockholders' Suits
190 Other Contract
195 Contract Product Liability
196 Franchise

REAL PROPERTY
210 Land Condemnation
220 Foreclosure
230 Rent Lease & Ejectment
240 Torts to Land
245 Tort Product Liability
290 All Other Real Property

§
D
D

Original
Proceeding

D2

Citizen of Another State

02

Citizen or Subject of a
Foreign Country

03

TORTS
625 Drug Related Seizure
PERSONAL INJURY
PERSONAL INJURY
of Property 21 USC 881
310 Airplane
365 Personal Injury Product Liability
315 Airplane Product
690 Other
367 Health Care/
Liability
320 Assault, Libel &
Pharmaceutical
Slander
Personal lnjnry
Product Liability
330 Federal Employers'
Liability
368 Asbestos Personal
lnjnry Product
340 Marine
Liability
345 Marine Product
Liability
LABOR
PERSONALPROPERTY i--.-=:-:~~":""~"-:
350 Motor Vehicle
370 Other Fraud
710 Fair Labor Standards
Act
355 Motor Vehicle
371 Truth in Lending
Product Liability
720 Labor/Management
380 Other Personal
Property Damage
Relations
360 Other Personal
lnjnry
740 Railway Labor Act
385 Property Damage
362 Personal lnjnry Product Liability
751 Family and Medical
Medical Malpractice
Leave Act
790 Other Labor Litigation
CIVIL RIGHTS
440 Other Civil Rights
791 Employee Retirement
Habeas Corpus:
441 Voting
Income Security Act
463 Alien Detainee
442 Employment
510 Motions to Vacate
443 Housing/
Sentence
Accommodations
530 General
535 Death Penalty
445 Amer. w/Disabilities IMMIGRATI N
Employment
Other:
462 Naturalization Application
465 Other Immigration
446 Amer. w/Disabilities 540 Mandamus & Other
550 Civil Rights
Other
Actions
448 Education
555 Prison Condition
560 Civil Detainee Conditions of
Confinement

DEF
I

•
•
•

and One Box for Defendant)

lncmporated or Principal Place
of Business In This State

2

Incorporated and Principal Place
of Business In Another State

3

Foreign Nation

D
D
D
D
D

Removed from
State Court

D3

Remanded from
Appellate Court

D4

Reinstated or
Reopened

D

PTF
04

•
•

DEF
04
05

6

06

Click here for: Nature of Suit Code Descri tions.
BANKRUPTCY

D
D

V. ORIGIN (Place an X in One Box Only)

01

Citizen ofThis State

PTF
01

HT
835 Patent - Abbreviated
New Drug Application
840 Trademark
880 Defend Trade Secrets
Act of2016

SOCIAL SECURITY
861 HIA (1395ft)
862 Black Lung (923)
863 DIWC/DIWW (405(g))
864 SSID Title XVI
865 RSI (405(g))
870 Taxes (U.S. Plaintiff
or Defendant)
871 IRS-Third Party
26 USC 7609

5 Transferred from
Another District

D6

(specify)

Multidistrict
Litigation Transfer

OTHER STATUTES

375 False Claims Act
376 Qui Tarn (31 USC
3729(a))
400 State Reapportionment
41 OAntitrust
430 Banks and Banking
450 Commerce
460 Deportation
470 Racketeer Influenced and
Corrupt Organizations
480 Consumer Credit
(15 USC 1681 or 1692)
485 Telephone Consumer
Protection Act
490 Cable/Sat TV
850 Securities/Commodities/
Exchange
890 Other Statutory Actions
891 Agricultural Acts
893 Environmental Matters
895 Freedom of Information
Act
896 Arbitration
899 Administrative Procedure
Act/Review or Appeal of
Agency Decision
950 Constitutionality of
State Statutes

D8

Multidistrict
Litigation Direct File

Cite the U.S. Civil Statute under which you are filing (Do not cite jurisdictional statutes unless diversity)

-u_
.s_
.c_.1-9-83- - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - Brief description of cause:
Violation of Free Exercise Clause

VI. CAUSE OF ACTION

f-4-2

VII. REQUESTED IN
COMPLAINT:

0

VIII. RELATED CASE(S)
IF ANY
DATE

CHECK IF THIS JS A CLASS ACTION
UNDER RULE 23, F.RCv.P.
(See instructions):

JUDGE

DEMAND$

JURY DEMAND:

FOR OFFICE USE ONLY
RECEIPT#

AMOUNT

0Yes

----------------- DOCKET NUMBER ------------

SIGNATURE OF ATTORNEY OF RECORD
is Randy M. Mastro

10/8/2020

• No

CHECK YES only if demanded in complaint:

APPL YING IFP

JUDGE

R.A. 23

MAG.JUDGE

Case 1:20-cv-0484~

lffl) l T~ ~ ~

T~ f f i ~I~ ~ f of 2 PaaelD # : 24

Local Arbitration Rule 83.7 provides that with certain exceptions, actions seeking money damages only in an amount not in excess of$150,00(Y,
exclusive of interest and costs, are eligible for compulsory arbitration. The amount of damages is presumed to be below the threshold amount unless a
certification to the contrary is filed.
Case is Eligible for Arbitration

D

I, - - - - - - - - - - - - - - - ~ counsel for_ _ _ _ _ _ _ _ _ _
compulsory arbitration for the following reason(s):

•

B

do hereby certify that the above captioned civil action is ineligible for

monetary damages sought are in excess of $150,000, exclusive of interest and costs,
the complaint seeks injunctive relief,
the matter is otherwise ineligible for the following reason

DISCLOSURE STATEMENT- FEDERAL RULES CIVIL PROCEDURE 7.1
Identify any parent corporation and any publicly held corporation that owns 10% or more or its stocks:

RELATED CASE STATEMENT (Section VIII on the Front of this Form)
Please list all cases that are arguably related pursuant to Division of Business Rule 50.3.1 in Section VIII on the front of this form. Rule 50.3.1 (a) provides that "A civil case is "related"
to another civil case for purposes of this guideline when, because of the similarity of facts and legal issues or because the cases arise from the same transactions or events, a
substantial saving of judicial resources is likely to result from assigning both cases to the same judge and magistrate judge." Rule 50.3.1 (b) provides that • A civil case shall not be
deemed "related" to another civil case merely because the civil case: (A) involves identical legal issues, or (B) involves the same parties." Rule 50.3.1 (c) further provides that
"Presumptively, and subject to the power of a judge to determine otherwise pursuant to paragraph (d), civil cases shall not be deemed to be "related" unless both cases are still
pending before the court."

NY-E DIVISION OF BUSINESS RULE 50.1(d)(2)
1.)

Is the civil action being filed in the Eastern District removed from a New York State Court located in Nassau or Suffolk
County?
Yes
No

2.)

If you answered "no" above:
a) Did the events or omissions giving rise to the claim or claims, or a substantial part thereof, occur in Nassau or Suffolk
County?
Yes
No

D

121

D

121

b) Did the events or omissions givil]Lrise to the claim or claims, or a substantial part thereof, occur in the Eastern
Yes
U No
District?

121

c) If this is a Fair Debt Collection Practice Act case, specify the County in which the offending communication was
received:
If your answer to question 2 (b) is "No," does the defendant (or a majority of the defendants, if there is more than one) reside in Nassau or
Suffolk County, or, ina intergleader ~on, does the claimant (or a majority of the claimants, if there is more than one) reside in Nassau or
Suffolk County?
Yes
No
(Note: A corporation shall be considered a resident of the County in which it has the most significant contacts)

BAR ADMISSION
I am currently admitted in the Eastern District of New York and currently a member in good standing of the bar of this court.

121

Yes

•

No

121

No

Are you currently the subject of any disciplinary action (s) in this or any other state or federal court?

•

Yes

(If yes, please explain

I certify the accuracy of all information provided above.
Signature:

/s Randy M. Mastro

R.A. 24

Last Modified: 11/27/2017

Case 1:20-cv-04844-NGG-CLP Document 1-2 Filed 10/08/20 Page 1 of 2 PagelD #: 25
AO 440 (Rev. 06/12) Summons in a Civil Action

UNITED STATES DISTRICT COURT
for the

Eastern District
of of
New
York
__________
District
__________
ROMAN CATHOLIC DIOCESE OF BROOKLYN,
NEW YORK

Plaintiff(s)

v.
STATE OF NEW YORK and GOVERNOR
ANDREW M. CUOMO in his official capacity,

Defendant(s)

)
)
)
)
)
)
)
)
)
)
)
)

Civil Action No. 1:20-CV-4844

SUMMONS IN A CIVIL ACTION
To: (Defendant’s name and address) Andrew M. Cuomo
Governor of the State of New York
NYS Capitol Building
Albany, NY 12224

A lawsuit has been filed against you.
Within 21 days after service of this summons on you (not counting the day you received it) — or 60 days if you
are the United States or a United States agency, or an officer or employee of the United States described in Fed. R. Civ.
P. 12 (a)(2) or (3) — you must serve on the plaintiff an answer to the attached complaint or a motion under Rule 12 of
the Federal Rules of Civil Procedure. The answer or motion must be served on the plaintiff or plaintiff’s attorney,
whose name and address are: Randy Mastro
Gibson, Dunn & Crutcher LLP
200 Park Ave
New York, N.Y. 10166-0193

If you fail to respond, judgment by default will be entered against you for the relief demanded in the complaint.
You also must file your answer or motion with the court.

CLERK OF COURT
Date:

R.A. 25

Signature of Clerk or Deputy Clerk

Case 1:20-cv-04844-NGG-CLP Document 1-2 Filed 10/08/20 Page 2 of 2 PagelD #: 26
AO 440 (Rev. 06/12) Summons in a Civil Action (Page 2)

Civil Action No. 1:20-CV-4844
PROOF OF SERVICE
(This section should not be filed with the court unless required by Fed. R. Civ. P. 4 (l))
This summons for (name of individual and title, if any)
was received by me on (date)

.

0 I personally served the summons on the individual at (place)

on (date)

; or

0 I left the summons at the individual’s residence or usual place of abode with (name)

, a person of suitable age and discretion who resides there,
on (date)

, and mailed a copy to the individual’s last known address; or

0 I served the summons on (name of individual)

, who is

designated by law to accept service of process on behalf of (name of organization)
on (date)

; or

0 I returned the summons unexecuted because

; or

0 Other (specify):

.
My fees are $

for travel and $

for services, for a total of $

I declare under penalty of perjury that this information is true.

Date:
Server’s signature

Printed name and title

Server’s address

Additional information regarding attempted service, etc:

R.A. 26

0.00

.

Case 1:20-cv-04844-NGG-CLP Document 3 Filed 10/08/20 Page 1 of 2 PagelD # : 29

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK
------------------------------------- x
:
THE ROMAN CATHOLIC DIOCESE OF
:
BROOKLYN, NEW YORK,
:
:
Plaintiff,
:
:
v.
:
:
GOVERNOR ANDREW M. CUOMO in his
:
official capacity,
:
:
Defendant.
:
------------------------------------- x

No. 1:20-cv-4844
[PROPOSED] ORDER
TO SHOW CAUSE FOR A
PRELIMINARY INJUNCTION
AND TEMPORARY
RESTRAINING ORDER

Upon the accompanying Plaintiffs Memorandum of Law in Support of its Application

for a Temporary Restraining Order and Preliminary Injunction dated October 8, 2020; the
Declaration of Bishop Raymond F. Chappetto, sworn to on the 8th day of October, 2020,
together with the exhibit(s) annexed thereto; the Declaration of Joseph J. Esposito, sworn to on
the 8th day of October, 2020, together with the exhibit(s) annexed thereto; the Declaration of
Randy M. Mastro, sworn to on the 8th day of October, 2020, together with the exhibit(s) annexed
thereto; and upon all the pleadings and other papers filed in this action; and the Court, having
reviewed the Memorandum of Law, supporting Declarations and exhibits submitted therewith,
and having found sufficient reason being alleged and good cause appearing therefore, it is
hereby:
ORDERED that Defendant Governor Andrew M. Cuomo, through his attorneys, show
cause before this Court, at Room ___, 225 Cadman Plaza East, in the City and County of
Brooklyn and State of New York, on the ___ day of ___________, 2020, a t ___ o'clock in
the ______ thereof, or as soon thereafter as counsel may be heard, why an order should not be
issued, pursuant to Rule 65 of the Federal Rules of Civil Procedure, preliminarily enjoining

R.A. 27

Case 1:20-cv-04844-NGG-CLP Document 3 Filed 10/08/20 Page 2 of 2 PagelD # : 30

Defendant, his representatives and agents, and all persons acting in concert or in participation
with him, or having notice, from enforcing the 10- and 25-person maximum attendance
restrictions in designated "red" and "orange" zones, respectively, imposed by the Governor's

recent executive order, as applied to Catholic churches in those zones, until such time as the
Court resolves Plaintiffs application for relief in this case; and it is further
ORDERED that, pending the Court's resolution of Plaintiffs motion for a preliminary

injunction, Defendant, his representatives and agents, and all persons acting in concert or in
participation with him, or having notice, shall be temporarily restrained and enjoined from
enforcing the 10- and 25-person maximum attendance restrictions in designated "red" and
"orange" zones, respectively, imposed by the Governor's recent executive order, as applied to

Catholic churches in those zones; and it is further
ORDERED that sufficient cause having been shown, service of this Order and all of the
papers submitted in support thereof shall be made on Defendant' s counsel and deemed effective
if it is completed by electronic mail on or before the ____ of October, 2020; and it is further
ORDERED that Defendant's answering papers on the motion for a preliminary

injunction, if any, shall be filed with the Clerk of this Court and served upon the attorneys for
Plaintiff via ECF, by no later than ______________, and that any reply by Plaintiff to be filed
and served by ECF by ___________________.

IT IS SO ORDERED
Dated: ________________________

_____________________________________

Brooklyn, New York

United States District Judge, Nicholas G.
Garaufis

2

R.A. 28

Case 1:20-cv-04844-NGG-CLP Document 7-2 Filed 10/08/20 Page 1 of 3 PagelD #: 151

EXHIBIT 2

R.A. 29

101a,202oCase 1:2O-cv-O4844-NGG-CLP

D .©0lllllleaib~s2 ot eriJednl:(f)/QBi/1129 BrRililf}e

2 of 3 Page ID#: 152

This site uses cookies to store information on your computer. By using this site, you consent to the
placement and use of these cookies. Read our Privacy Policy to learn more.
ACCEPT

S RV!NG BROOKLY

AN

Q!) E

Qf"#
PARISH FINDER

About Us

Offices and
Ministries

Vocations and
Religious Life

News and
Events

Giving

Masses

About the Diocese of
Brooklyn
Our Bishops and
Leadership
Diocesan
Administration
St. James Cathedral
Basilica
Co-Cathedral of St.
Joseph
Employment
Opportunities

Parishes and
Schools

Protecting Our
Children

DIOCESE PORTAL

SCHOOL SEARCH

Marriage and
Family

VER EN ESPANOL

Get Involved in
Your Faith

ABOUT THE DIOCESE OF BROOKLYN
ABOUT THE DIOCESE OF BROOKLYN
"The interaction of disparate cultures, the vehemence of the ideals that led the immigrants
here, the opportunity offered by a new life, all gave America a flavor and a character that
make it as unmistakable and as remarkable to people today as it was to Alexis de
Tocqueville in the early part of the nineteenth century."
- John F. Kennedy, A Nation of Immigrants
This quote aptly captures the history and essence of the Roman Catholic Diocese of
Brooklyn. Founded in 1853, the Diocese of Brooklyn sought to address the needs of the
more than five million Irish Catholic immigrants who, tired and poor, arrived at the port of
New York in search of a better life, many of whom settled in Brooklyn and Queens. Today,
the Diocese of Brooklyn continues its vibrant and diverse history, home again to an
immigrant population, this time driven by Hispanics.
The Roman Catholic Diocese of Brooklyn serves the boroughs of Brooklyn and Queens. It
is presided by the seventh and current Bishop of Brooklyn, His Excellency, the M2fil
Reverend Nicholas DiMarzio, a champion of immigrant rights.
The boroughs' combined population stands at more than 4.9 million, of which 1.5 million
identify themselves as Catholics. The diocesan cathedral is the Cathedral Basilica of St.
James in downtown Brooklyn. The Co-Cathedral of St. Joseph in Prospect Heights was
elevated in February 2013 by Pope Emeritus Benedict XVI, and was dedicated on May
13, 2014, by Bishop DiMarzio. The faces of the people in the pews of St. Joseph's reflect
the diversity of the many cultures that call the Diocese of Brooklyn home. It is also among
the largest churches in Brooklyn and Queens.
Due to its multicultural and diverse populations, Masses are regularly held in 33 different
languages across the Diocese, throughout 186 parishes with 210 churches. Its 26 ethnic
ministries promote cultural events and provide an opportunity for immigrants to belong to
the larger community while preserving and sharing their uniqueness and traditions.

1/2

https://dioceseofbrooklyn.org/homepage/about-the-diocese/

R.A. 30

101a,202oCase 1:2O-cv-O4844-NGG-CLP

D .©0lllllleaib~s2 of eriJednl:(f)/QBi/1129 BrRililf}e

3 of 3 Page ID#: 153

Within its borders is the seventh largest Catholic school network in the United States, with
85 elementary schools and academies that educate more than 27,000 students.
Last year, the Diocese celebrated 15,885 Baptisms, 11,957 First Communions, 9,549
Confirmations and 1,951 Marriages, and had an average weekly attendance of almost
230,000 of the faithful at over 1,000 weekly Sunday Mass said in Brooklyn and Queens.

About Us

Terms of Use

School Finder

Privacy Policy

Careers

Contact Us

Find a Parish

Follow Us:

Diocesan Events

THE TABLET HEADLINES DELIVERED DAILY
Email

I'm aware that my information is being collected for
marketing purposes. More info
SIGN UP»

©

2020 Diocese of Brooklyn. Powered by DeSales Media Group, Inc. Website by 345 Design

2/2

https://dioceseofbrooklyn.org/homepage/about-the-diocese/

R.A. 31

Case 1:20-cv-04844-NGG-CLP Document 20 Filed 10/13/20 Page 1 of 27 PagelD # : 406

UNITED ST ATE DI TRlCT .OURT
EA TERN DI TRJCT OF NEW YORK

THE ROMAN CA THOLlC DIOCESE OF BROOKLY
NEW YORK,
Plaintiff.

DECLARATJON
Civil No. 20-c -4844

V.

GOV RNOR
capacit .

DREWM.

OMO, in his official
Defendant.

Debra S. Blog, M.D., MPH_ on the date noted below and pursuant to § 1746 of title 2 8 of

the U nited States Code, declares the following to be true and con·ect under penalty of pe1jury under
the law of the Uni ted tare of Amenca:
l)

I am the Director of the Division of Epidemiol g (''Divi ion"').

e

York

tale

Department of Health ("'Department''). l ha e been the Director since January 2012 and employed
by the Department si nce 2002. The Division ' s mission is to use sound scientific practices and

principles lo prot ct the health of all N \ Yorkers. Through di sease surveillance. e pert technical
assistance, collaborations with local healtb depa1tmenls and health care profes_ional

and by

sharing expertise, epidemiologic information. and kuowledge the di ision confroms a variet uf
new and emerging communicable di eases found in tbe tale. The Division is composed of fom
bureaus and a Statistical Unit. The bureaus include

ommunicable Disease Control Tuberculosis

ontrol, [rnmunization, and Healthcare Associated Infections. Prior to joi11i11g the Di vision I
0

worked in the Bureau of [mmuniz.ation CBureau'') for seven yea.rs as the Medical Director.

R.A. 32

Case 1:20-cv-04844-NGG-CLP Document 20 Filed 10/13/20 Page 2 of 27 PagelD # : 407

becoming the Bureau Director in 2009. Th Bureau ' s mi'ssion is to reduce morbidity and mortality

from vaccia preventable diseases ('-VPD' s). in people of all ages, through strategies that prevent
VPDs and reduce transmission. The Bureau works to acluev a vision to eliminate vaccine
preventable di eases through a diverse set of initiatives that are administered b. f\ e pr gram
areas. The Bureau also works with a ast nen, ork of both public and private contact to provide
statewide leadership to improve vaccine delivery and increase immunization tat s.

such I

pro ide medical and clinica l subject mutwr cxpe11isc and coordinate the Department's effoH ll
prevent the spread of communicable diseases, impr ve vaccination and prevent vaccine
preventable diseases among
respond

tO

ew Yorkers, prevent and track healthcare associated infecti ns and

emerging in ectiou di ease OLltbreaks.
I received my 111edical degTce from the A lbert Ein ,tein College of Medicin ,

2

graduated m 1988. l completed a pediat1·ic residency at Notth

h re Univers ity Hospital in

Manhasset, N . then a orn_ell affiliate, in 1991. l worked as a general pediatrician fr 10 year ·
in Den er, Colorado and Chicago.
3

I also completed a residency

residency is af(i)i::,,ted wit.h the tate

Ill prevenlive medicine and an MPH 1n 2002. Toe

niver ity

at Albany School of Public Health and the N

w

York State Department of Heal th.
y responsibilities as they relate to

4)

OVJ0-19 'incl\1d coorcli'nating and engaging

witJ1 the overall

OVID-19 response team, research and eva luation efforts, overseeing the

funded

VID-l 9 • Ltrveillance for Eme.rging Threats Network for mothers and babies

("

YS

DC-

T-N T') overseeing the CO -funded NYS Emerging Tnfi ctions Program s ('·E[P'') OVIDet surveillance for COVID-19 associated hospitalizations, serving as a subject matter expe11 ti r
2

R.A. 33

Case 1:20-cv-04844-NGG-CLP Document 20 Filed 10/13/20 Page 3 of 27 PagelD # : 408

COVID-19 response efforts-, and supporting schools' reopenin.g effotis. J am in olved with
over eeing the COVID-1 9 vaccine planning response. I am familiar with the Fae.ts set forth herei n
based upon personal knowledge, discus ions with Department staff, and Department records. This
declaratjon has al o been informed by other declarations I and m_, colleagues have drafted to
oppose challenge· t

tate regulation and guidance issued to respond to the COVTD-1 9 pandemic.

See ExJ1s. JJ and KK..
5)

[ make this declaration in support of Defendant' s OpposLt.ioo to Plaintiff s Motion

for a Preliminary Injunction.
COYLD-19

6I

On January 7, 2020 following an oulbreak of pneumonia of unknown etiology in

C hina's Wuhan Province, Chinese authoriti es identified a novel coronavims-COVID-1 . Its
spread amund the world has been wel l documented. Exh.
7)

.

COVID- l 9 is a higbl infectious and potentially deadly respiratory dis ase caused

by n novel c ronavirus that spreads easily from per on-to-person. Exh. B.
Because there is no pre-existing immunity against this new virus. it ha spread
,, orldwide in an exceptionally short period ftime posing a" ·criou public hea.ltb risk." Id_
9

n January 31, 2020, the World Health Organization (''W H ") declared a "publi ·

health emergency of internationaJ concern ." Ex11. C.
I 0)

Less than two months later, on March 11 , 2020, the World Health Organization

declared COVID-19 a global pandemic . Exh. D
I I)

On March 13, 1020. the President of the United

emergency. Exh. E.
3

R.A. 34

tat

d clared a national

Case 1:20-cv-04844-NGG-CLP Document 20 Filed 10/13/20 Page 4 of 27 PagelD # : 409

12)

"' ransmission of SARS-CoV-2 can occuJ through direct. indirect, or close contact

v 1th infected people through infected seer titms such as sal iva and respiratory se retions r their
respiratory droplets. ,,~1ich are expelled when an infected person coughs sneezes talks or sings .,.

Exh. F, "WHO, together with the scientific community, has been actively discu si ng and
evaluating , hether

AR - oV-2 may also spread through aerosols in the absence of aerosol

generating procedures, particularly in indoor. ettings with poor venti lation.'' Id . ''CutTent evidence
uggc:sts that AR - oV-2 may remain viable for hours io days on surfaces made from

variety

of materials.' Exh. G .

l ')

OVID-19 has an incubation period of up to fourteen days. Exh. F. Many

individuals infected with the COV ID-19 virus are as mptoma.tic. Id. ocial distancing is one of

the most efti cti e mean of limiting transmission of COVID-19. 1'.d.
14)

The CDC bas thus issued guidance recommending that people comply wilh social

distancing measures in order to prevent the spread of COVlD-19 . According lo the CDC.
.. fl]imiting face-to-face contact with others is the best way to reduce the spread" of COY ID-19.
Exb. H.

15)

In order to limit e posure to OVID-19 and slo\; its spread, the CDC recommend

keeping '"at least six feet awa from other peop le' and limiting close contact with others outside
your household in indoor and outdoor spaces'' including avoiding groups and crowded places. ld.
Social distanciJ,g "'is one of the best tools we have to avoid being exposed to this virus and slowing
its pread loca!_ly and acros · the country and world' becau · it "helps limit contact with infected
people and contaminated surfaces." lfL

16)

The rapid spread of

VlD-19 in New York, in the United States, and worldwide,

4

R.A. 35

Case 1:20-cv-04844-NGG-CLP Document 20 Filed 10/13/20 Page 5 of 27 PagelD # : 410

presented and continues to present a grave threat to

ew Yorkers and to

ew York ' s health care

system. However. by taking troag action to ensure social distancing as well as other important
measures, New York has mitigated that threat To avoid a devastating resurgence of'

VlD-19,

responsible parties, business owners. and the pnblic must continue to adhere to the E, ecutive
Orders and guidance.

17}

-At the nd of ~eptember, we crossed the grim milestone of more than 1,000,000

deaths worldwide. As of October 8, 2020 I .082,201 peop le hav d ied worldwide L; 214, l OR peoplt:
havedied fCOVID - 19intheUnited tatesor 'OV ID- 192 ; and25 ,587havetliedinthe tateof
1

ew York ofCOVlD-19 3•
COVJD-19 Surges in New York
I8

New York recorded its fir t cases f COVID-19 on March I. 2020. in New Y rk

City and on March 2, 2020, in Westchester County.

19)

On March 7, 2020, Governor Cuomo declared a tate of merg _ncy.

Order ~02 Exh. 14 , available at bttps://'I). vw. !J_

- xecutive

ernor.nv.gov/new /no-202-declaring-di saster-

emergencv- tale-new -ymk. As of March 7, 2020, 60 people had tested positive for 'OVID- I 9 in
the tate of New York. See Fn. 3. Cases in the United Siate totaled 275. See Fn . 2.

ases

worldwide totaled l 79, 11 L with 7.426 deaLhs reported. See Fn. l.

1 Johns Hopkins oronavirus R ource
enter COVID-19 Dashboard : hups:/lcoronav1rusJ1u.edulma .hrm l;
also WHO Corona virus Disease (COVID-19) Dashboard found at hrtps://covidl 9.who.int/ (last viewed October 13,
2020.
CD
ovid Tracker found at https://www .cdc .2ov/covid-data-Lrackeriindex. brml#case (las1 viewed October 13.
2020).
3 NY DOH COVlD-19 Tracker found at htlps://covid I 9tracker.health .ny.uovlviews
Y - YID 19Tracker/NYSDOH OVlD- l9Tracker-D,1il yTrnck~r?%JAembed"'ye. &%3Atoolba n &%3A1ab - n#/ iews I lat
viewed October 13, 2020).
• All of Gov ernor Cuomo' s Executive Orders cru1 be found al hrtps://www. gow rnor,pv,l.!O /ex~culiveon:!ers.

5

R.A. 36

Case 1:20-cv-04844-NGG-CLP Document 20 Filed 10/13/20 Page 6 of 27 PagelD # : 411

20)

By March 20, 2020, the number of inclividnals testing positive for

·w York approached I0.000, and deaths exceeded l 50.
21)

OYlD-19 in

Fn. 3.

B April20 , 2020, o er267.000indi idualshadtest.edpositi ef'orCOVID-19,and

over 13 ,000 people had died from

OVJD-·1 9 in New York State. See Fn. 3.

ee also.

http ·://www.syra use.comk rona irus/_020/06/\. here-is-coronaviru ·-in-ny-see-map-charts-ofcovid-19-cases-deaths-hospitalizations-suuday-june-14.btml includes similar charts with trend
over time).

22)

These events placed significant strain fl N w York Stale' healthcare

stem. For

example, as the virus spread, New York faced a sho1tage of hospital beds, entilators, and per ona1
protective equipment such as masks and gloves.
23)

York City. ·111e

As a result, alternate care sites were set up, including at the Javits Center

in New

nited Siates avy sent the V.S.N.S. Comfort a Mere -class hospital ·hip. t New

York to assist with medical care_
24)

Funeral homes were also overwhelmed, resulting in the use of mass gravest bu ,

the dead.
25)

At the worst stage ofth pandemic, New York State had more corona irus cases

than any single country in the world.
26

Among other measures aimed al flattening the curve, slowing the spread

r

COVID-19, and pre entin~ !he health care s stem from becoming overburdened, Go emor

Cuomo i ued multiple Executi e Orders restricting gatherings.
27)

On March 16, 2020, gatherings in excess of O people were prnhibiled. On-

prem1se. ervice of food and beverages in all bars and restaurant. were indefinitely su pended and

6

R.A. 37

Case 1:20-cv-04844-NGG-CLP Document 20 Filed 10/13/20 Page 7 of 27 PagelD # : 412

gambling establishments. g ms. and movie theaters were indefinitely clo. d. Exh. J. Executive
Order 202.3 . All non-essential state and local workers to stay home, "except for those personnel
essential to the . . . response to the COVTD-19 emergency." E, b. K, Executive Order 202.4. All
sch ols \,vere closed. Id.
28)

On Mardi 18. 2020.

all

malls and places of public amusement closed. ·, h. L.

Executive Order 202.5.

29)

On March 20. 2020, the governor announced the New

ork State on PAUSE

injtiative.

30

The 10-poinl cw York State on PAU E plan is as foll
•
•

ws ;

All non-essential busine ses statewide closed, effective March 22, 2020, at 8pm ~
Non-essential gatherings of individuals of any size for any reason (e.g .. part1es.

c. lebrations or other social events) are canceled or postponed at trus time-;

•

Any concentration of indiv:iduaJs outside their home rnuS'( be limited to workers
providing essential services and social distancing should b practiced;

•

When in public, individuals must practice ocial distancing of at least six feet from
others;

•

Businesses and entities thal provide other essential services must implement mies
tbat help facilitate social distancing of at least i, feet'

•

Individuals should limit outdoor recreational activities to non-conracr and avoid

•

lnruviduals should limit use of public transportation 'lo wben absolutely necessary

activities where they come in close contact with other people;

and should limit potential exposure by spacing out at lea l ix feet from other

riders;

7

R.A. 38

Case 1:20-cv-04844-NGG-CLP Document 20 Filed 10/13/20 Page 8 of 27 PagelD # : 413

,, I)

•

ick individuals should not leave their home unless lo recei e medical care and
only after a telehealth visil to determine if leaving the home is in the best interest
of their health ;

•

Young p ople should also practice social distauciog aud avoid contact , ith
vulnerable populations; and

•

Use precautionary sanitizer practice· such as using is propyl alcohol wipes.
Among the more important measures the Governor adopted as part o f the New

York on PA U E ini tiativ were restrictions on non-essential gatherings.
32

On March 23, 2020, the Governor issued Executive Order _02 .10, which bahJ1ed

" [n]on-essential gatberi.ngs of aoy izc f'or any reason.'' Exh . M. From the beginning. aJI
gatherings were viewed as non-essential. which is why, initially, all gatherings were prohibited.
The idea was lo slowly reopen and petmit individuals to gather ba. ed on lhe data showing a
dee! ine in transmission. As stated previously. given the potential for airborne spread of the virus,
reducing density and maintaining distance is critical to reducing the risk of transmission of
OVID-19. See supra,
33)

12 and l3.

That restJiction remained in p'lace unti I May 21. 2020, when the Go emor i, sued

·xecutive Order 202.32 to permit non-essential outdoor gatherings of up to l~n individuals for
religious services or Memorial Day service or commemoration, provided the participants follov
the social distancing and deaning and disinfection protocols established by the Department. ·xh.

34)

The ti llowing day, May 22, 2020. Lhe Governor issued Executive Order 202.33 ,

whlch further modified the ban to perm.it non-es ential outdoor gatherings of up to ten
individual for any lawful purpose OJ reason, provided the participants folldw the social

8

R.A. 39

Case 1:20-cv-04844-NGG-CLP Document 20 Filed 10/13/20 Page 9 of 27 PagelD # : 414

distancing and cleaning and disinfection protoco ls estab lished b. the Ocpartmt:nl. •xh .
35)

.

On June 15, 2020 the Go emor issued Executive Order 202.42, wbicb extended

E, ecutive Otd(lr 202.3" until July 15, 2020, ru1d further modified the restTiction to pennitnonessential outdoor gatherings of up to twenty-five individuals for any purpose or reason. provided
the gathe.ring was in a region that had reached Phase Three of the re-opening plan and the

participant follo

the ocial distancing and cleaning and disinfection protocols establi shed by

the Department. Exh. P.
36)

n JW1e 15, _020, the Governor issued Executive Order 202.45, which pem1ils

non-essential gatherings of up to 50 individuals for any purpose 01· reason, provided the
gathering was in a region thut had reached fourth phase of the re-opening plan, and tl1e

participants fol low the s cial distancing and cleaning and disinfection protocols established hy
the Department. Exb.

Q.

APR[ , M Y, and JUNE 2020-New York Appears to Flatten the
37

urve

Before tl1e Ne\. York State on PAUSE initiative, the daily increase in the number

of positive COVID-19 tests bad been ri'sing quickly. On March 19, tne number of pos iti e tests

increa eJ nearly 70%, from. 1.769 to 2,950. For the remaind r

r March

munber of positive tests increased at an average rale of approximately 20% per day.
2020, alone over 10,000 people tested positive for COVl0-1 9.
of po itive tests per day has declined steadily.

pril. the

and earl
n

pril 9.

ince April 9, 2020. the number

n May 28, 2020, over 1,551 people tested positive

for COVlD-19. On JLU1e 29, 2020 46 428 people were tested and only 319 tested positive- a

9

R.A. 40

Case 1:20-cv-04844-NGG-CLP Document 20 Filed 10/13/20 Page 10 of 27 PagelD # : 415

positivity rale belo

.7 %.
c"1 York Forward

38)

When

ew York lran itioned From New York State

011

PAUSE to N w York

·orward, four phases were created to guide non-essential businesses and offic s, a well as U1e

e sential busi11esses that rt!mained open, on hov to reop n. See hllps://furward.nv.go /Jwforward,

3C/)

Due to the success of the peopl of the State of New York at flattenjng the urve,

all regions are in Phase Four. See https:// forward.ny.gov/.
40)

Pro iding transmission and infection rates remain stable, restricti ons can be relaxed

allowing for larger gatherings ,

41)

By foll wing the guidelines and requirement

u h as ocial distancing and

wearing masks, New York h.as successfully reduced the spread of the virus. As testing throughout

the

state

has

incrnased,

th

number

f

positive

cases

bttps:/l forwa rq.ny .gov/percentage-positive-results-region-dashboard.

has

decrea ed.

n August 2. 2020

the

downward trend of positiYt- cases continu d as 51 839 individual wer t ted and -45 ofth se
tested positi e.
42)

kl
The transmission rate also known as the reproduction rat

which measures t];e

number of individuals infected n average by an infected individual,--was at 3.59 on February 24.
20-0. The rate was as low as. 7 on April 17, 2020. TI1e rate remained consistent between .67 and

.73 until May when the NY Forward transition began. Since reopening the rate has remained low

Found at hnps://co id 19tracker.hea'llh.nv.eov1 iews/NYS- 'OVJDl 9-Tracker •YSDOHCOVlD-1 CJTrackerDailyTJ'acket . % Aembed- e. &'l\J3 Atoolbar=-no&%3Arab 91 (last viewed October 8. 2020).

5

10

R.A. 41

R.A. 42

Case 1:20-cv-04844-NGG-CLP Document 20 Filed 10/13/20 Page 12 of 27 PagelD # : 417

on June 24, issued Executive Order 205, " Quarantine Restrictions on Travelers Arriving in

e

xh. R. The Order requires all travelers entering New Y rk from a state with a positive

York."

tesl rate highe r than l O per 100.000 residents, or higher than a l 0% test positivity rate. over a
seven-day rolling average, to quarantine- for a period of 14 days consistent with Department of
Health regt~afions for quarantine. See also https://coroua iru .health.nY-L!O /co id-19-lrawlad isorv.
48)

As of October 6, 2020, 33 st.ates and two ten-itories bad a po itivity rate

or over

10%, or positive test rate higher than 10 per I 00 000 residents. over a seven-day rolling average,
including Alabama, Alaska, Arkansas, Colorado, Delaware, Florida, Georgia. Guam, ldaho.
Illinois, Indiana, [owa, Kan as Kentucky, Louisiana Minnesota, Mississippi , Missouri M ntan~
Nebraska, Ne ada, Ne"" Me ico, North Carolina,
Dakota, Tennessee

orth Dakota, OkJahoma, South Carolina. South

exas, Utah, West Virginia. Wisconsin, and Wyoming.

id.,

OVlD-19

Travel Advisory. available at https://coronavirus. health.ny.gov/covid- 19-tra et-ad isory.
49)

Executive Order -0 · g ives di~cretion to Lhe Commissioner of the Depal1ment u

Health to issue additional protocols for essential worker-, or for other extraordinar
circumstances_ when a quai·antine is not possible, provided su h m asures ·ontinue to safeguard

the public health. See Ex.h. R.
50)

On June 24. 2020 the Office of the Commissioner fi r the New York . tat

Depaitment i. sued the ·' Interim Guidance for Quarantine Restrictions on. Tra eler An.iving in
ew York State Following Out of State Travel.'' See
Rcstri tions on Traveler Arriving in Ne

YS [nterim Guidance for Quarantine

Ym-k State Folio" ing Out of tate TravcL avai lable at

hrtps://corona · ·rus.health.n .go /covid-19-travel-advisory.

12

R.A. 43

Case 1:20-cv-04844-NGG-CLP Document 20 Filed 10/13/20 Page 13 of 27 PagelD # : 418

AJI individuals trave}jng 'lo

51)

complete the fonn upon entering New

ew York from any of the restricted states mu t

rk. Travelers coming to

ew York frotn designah:<l

states tlnuugh means of transport including trains and cars must fi ll out the fonn online. Id.
Risks for Non-essential Business and Indoor Gath ering

52)

Restrictions on the operation of non-es ential businesses and indoor gatheri ngs

are neces ary to ensure sufficient space for proper distancing. thereby reduc ing pot ntial
transmission rates.
Tht: four phases we.re intended to have gradual ly increas ing gathering sizes and

"3)

decreasing occupanc restriction ·. with Pha e One having the m st restrictions and Phase Four

having the lea t.
54

The phases allowed monitori ng for and to q11ickl

identify. any increase in virus

transmission in a particular community that may have occurred as a resttlt·of moving to a new less

restricti ve phase. Thi s is necessary to en ure that virus trru mission in acommw1ity is table before
continuin g on to the ne I phase.
Providing transmission rates remained stable during each transition. restriction · on

55)

less risky activities were relaxed all owing fur larger gatherings fo each subs-:qucnt phase. Thi s can

be s -en

ilh re pect to gujdance for· restaurants, For a region i.n Phase

ne, restaLtrru1Ls are

pennitted to be open for takeout and delivery service only, with no indoor or outdoor dining
allowed. For a region in P hase Two, restaurant are permitted to expand their ervices to include
outdoor dining only, limited to a maximum often individuals per table. For a reg ion in Phase Three,
re ·taurants added indoor dining , ith capacity llmited to no more than 50% of the maximum
occupancy .
13

R.A. 44

Case 1:20-cv-04844-NGG-CLP Document 20 Filed 10/13/20 Page 14 of 27 PagelD # : 419

56)

The directive in Exe ulive Order 202.48, which modifi,ed the directive contained

in Excc\1tive Order 202.4 ! . that prohibited indoor food services and dining

a.s paii of Phase

Three in New York City, has been modified by EO 202.61 to allow indoor food sen,ices and
dining in New York

ity begi1U1ing epternber 30, _020, so long as the Department's, and any

other app licable lale-i · ued guidance is trictly adhered to , Exh. S.

5.7

The restriction in the Executi _e Orders and guidance are de eloped in consultation

and cooperation with m di cal taffin the Department wi th the goal of reducing the opportunity for
the virus to spread.
58)

The limjts and restrictions lessen and c ulve as the curve continues to flatten

through the continuing practice of these social distancing and hygiene and disinfecting guidelines.
The numbers of new infections hospitalizations, and deaths continue to decline in areas where
these guidelines an: f 1l wed, which shows wby adJ1ere11ce to these practice is so cru iuJ t
afeguarding public health_.
59)

onversely, the limits and restrictions will increase, si1nilar fo t11e earlier pha e , if

a .review of the- data indicates a trend of increasing COVID- l 9 cases r spikes of cas s in cluster

nre,L~.
60

The Governor and the Department of Health are constantly monjtoring transmjssion

and infection rate .
61)

COVID-19 Earl Waming Monitoring System Dashboard 8.

Again, large gatherings present the greatest 1isk for rapid and widespread

transmission of thl· v irus in a community gjven the nature of having many people in a single

8

Found at lutps:1/forward.n v.gov/earlv-warnin!!.-mon itori11~-dashboard (last viewed October )3 , 2020).

14

R.A. 45

Case 1:20-cv-04844-NGG-CLP Document 20 Filed 10/13/20 Page 15 of 27 PagelD # : 420

enclosed space. Far this reason. non-essentiai outdoor gatherings, excluding religious activi . were
limited to a maxi.mum of 50 people for regions in Phase Four.

62)

Gatherings, both indoor and outdoor pose a significant risk of becoming super-

spreader events. For e'Xample. " la]s scientists have learned more about C VrD-l 9, it has
become clear that so-called superspreader incidents- in which one person infects a
disproportionate number of other individuals-ha e played an ovcrsi;i;ed role in the tran mi ssi 11

oftJ1e virus that causes the disease. ' Exb i .
63)

''The more individuals you pile into one place we greater the opportm1ity for tI1e

coronavirus to infect many peopl at once... . If au max out at five people. it

ill be ery bard

lo have a superspreading event... " But as a group' s size increases, so does the risk of transmitting
the virus to a wider cluster. A large group size al o increases the chan e that. s mcone present
wi ll be infectious."
64

.kl.

It is critically important to control the size of gatherings, both indoor and outdoor,

ince ''as a group ' size increases, sod es the risk of transmitting the irus to a wider cluster. A
large group it.e also increa es the chance that someone present will be infectious.'· Id .

65)

A CDC report of a church event that t c,k place in

rkansas dtu·ing the month of

March demonstrates how easily and rapidly SARS-CoV-2, the virus that causes COV1D- l 9.
transmi sion can occur. Exh . U. (CDC MMWR ,

15

R.A. 46

Case 1:20-cv-04844-NGG-CLP Document 20 Filed 10/13/20 Page 16 of 27 PagelD # : 421

66)

At thi church. two asymptomatic individual , a husband and wife, attended

events at the church on March 6-8. They both developed symptoms a few days after the events.
ld.

u7)

Of the 92 attendees, 35 J8%) had confinned COVID-19 cases and there wer

three deaths. In u,c community. at least 26
death.

OVID-19 case were confirmed and there was on

&
68)

This outbreak highlights the potential for widespread lransm[ssi n of the virus

that causes COVID-19, both at group gatherings during church events and \Vithin the broader
community and the findings h.ighligh! the importance for organizations, in luding faith-based
organizations, lo prevent COVID- 19 by following available guidance. Id.

69)

A research team "found that superspreading -events tended to happen in ind

r

spaces, with people in close proximity. Social occasions led to more clusters thane ·posure in the
workplace or home - mass transmissions occurred at weddings, temples. bar and karaoke
parties, for instance. The risk seems to be higher if people are raising their voices in some wa ,
such as singing or shouting." Ex:h. V.

70

The Department tracks clusters throughout the tate and data indicates thal social

gatherings followed by restaurants/ bars present the highest levels of clus ters - 48 and 30 from
New York. State, excluding

ew York City, respectively from June 16, 2020 to October 12.

2020. Within each separaie luster are many individual ases of OVID-19. Tbe data indicates
there are currently 13 clusters tied to religious gatherings, outside of New York City.

71)

As

DC stated in guidance relea ed on June 12, 2020: The marl! people an

individual interacts with at a gathering and the longer that interacti n lasts, th higher the potential
16

R.A. 47

Case 1:20-cv-04844-NGG-CLP Document 20 Filed 10/13/20 Page 17 of 27 PagelD #: 422

risk of becoming infected with OVI0-19 and COVlD-19 spreading. Exh. W.

72)

M dium and large indoor gathering are the most difficult to manage as compared

to virtual or small outdom gatherings. Medium sized gatherings are a higher risk because, the
space must be individuals must remain spaced at least 6 feet apart. ld.
73)

Large gathe1in,gs present the h.ighesl risk becau e as the number

r attendee

increases, the more difficult it becomes for individuals to remain spaced at least 6 feet apart kl.

In addition, the risk for exposure to an a ymptornatic case increas s as the number of attendees is
greater.
74)

For both sizes of gatherings, attendees that tra el from outside th local area

increase the risk of transmissi
7-)

11 .

Id

Gatherings provide an ideal platform for the effici nt transmission or OVJD-19

to mwtiple people at once. Those individuals who contract

OVlD-19 at a gathering may

them.elves become super-spreaders -i.fthey attend further gatherings while they are

asymptomatic, Exh X.
76)

A super- preader, usually identified in retrospect, has a greater than a erag

propensity t infect a larger number of people and it i • 01 ught that "l 0% of the [ OVJD-191
cases may be responsible for 80% of the transmission''. Id.
77)

''[A]ny large gathering or movement of groups or individuals can constitut

super-spreading.' lei.
71<)

The idea of '' uper-spreaders'' or super-spreading ~vents is not new to OVID-19.

" [S]upel'-spreading was thoLLght to be a driwr f MERS , SARS and, t a I sser extent. Eb ta: ·

id.

17

R.A. 48

Case 1:20-cv-04844-NGG-CLP Document 20 Filed 10/13/20 Page 18 of 27 PagelD # : 423

79)

Large social gatherings were not permitted and only 10 or fewer people were in

permitted to be in attendance during Phase One, 25 or fewer people attending during Pha es Two
and Three, and now if 50 or fever people attend a social gathering during Phase Four. See
hhps:// oronavirus.heallh.nv.~ov/travel-larn.e-gatherings-and-g uaranline . During a large social
gathering. ·'[i)ndividuals must wear face covcri11gs when tliey are in a public and are: witliin six
feet of distance from other inclividuals~or i11 a ituation or setting where they are unable t
mai11tain ix feet of di stance from other individual s .... ' ld.

80)

The WH provide advice to faith-based organizations CPBff') and faith leaders

for keeping l11eir members safe and. reducing the risk of illness. Exh. Y. ·'FBOs are advised to
conduct faith activities remotely rather than in-person. usiJ1g available techJ10logy to maintain
community and continue worship. " ld81

While attending a sc1,vice.

'\al distnnce of at lea t 6 ft. mu t be maintained

amongst a1l individuals at aU times, unless safety or the core acti ity requires a shorter di tance
(e.g. pall bearing) or the indi idua.Js are members of the same hou -ehold. However, any inging
acti ity mu t provide for a di tance be.tween incUviduals of 12 ft. , ·. ubject to additi onal protecti e
measures." Ex:h. Z.
82)

Att endee are prohibited from "holding or ha'king hund~ fmembers iJ1 different

household · during ervice
83

r prayers." Id.

ttendees must al.so "[l]imit activities involving singing _e.g. choir, soloist,

cantor, musical ensembl e). unless 12 ft. of separation can be provided bet, l:'.en indi iduals or
additional distancing or physical barriers can reduce transmission of respiratory droplets." !f!.
&4)

ln April, various lead rs of different faiths opined that the safest way for their

18

R.A. 49

Case 1:20-cv-04844-NGG-CLP Document 20 Filed 10/13/20 Page 19 of 27 PagelD # : 424

congregations lo worship was at home. Ex h. AA. Whil e they all agreed ihal gathering together
and building i:ela(jonships was a vital part of their religious practice, they also agreed lhat
keeping people safe was important and to onsider '·responsiblli ty over recklessness ~. whi ·h us
safe distancing. Id.

85)

fhe

DC provides recommendations "to help communities of faith discern how

be t to practice their beliefs while keeping their staff and congregations safe." Exh. BB.

8 ,)

It is important for these conummities to promote social distancing and ·'[tlake

steps to limit the size of gatherings in accordance with the guidance and directives of stat'e

and local authorities and s~rbject to the protections of the First Amendment and any other
applicable federal law." Id. lEmpha is added,J
87)
e ents in the

A religious event, a wedding in Maine, becam one of the larger uper-spreader
nited States when it was linked to more than 170 people contracting the virus and

at Jeast eighi deatbs 9 . Exh. CC. '' one of those who djed actually attended Lhe wedding and
reception,•· J<l.

88)

One individuaJ sickened around 130 others attending an indoot-outdoor religious

ervice in Indja_ Exh. DD. Vox. Additionally, we can see' from studyin g events, like the

infamous. March church choir practice in Skagit County, Washington, during which ne person
infected an estimated 52 of 61 people (two of whom died). loud talking and singing ·can spread
more vims than talking at a normal volume .. ,, Td.

The Exhibit article is dates Septembe.r J7, 2020, and references seven deaLh~, while an updated article on Lhe event
reforences "al least·eight deaths" and is dated October I, 2020. 171e October I article can be found a1
(https:/lpeopl .comlheal1h/pastor-maine-superspreader-weddit1g-will-have-to-wcar-mask-sons-nuptials1). last
viewed October 13. 2020.

9

19

R.A. 50

Case 1:20-cv-04844-NGG-CLP Document 20 Filed 10/13/20 Page 20 of 27 PagelD # : 425

89)

It is important to consider the intention behind the guidance and the activities that

take place during nom)aJ business operations. Here, restaura11ts are n.ot appropriate comparators
to religious services and therefore they should be tr ated differently. For example, when going
to a restaurallt for a meal, the expectation during normal bu. ines operati ins is that small parties
(a maximum of 10 individuals per table) are there to eat their meal and leave, not tom.ix and
mingle with other patron at the restaUiant for hour . Patrons general(v arrive with their group

and do not coordinate arrivals for the same time.
90)

1n a religious ser ·ce or ceremony, the idea is a group of people coming together

a a community to intera t a.nd pray together, e.g. , ,i 6, 54 of the omplaint. Generally, the
congregant are arriving and leaving at the same time an<l are together over an extended period
of time. This type of close interaction. while having deep meaning for the congregants, po ·i.: • a
higher risk oftra.nsmi sion of ·(hi.: virus.

ew Sp ikes and Clusters

91
ince the begi1ming of September, tl1e Oepruiment bas seeo th· number of
cluster· spike io a few areas around the state:
• Broome C unty (One Area, Ye1lo" )
• Br okly n (Ooe Area, Red, Orange and Yellov)
• Orange otmty (One Area, Red and Yellow)
• Queens Two Areas, Red. Orange and Yellow)
• Roc.k land ounty (One Area. Red and Yello )
Ex.h. Z. ee al o Fn . 9 and Fn. 3.
92)

The data and rt-porl from the Ne

York 'ity Department of Health iudi ated that

immediate action was required to contain the virus and prevent a super-spreader event. A tatu

report submitted in the _o_

case clearly summaii2cs U,e urgency in at:h of the cluster areas as

positivity rates spiked. Exh. EE. For example, while most of New York Cit has a rate of

20

R.A. 51

Case 1:20-cv-04844-NGG-CLP Document 20 Filed 10/13/20 Page 21 of 27 PagelD # : 426

positive tests around I%. the red zone area had a positivity rate of approximately 8% which i
alarming. Id .
93)

According to the CD , "A high percent positivity means that SAR -CoV-2. the

virus that caus~s COVID-19, transmission is elevated in the jurisdiction and community
mitigation measures are warranted to reclu e transmission. A high percent positi ity means there
i a high rat of SARS-Co Y-- infectio ns clue to extensive transmission of the vi.n1s in the
geographic area.

Exh. FF.

Tbe CDC also provides guida11ce for community tnirigation when there i.s a high

94

posili ity rate in an area. Exh. GG. "The goaJ of community mitigation in areas with local
OVID- 19 transmission i to slow its spread and to protect all indi viduals: especially those
at increased risk for severe illness white minimizing the negative impact of these strategies: ·

ld.
)

The CD describes layers of mitigation and levels of mitigation needed bas<.:<l on

the levels of transmission. whi'ch is what i being done through the creation of the three zon ·
described below. See id .. Table I.
<) )

On

cto'ber 6. 2020, the Go ernor armounced a new

lus ter Action fnili utive t

deal with tl1e hots pots found in Brooklyn and Quee.ns, as well as Broome, Orange, and Rockland

Counties. 10 The purpose is to '·developl] a cience-based approach to attack these cluster ' and
stop any further spread of the vim , iJlcluding 11e, rnles and restriction s directly targeted t areas
wi th the highest concentration of COVm cases and the srnrounding commw1itie . The ri

rules

°Cluster Action In itiative found at bttps:!/www .rroverno r.ny.gov/11e\\'s/gover11or-cuomo-a11 11ounces-11c:w-clusLer-

1

aciion-iniiiative (last isited ctober 8, 2020),

21

R.A. 52

Case 1:20-cv-04844-NGG-CLP Document 20 Filed 10/13/20 Page 22 of 27 PagelD # : 427

will be in effect for a minimum f 14 day ." Exh HH.
97)

EO 202.68 was issued to address these hotspots and: created three zones with the

level of restriction thee hig hest in red, and lower in yellow. Exh . II.
98)

ln the most severely impacted area, the ··red zone" ,
Non-essential gatherings of any size shall be postp ned r
cancelled; all non-essential businesses. as determined by the Empire
tate Development Corporation based upon pubLished gtJidance,
shall reduce in-person workforce by I 00%: houses of worship shall
be subject to a capacity limit of 25% of maximum occupancy or I 0
people, whichever is fewer; any restaurant or tavern shall cease
serving patrons food or beverage on-premises and may be open for
takeout or delivery only; and the local Department of Health shall
direct clo ure of all schools for in-person instruction , e cept as
otherwise provided in Executive Order.

ld .
1

9)

he '·orange zone" is -a modemtely severe location and
on-essential gatherings shall be limited to 10 people; certain nonessential busine es. for which i.her is a higher ri sk a sociakd with
tb.e transmission f the COVID- 19 virus, i11cludi11g gyms. fitness
centers or classes, barbers, hair sal ns. spas. tattoo or piercing
parlors. nail technicians and nail salons, cosmetologists,
estheticians, the provision of laser hair removal and electrolysis and
all other personal care services shall reduce in-person workfor e by
100%; houses of worsliip shall be subject to a maximum apacity
limit of the lesset of 33% of max.iJ11ut11 occupancy or 25 people,
wh.1che er is f wer; any restaurant or tavern shall cease erving
patrons food or beverag inside on-premises but may provide
outdoor serv ice, and may be open for takeout or deli.very , pro idcd
howe e r, an one seated group or party shall not exceed 4 peopl e;
and the local Department of Health shall direct closure of all schools
for in-person instruction, except as otherwise provided in Executive

Order.

Id.

l 00)

The preca utionary or --yellow zone" req uire that
Non-essential gatherings shall be limited to no more. tban 25 people;

22

R.A. 53

Case 1:20-cv-04844-NGG-CLP Document 20 Filed 10/13/20 Page 23 of 27 PagelD # : 428

houses of worship shall be Sllbject to a capacity limit of 50% of its
maximum occupancy and shall adhere to Oepartmen! of Health
guidance; any restaurant or tavern must limit any one seated grnup
or party size to 4 people: and the Department of Health shall issue
guidance by October 9. 2020 regarding mandatory testing f
students and school personnel, and schools shall adhere to uch
gujdance.

lcL
I() J)

A.gain, one of the most effectjve ways to mitigate the risk of infoction and reduce

transmission is to reduce density .

l02)

The ptupose behind the initiative is to " take dramatic a tion within the cluster"

while al o taking action in the surrounding area in order to contain and pre ent spread of the
vm1s. See Exh. HH. Precautionary actions are taken in the outl ing commm1it.ies. Id.
103)

Each zone allows for a different maxjmum number of people allowed to gather.

In the red zone, only essential businesses are permitted to be- ·o pen , dini11g is take- ut on ly,
schools are clo ed and remote .lea.ming only, and all mass gatllerings are prohibited, with the
exception h uses of worship arc allowed a maximum of IO pt:ople - sim ilar to regres ing to
Phase One. Id.

l 04

In the warning or orange z ne high r,i sk non-essential businesses are losed, uch

as gyms and personal care, only outdoor dining with four people maximum per table is
permitted, schools are still r mote only, and mass gathering allow a maximum of IO people
indoor and outdoor. whjle an exceptio11 is made for houses of worship where it is 33% capacity
with a 25 ·per on maximum . Jd.

! 05)

The precat1tionary yellow zone businesses are open, indoor and outdoor dining are

permjtted with a marimum of four people per table. school s are open will, mandatory le ting

23

R.A. 54

Case 1:20-cv-04844-NGG-CLP Document 20 Filed 10/13/20 Page 24 of 27 PagelD # : 429

eacb week of students, teachers, and stafl~ and a maximum of25 people are a llowed at a ma s
gathering either indoor or outdoor with the except ion of houses of worship, which are allowed
50% capacity. Id.
l 06)

TI1e percentages in the orange and yellow zones are 33% aud 50% are different

from Phase Four since the zones are capped at a maximum of25 or 50 pe pie. d pending on the
zone. The percentages captw·e smaller spaces where 25 or SO people might be crowded and the
cap reduces density t mitigate ·d1e risk of pread.
he zones are representative of the prior reopening phases but now on a smaller

107)

·cale to target hotspots and clusters.
Responsible Parties
or industries where people may gather guidelines are directed at a responsible

I 08)

party - the individual who will ensure that the guideline and EOs are being adhered to at t.hc
bttps://forward.ny .gov/statewide-guidelines. It is the responsible party for any

gatherings. ~

gatheriog wh must ensure that masks are" om, soap and water and/or hand sanitizer ar
available .. proper distances are maintained. and any oecessary markings are made on the floor or
ground

to show proper cli
I 09)

tran 'mi sion

1\ )

tancing.

[tis important for responsible parties to fol low State and local guidance to prevent

cif

lD-19.

'frue and accurate copies fthe fo!1owing documents ar attached hereto:

Exhibit

: WH

ituatioo Report l .

Exhibit 8: WHO ih1ation Report 3.

Exhibit C: A true and accurate copy of the Statement on the econd Meeting of

24

R.A. 55

Case 1:20-cv-04844-NGG-CLP Document 20 Filed 10/13/20 Page 25 of 27 PagelD # : 430

the Internatio11al HeaJtl1 Regulations (2005) Emergency Committee
Regarding the Outbreak ofNovel oronavirus (2019-nCoV) (Jan 30,
2020).

E hibit D: WHO Declares Global Pandemic.
Exhibit E: A true and accurate copy of the

ational Emergency Declaration
signed by Preside11t Trum.p on March l 3, 2020.

Exhibit F: "WFIO Article: Transmission of SA RS-CoV-2: implications for
infection prevention precautions

Kxhibit G: CD : Cleaning and Disinfection for Househo ld .

F..xhibit H: DC: 'SociaJ Distancing.
Exhibit l: Governor Cuomo·s Executive Ot'der 202.
Exhibit J: Governor Cuomo

Executive Order 202.3.

Exhibit K: Go ernor uomo s E:xecutive Order 202.4.
E xhibit L: Governor Cuomo s Executive OIder 202 .5.

Exhibit M: Governor C uomo's Executive Order 202. J0.
Exhibit

: Governor Cuomo 's Executive O rder 202.32.

Exhibit 0: Govemor C uomo's Execut i e Order 202.33 .

Exhibit P: Governor Cuomo 's Executive Order 202.42.
Exhibit Q: Go mor Cuomo' s xecutivc Ord r 20-.45 .
Exhibit R: Governor Cuomo 's Executive Order 205.

Exh_ibit S: Governor uomo's Executive Order 202.61
Exhibit T: Scientific American Artic le.
Exhibit U: DC Morbidjty and Mortality Weekly Report.
Exhibit V : Ne

Sc.ientist Article.

25

R.A. 56

Case 1:20-cv-04844-NGG-CLP Document 20 Filed 10/13/20 Page 26 of 27 PagelD # : 431

Exhibit W: CDC Large Eve nt Considerations.
Exhibit X: NIH. COVID-19 Super- preaders: Definitional Quandari,e and
Implications
Exhibit V: WHO Faith-based organizations and faith leaders
Exhibit Z: Go

rn r 'llomo' s Executive Order 202 .6.

l!:xhibi t AA: PEOPLE Article.
Exhibit BB: DC Considerations for Communities of Faith .

Ex.bibit CC: G_uardfa.lJ Article: Maine ·supe.rsµreader' wedding linked to 170
ovid case and seven death
Exhibit DD: Arrjcle: How superspreading is fueling the pandemic
E ·hibit EE: New York City tatus Re-port in Soos, et al. v.
CV-65 1 (GLS)(DJS).

uomo, et al. , l :20-

Exhibit FF: CD Frequently Asked Questions: Calculating evere Acute
Respi ratory Syndrome Corona irns 2 ( AR -CoY-2) RT-P R
Laboratory Test Percent Positivity.
Exhi bit GG : CD lrnplementation of Mitigation Strategies for Conununities.

Exhibit HH : Governor Cuomo's Announcement or luster Jnjtiative.
Exhibit H: Governor Cuomo s Executi e Order 202.68.
Exhibit ,IJ : Affidavit of Elizabeth M. Dufort, M.D., FAAP, ~worn to September
14. 2020 in portsrnen·s Tavern LLC v. N.Y. State Liquor Auth.,
Index No. 809297 {Sup. Ct., Eri Cnty.) (without ex.h.ibits)

26

R.A. 57

Case 1:20-cv-04844-NGG-CLP Document 20 Filed 10/13/20 Page 27 of 27 PagelD # : 432

Ii:. hi bit KK: Declaration of Howard Zucker. M.D., J.D. dated Augu t 11, 2020.
in DiMartile ct al v. uomo. et aL _Q-cv-859 .O.N.Y. (without

exhibits).

Dated: October 13, 2020
Albany, ew York
D ebra S. Blog, M .D. , MPH

27

R.A. 58

•

tt

(mfJi?~\ World Health
11"1

I

"I

t

t

•.1•

I

••·•

t:

ZIKA VIRUS

~ • ; Organization
Novel Coronavirus (2019-nCoV)
SITUATION REPORT - 1
21 JANUARY 2020

Data as reported by: 20 January 2020

SUMMARY
Event highlights from 31 December 2019 to 20 January 2020:

•

•
•
•
•
•
•

On 31 December 2019, the WHO China Country Office was informed of cases of pneumonia
unknown etiology (unknown cause) detected in Wuhan City, Hubei Province of China. From
31 December 2019 through 3 January 2020, a total of 44 case-patients with pneumonia of
unknown etiology were reported to WHO by the national authorities in China. During this
reported period, the causal agent was not identified.
On 11 and 12 January 2020, WHO received further detailed information from the National
Health Commission China that the outbreak is associated with exposures in one seafood
market in Wuhan City.
The Chinese authorities identified a new type of coronavirus, which was isolated on 7
January 2020.
On 12 January 2020, China shared the genetic sequence of the novel coronavirus for
countries to use in developing specific diagnostic kits.
On 13 January 2020, the Ministry of Public Health, Thailand reported the first imported case
of lab-confirmed novel coronavirus (2019-nCoV) from Wuhan, Hubei Province, China.
On 15 January 2020, the Ministry of Health, Labour and Welfare, Japan (MHLW) reported an
imported case of laboratory-confirmed 2019-novel coronavirus (2019-nCoV) from Wuhan,
Hubei Province, China.
On 20 January 2020, National IHR Focal Point (NFP) for Republic of Korea reported the first
case of novel coronavirus in the Republic of Korea.

Situation update:

•
•
•

As of 20 January 2020, 282 confirmed cases of 2019-nCoV have been reported from four
countries including China (278 cases), Thailand (2 cases), Japan (1 case) and the Republic of
Korea (1 case);
Cases in Thailand, Japan and Republic of Korea were exported from Wuhan City, China;
Among the 278 cases confirmed in China, 258 cases were reported from Hubei Province, 14
from Guangdong Province, five from Beijing Municipality and one from Shanghai Municipality;

1

R.A. 59

'

Case 1:20-cv-04844-NGG-CLP Document 20-1 Filed 10/13/20 Page 2 of 5 PagelD # : 434

•

•

Of the 278 confirmed cases, 51 cases are severely ill1, 12 are in critical condition2;
Six deaths have been reported from Wuhan City.

I. SURVEILLANCE
Reported incidence of confirmed 2019-nCoV cases
Table 1. Countries, territories or areas with reported confirmed cases of 2019-nCoV, 20 January
2020
WHO Regional
Country, territory, area
Total number of
Office
confirmed cases
WPRO
China Hubei Province
258
China Guangdong
14
China Beijing Municipality
5
China Shanghai Municipality
1
Japan
1
Republic of Korea
1
SEARO
Thailand
2
Total confirmed
282
cases
Details of cases reported on 20 January 2020:
•

Wuhan City:
•
60 new confirmed cases including three deaths.

•

Guangdong Province:
•
Fourteen confirmed cases (one case was confirmed on 19 January) including four severe
cases, two critical cases, no deaths;
•
Of the 14 confirmed cases, 12 had travel history to Wuhan and two cases had contact history
with cases;
•
Nine were male and fives were female.

•

Beijing Municipality:
•
Five confirmed cases (two cases were confirmed on 19 January);
•
Of the three new confirmed cases on 20 Jan, two were male and one was a female;
•
All five cases had a travel history to Wuhan and are currently asymptomatic.

•

Shanghai Municipality:
•
One confirmed case in a female;
•
Travelled to Shanghai from Wuhan on 12 January;

Severe illness: According to any of the following criteria:
(1) dyspnea; (2) respiratory rate more than 30 bpm; (3) hypoxemia; (4) chest X-ray with multi-lobar infiltrates or pulmonary
infiltration progressed more than 50% within 24 - 48 hours.
2 Critical condition: According to any of the following criteria:
(1) respiratory failure; (2) septic shock; (3) other organ failure which requires Intensive Care Unit (ICU) admission.
1

2

R.A. 60

Case 1:20-cv-04844-NGG-CLP Document 20-1 Filed 10/13/20 Page 3 of 5 PagelD # : 435

•

Two contacts have been identified for follow up.

II. PREPAREDNESS AND RESPONSE:
WHO:
WHO has been in regular and direct contact with Chinese as well as Japanese, Korean and
Thai authorities since the reporting of these cases. The three countries have shared
information with WHO under the International Health Regulations. WHO is also informing
other countries about the situation and providing support as requested;
On 2 January, the incident management system was activated across the three levels of
WHO (country office, regional office and headquarters);
Developed the surveillance case definitions for human infection with 2019-nCoV and is
updating it as per the new information becomes available;
Developed interim guidance for laboratory diagnosis, clinical management, infection
prevention and control in health care settings, home care for mild patients, risk
communication and community engagement;
Prepared disease commodity package for supplies necessary in identification and
management of confirmed patients;
Provided recommendations to reduce risk of transmission from animals to humans;
Updated the travel advice for international travel in health in relation to the outbreak of
pneumonia caused by a new coronavirus in China;
Utilizing global expert networks and partnerships for laboratory, infection prevention and
control, clinical management and mathematical modelling;
Activation of R&D blueprint to accelerate diagnostics, vaccines, and therapeutics;
WHO is working with our networks of researchers and other experts to coordinate global
work on surveillance, epidemiology, modelling, diagnostics, clinical care and treatment, and
other ways to identify, manage the disease and limit onward transmission. WHO has issued
interim guidance for countries, updated to take into account the current situation.

III. COUNTRY RESPONSE:
China:

•
•
•
•
•
•

National authorities are conducting active case finding in all provinces;
Since 14 January 2020, 35 infrared thermometers have been installed in airports, railway
stations, long-distance bus stations, and ferry terminals;
Search expanded for additional cases within and outside of Wuhan City;
Active / retroactive case finding in medical institutions in Wuhan City;
The Huanan Seafood Wholesale Market in Wuhan city was closed on 1 January 2020 for
environmental sanitation and disinfection. Market inspection in expansion to other markets;
Public education on disease prevention and environmental hygiene further strengthened in
public places across the city, farmers' markets in particular.

3

R.A. 61

Case 1:20-cv-04844-NGG-CLP Document 20-1 Filed 10/13/20 Page 4 of 5 PagelD #: 436

Thailand:

•
•
•
•

The Department of Disease Control has been implementing its surveillance protocol by fever
screening of travellers from all direct flights from Wuhan, China to the Suvarnabhumi, Don
Mueang, Chiang Mai, Phuket and Krabi airports, with the screening protocol starting at Krabi
Airport started on 17 January 2020;
From 3 to 20 January 2020, among 116 flights, 18,383 passengers and aircrew members
were screened for respiratory symptoms and febrile illness;
As of 20 January 2020, the Department of Disease Control, Ministry of Public Health,
Thailand has scaled up the Emergency Operations Center to Level 2 to closely monitor the
ongoing situation both at the national and international levels;
Risk communication guidance has been shared with the public and a hotline has been
established by the Department of Disease Control for people returning from the affected
area in China with related symptoms.

Japan:

•
•
•
•
•
•
•
•
•
•
•
•

Contact tracing and other epidemiological investigations are underway by the local health
authorities in Japan;
As of 20 January 2020, 41 contacts have been followed. Of the 41 contacts, 37 have not
shown any symptoms, three have left the country and efforts have been made to reach one
contact;
The Japanese Government has scaled up a whole-of-government coordination mechanism
on the 16 January;
The MHLW has strengthened surveillance for undiagnosed severe acute respiratory
illnesses since the report of undiagnosed pneumonia in Wuhan, China;
From 6 January, MHLW requested local health governments to be aware of the
respiratory illnesses in Wuhan by using the existing surveillance system for serious
infectious illness with unknown etiology;
NIID is supporting local authorities on epidemiologic investigations including contact
tracing;
Quarantine and screening measures have been enhanced for travelers from Wuhan city
at the point of entries since 7 January;
NIID established an in-house PCR assay for nCoV on 16 January;
Revision of the risk assessment by NIID is being conducted, including case definition of
close contacts;
The public risk communication has been enhanced;
A hotline has been established among the different ministries in the government;
The MHLW is working closely with WHO and other related Member States to foster
mutual investigations and information sharing.

Republic of Korea:

•
•

Contact tracing and other epidemiological investigation are underway;
The government of the Republic of Korea has scaled up the national alert level from Blue
(Level 1) to Yellow (Level 2 out of 4-level national crisis management system);

4

R.A. 62

Case 1:20-cv-04844-NGG-CLP Document 20-1 Filed 10/13/20 Page 5 of 5 PagelD #: 437

•

•
•

The Republic of Korea health authority has strengthened surveillance for pneumonia
cases in health facilities nationwide since 3 January 2020;
Quarantine and screening measures have been enhanced for travelers from Wuhan at
the point of entries (PoE) since 3 January 2020;
Public risk communication has been enhanced.

Resources:
Technical interim guidance for novel coronavirus, WHO:
https://www.who.int/health-topics/coronavirus
WHO travel advice for international travel and trade in relation to the outbreak of pneumonia
caused by a new coronavirus in China:
https://www.who.int/ith/20200901_outbreak_of_Pneumonia_caused_by_a_new_coronavirus_in_C/en/
Press statement by KCDC (in Korean):
https://www.cdc.go.kr/board/board.es?mid=a20501000000&bid=0015&list_no=365794&act=view
#
Second Press statement by KCDC (in Korean):
https://www.cdc.go.kr/board/board.es?mid=a20501000000&bid=0015&list_no=365805&act=view
#
Wuhan Municipal Health Commission's briefing on the pneumonia epidemic situation, (in
Chinese):
http://wjw.wuhan.gov.cn/front/web/list2nd/no/710
Disease outbreak news, Novel Coronavirus:
https://www.who.int/csr/don/en/
Thailand Ministry of Public Health situation update on novel coronavirus (in Thai):
https://ddc.moph.go.th/viralpneumonia/index.html
Press statement by Ministry of Health, Labour and Welfare, Japan on 16 January 2020 (in Japanese):
https://www.mhlw.go.jp/stf/newpage_08906.html
Press statement by Ministry of Health, Labour and Welfare, Japan on 6 January 2020 (in Japanese):
https://www.mhlw.go.jp/stf/newpage_08767.html
Notice sent out from Health and Food Safety Planning Division, Quarantine Station Operation
Management Office (in Japanese):
https://www.mhlw.go.jp/content/10900000/000582967.pdf

5

R.A. 63

•

tt

I

11"1

{!• . ·· World Health
;Ja
0
. .
1, ,ij? rganIzat1on

"I

t

t

•.1•

I

••·•

t:

ZIKA VIRUS

Novel Coronavirus (2019-nCoV)
SITUATION REPORT - 3
23 JANUARY 2020

Data as reported by: 23 January 20201

SUMMARY
Situation update:

•
•
•
•
•
•

A total of 581 confirmed cases have been reported for novel coronavirus (2019-nCoV) globally;
Of the 581 cases reported, 571 cases were reported from China;
Cases have been reported in Thailand, Japan, Hong Kong Special Administrative Region, Taipei
Municipality, China, Macau Special Administrative Region, United States of America and the
Republic of Korea; All had travel history to Wuhan;
Of the 571 confirmed cases in China, 375 cases were confirmed from Hubei Province;
Of the 571 cases, 95 cases are severely ill2 ;
Seventeen deaths have been reported (all from Hubei Province);

On 23 January2020, the number of reported confirmed cases of 2019-nCoV has increased by 267
cases since the last situation report published on 22 January 2020. As of 23 January, China reported
cases in 25 provinces (autonomous regions and municipalities). Twenty five percent of confirmed
cases reported by China have been classified by Chinese health authorities as seriously ill (from
Wubei Province: (16% severely ill, 5% critically ill, and 4% having died).
Currently, cases infected in China have been exported to the US, Thailand, Japan and Republic of
Korea. It is expected that more cases will be exported to other countries, and that further
transmission may occur.
The initial source of 2019-nCoV still remains unknown. However, it is clear the growing outbreak is
no longer due to ongoing exposures at the Huanan seafood market in Wuhan; as in the last one
week, less than 15% of new cases reported having visited Huanan market. There is now more
evidence that 2019-nCoV spreads from human- to- human and also across generations of
cases. Moreover, family clusters involving persons with no reported travel to Wuhan have been

The situation report includes information reported to WHO Geneva by 10 AM CET
Severe illness: According to any of the following criteria :
(1) dyspnea; (2) respiratory rate more than 30 bpm; (3) hypoxemia; (4) chest X-ray with multi-lobar infiltrates or pulmonary
infiltration progressed more than SO% within 24 - 48 hours.

1
2

1

R.A. 64

'

38

Case 1:20-cv-04844-NGG-CLP Document 20-2 Filed 10/13/20 Page 2 of 7 PagelD # : 439

reported from Guangdong Province. There have been very few reports of hospital outbreaks or
infections of health care workers, which is a prominent feature of MERS and SARS.
WHO assesses the risk of this event to be very high in China, high at the regional level and high at the
global level.3
Figure 1. Countries, territories or areas with reported confirmed cases of 2019-nCoV, 23 January
2020

•

R•pu l:i hc

Jo pa n o

of KoreoO

Shandong O

Hcnan,t)

China

Hubel

Skhuanf)
Chongcilr1g e

Hunan o

Cuangdoft9

-Shoogho l
Zl!ell<>no e

0

f)

Jl(ln91:I

0

0

foipei

!-'iocaa SA~cPHong KOflg

SA~

0

Number Of confirmed cases
by area·
•

1-2

•

3-20

•

21 - 100

• ~100

United Stale-. of Americ•a

Country, o,ea or rerritory 'With

C05el

--The(• ar• 131 add"mOtlal c~s ,eP"1•d

from 24 Pro-.~, (0"1IOOOITICM ,.-g~ and
t'l'll.lnlclpolil;.s}. The CS.la.led ~oph"-

___________ _, _____ __
:::~.::;.~~-::==~~==:::::::~:,:=•~•= =-~:;::.:• di1;1Tihu1iml af lhl-1'- CQ'I"" 11; unit-.

:;::::,~:°'!'H~~::~:;;~:11

3

...,__,__,

Progromm,

1111

Not applicable

C~o~ = lhO~

: n mo AJn;meNed

.....

,

Note: Error in situation reports published on 23,24 and 25 January as originally published, which incorrectly
summarized the risk for global level to be moderate.

2

R.A. 65

Case 1:20-cv-04844-NGG-CLP Document 20-2 Filed 10/13/20 Page 3 of 7 PagelD #: 440

I. SURVEILLANCE
Reported incidence of confirmed 2019-nCoV cases
Table 1. Countries, territories or areas with reported confirmed cases of 2019-nCoV, 23 January
2020
WHO Regional Office

Confirmed
Cases

Country/Territory/Area
China

Total

571*

Hubei Province
4

WHO WPRO Region

WHO SEARO Region

Unspecified

131

Guangdong Province

26

Beijing Municipality

10

Shanghai Municipality

9

Chongqing Municipality

5

Zhejiang Province

5

Jiangxi Province

2

Sichuan Province

2

Tianjin Municipality

2

Henan Province

1

Hunan Province

1

Shandong Province

1

Yunnan Province

1

Taipei Municipality

1

Hong Kong Special Administrative
Region

1

Macau Special Administrative Region

1

Japan

1

Republic of Korea

1

Thailand

4

WHO AMRO Region

United States of America

Total Confirmed cases

Total

4

375

1
581

These unspecified cases are reported from 24 Provinces {autonomous regions and municipalities). The distribution of
these cases as per Provinces is not known.

3

R.A. 66

Case 1:20-cv-04844-NGG-CLP Document 20-2 Filed 10/13/20 Page 4 of 7 PagelD #: 441

II. PREPAREDNESS AND RESPONSE:
WHO:
WHO has been in regular and direct contact with Chinese as well as Japanese, Korean and
Thai authorities since the reporting of these cases. The three countries have shared
information with WHO under the International Health Regulations. WHO is also informing
other countries about the situation and providing support as requested;
On 2 January, the incident management system was activated across the three levels of
WHO (country office, regional office and headquarters);
Developed the surveillance case definitions for human infection with 2019-nCoV and is
updating it as per the new information becomes available;
Developed interim guidance for laboratory diagnosis, clinical management, infection
prevention and control in health care settings, home care for mild patients, risk
communication and community engagement;
Prepared disease commodity package for supplies necessary in identification and
management of confirmed patients;
Provided recommendations to reduce risk of transmission from animals to humans;
Updated the travel advice for international travel in health in relation to the outbreak of
pneumonia caused by a new coronavirus in China;
Utilizing global expert networks and partnerships for laboratory, infection prevention and
control, clinical management and mathematical modelling;
Activation of R&D blueprint to accelerate diagnostics, vaccines, and therapeutics;
WHO is working with our networks of researchers and other experts to coordinate global
work on surveillance, epidemiology, modelling, diagnostics, clinical care and treatment, and
other ways to identify, manage the disease and limit onward transmission. WHO has issued
interim guidance for countries, updated to take into account the current situation.

III. COUNTRY RESPONSE:
China:

•

•
•
•
•

National authorities are conducting active case finding in all provinces;
Search expanded for additional cases within and outside of Wuhan City;
Active / retroactive case finding in medical institutions in Wuhan City;
The Huanan Seafood Wholesale Market in Wuhan city was closed on 1 January 2020 for
environmental sanitation and disinfection. Market inspection in expansion to other markets;
Public education on disease prevention and environmental hygiene further strengthened in
public places across the city, farmers' markets in particular.

4

R.A. 67

Case 1:20-cv-04844-NGG-CLP Document 20-2 Filed 10/13/20 Page 5 of 7 PagelD #: 442

Thailand:

•
•
•
•

The Department of Disease Control has been implementing its surveillance protocol by fever
screening of travellers from all direct flights from Wuhan to the Suvarnabhumi, Don
Mueang, Chiang Mai, Phuket and Krabi airports, with the screening protocol starting at Krabi
Airport started on 17 January 2020;
From 3 to 21 January 2020, among 123 flights, 19,480 passengers and aircrew members
were screened for respiratory symptoms and febrile illness;
As of 22 January 2020, the Department of Disease Control, Ministry of Public Health,
Thailand has scaled up the Emergency Operations Center to Level 3 to closely monitor the
ongoing situation both at the national and international levels;
Risk communication guidance has been shared with the public and a hotline has been
established by the Department of Disease Control for people returning from the affected
area in China with related symptoms.

Japan:

•

•
•
•
•
•
•
•
•
•

From 6 January, the Ministry requested local health governments to be aware of the
respiratory illnesses in Wuhan by using the existing surveillance system for serious
infectious illness with unknown etiology;
Quarantine and screening measures have been enhanced for travelers from Wuhan at
the point of entries since 7 January;
National Institute of Infectious Disease (NIID) established an in-house PCR assay for nCoV
on 16 January;
The Japanese Government scaled up a whole-of-government coordination mechanism on
the 16 January;
As of 21 January, National Institute of Infectious Disease (NIID) announced it will conduct
active epidemiological investigations for confirmed cases and close contacts;
The Ministry of Health has strengthened surveillance for undiagnosed severe acute
respiratory illnesses since the report of undiagnosed pneumonia in Wuhan;
Revision of the risk assessment by NIID is being conducted, including case definition of
close contacts;
The public risk communication has been enhanced;
A hotline has been established among the different ministries in the government;
The MHLW is working closely with WHO and other related Member States to foster
mutual investigations and information sharing.

Republic of Korea:

•
•
•
•
•

Contact tracing and other epidemiological investigation are underway;
The government has scaled up the national alert level from Blue (Level 1) to Yellow (Level
2 out of 4-level national crisis management system);
The health authority strengthened surveillance for pneumonia cases in health facilities
nationwide since 3 January 2020;
Quarantine and screening measures have been enhanced for travelers from Wuhan at
the point of entries (PoE) since 3 January 2020;
Public risk communication has been enhanced.

5

R.A. 68

Case 1:20-cv-04844-NGG-CLP Document 20-2 Filed 10/13/20 Page 6 of 7 PagelD #: 443

United States of America:

•

•
•
•
•

On 7 January 2020, the US CDC established a 2019-nCoV Incident Management Structure. On
21 January 2020, US CDC activated its Emergency Response System to better provide ongoing
support to the 2019-nCoV response. On 21 January 2020, US CDC again updated its interim
travel health notice for persons traveling to Wuhan city, China. The travel notice was raised
from Level 1; Practice Usual Precautions, to a Level 2: Practice Enhanced Precautions advising
travellers that preliminary information suggests that older adults with underlying health
conditions may be at increased risk for severe disease.
CDC began entry screening of passengers on direct and connecting flights from Wuhan China
to the 3 main ports of entry in the United States on 17 January 2020 and will expand the
screening to Atlanta and Chicago in the coming days.
CDC issued an updated interim Health Alert Notice (HAN) Advisory to inform state and local
health departments and health care providers about this outbreak on 17 January 2020.
A CDC team has deployed a team to support the ongoing investigation in the state of
Washington in response to the first reported case of 2019-nCoV in the United States, including
potentially tracing close contacts to determine if anyone else has become ill.
CDC has developed a rRT-PCR test that can diagnose 2019-nCoV.

IV. Statistical Modelling
WHO is working with a number of mathematical model groups to better understand the
epidemiology and transmission dynamics of this event.

•

•

•

Phylogenetic analysis suggests based on 23 full genome sequences submitted to GISAID, that
the sequences exhibit little genetic variation, which is indicative of a recent origin of the
sampled and sequenced viruses. The sequenced genomes show no evidence of additional
introductions of the virus from a non-human animal reservoir, although the numbers of
sequences are limited at present. (Andrew Rambaut, University of Edinburgh, UK)
Updated estimated number of cases in Wuhan based on baseline assumptions and
alternative scenarios: a total of 4000 cases of 2019-nCoV in Wuhan City (uncertainty range:
1,000 9,700) had onset of symptoms by 18th January 2020 (Imai et al,
https://www.imperial.ac.uk/mrc-global-infectious-disease-analysis/news--wuhancoronavirus/)
The median size of the Wuhan outbreak is estimated to be 4, 050 infections (95% CI: 1.7007, 950) by using an estimate of 10 days from exposure to detection and an effective
population of 20 million people in Wuhan catchment as of January 20 (Matteo Chinazzi et al
https://www.mobslab.org/uploads/6/7/8/7/6787877/wuhan_novel_coronavirus_jan21.pdf)

6

R.A. 69

Case 1:20-cv-04844-NGG-CLP Document 20-2 Filed 10/13/20 Page 7 of 7 PagelD #: 444

Resources:
Technical interim guidance for novel coronavirus, WHO:
https://www.who.int/health-topics/coronavirus
WHO travel advice for international travel and trade in relation to the outbreak of pneumonia
caused by a new coronavirus in China:
https://www.who.int/ith/20200901_outbreak_of_Pneumonia_caused_by_a_new_coronavirus_in_C/en/Press statement by KCDC
(in Korean):
https://www.cdc.go.kr/board/board.es?mid=a20501000000&bid=0015&list_no=365794&act=view
#
Second Press statement by KCDC (in Korean):
https://www.cdc.go.kr/board/board.es?mid=a20501000000&bid=0015&list_no=365805&act=view
#
Wuhan Municipal Health Commission's briefing on the pneumonia epidemic situation, (in
Chinese):
http://wjw.wuhan.gov.cn/front/web/list2nd/no/710
Disease outbreak news, Novel Coronavirus:
https://www.who.int/csr/don/en/
Thailand Ministry of Public Health situation update on novel coronavirus (in Thai):
https://ddc.moph.go.th/viralpneumonia/index.html
Press statement by Ministry of Health, Labour and Welfare, Japan on 16 January 2020 (in Japanese):
https://www.mhlw.go.jp/stf/newpage_08906.html
Press statement by Ministry of Health, Labour and Welfare, Japan on 6 January 2020 (in Japanese):
https://www.mhlw.go.jp/stf/newpage_08767.html
Notice sent out from Health and Food Safety Planning Division, Quarantine Station Operation
Management Office (in Japanese):
https://www.mhlw.go.jp/content/10900000/000582967.pdf
Situation report by WHO on Novel Coronavirus (2019-nCoV)
https://www.who.int/emergencies/diseases/novel-coronavirus-2019

7

R.A. 70

(atJ>JD\ World Health

\.•J Organization

©

Statement on the second
meeting of the International
Health Regulations (2005)
Emergency Committee
regarding the outbreak of
novel coronavirus (2019-nCoV)
30 January 2020 IStatement IGeneva, Switzerland

The second meeting of the Emergency Committee convened by the WHO Director-General under
the International Health Regulations (IHR) (2005) regarding the outbreak of novel coronavirus
2019 in the People's Republic of China, with exportations to other countries, took place on Thursday,
30 January 2020, from 13:30 to 18:35 Geneva time (CEST). The Committee's role is to give advice
to the Director-General, who makes the final decision on the determination of a Public Health
Emergency of International Concern (PHEIC). The Committee also provides public health advice or
suggests formal Temporary Recommendations as appropriate.

Proceedings of the meeting
Members and advisors of the Emergency Committee were convened by teleconference
The Director-General welcomed the Committee and thanked them for their support. He turned the
meeting over to the Chair, Professor Didier Houssin.

https://www.who.int/news-room/detail/30-01-2020-statement-on-the-second-meeting-of-the-international-health-regulations-(2005)-emergency-committ...

R.A. 71

1/6

Professor Houssin also welcomed the Committee and gave the floor to the Secretariat.
A representative of the department of compliance, risk management, and ethics briefed the
Committee members on their roles and responsibilities.
Committee members were reminded of their duty of confidentiality and their responsibility to disclose
personal, financial, or professional connections that might be seen to constitute a conflict of interest.
Each member who was present was surveyed and no conflicts of interest were judged to be relevant
to the meeting. There were no changes since the previous meeting.
The Chair then reviewed the agenda for the meeting and introduced the presenters.
Representatives of the Ministry of Health of the People's Republic of China reported on
the current situation and the public health measures being taken . There are now 7711 confirmed
and 12167 suspected cases throughout the country. Of the confirmed cases, 1370 are severe and
170 people have died. 124 people have recovered and been discharged from hospital.
The WHO Secretariat provided an overview of the situation in other countries. There are
now 83 cases in 18 countries. Of these, only 7 had no history of travel in China. There has been
human-to-human transmission in 3 countries outside China. One of these cases is severe and there
have been no deaths.
At its first meeting, the Committee expressed divergent views on whether this event constitutes a
PHEIC or not. At that time, the advice was that the event did not constitute a PHEIC, but
theCommittee members agreed on the urgency of the situation and suggested that the Committee
should continue its meeting on the next day, when it reached the same conclusion.
This second meeting takes place in view of significant increases in numbers of cases and additional
countries reporting confirmed cases.

Conclusions and advice
The Committee welcomed the leadership and political commitment of the very highest levels
of Chinese government, their commitment to transparency, and the efforts made to investigate and
contain the current outbreak. China quickly identified the virus and shared its sequence, so that
other countries could diagnose it quickly and protect themselves, which has resulted in the rapid
development of diagnostic tools.

https://www.who.int/news-room/detail/30-01-2020-statement-on-the-second-meeting-of-the-international-health-regulations-(2005)-emergency-committ...

R.A. 72

2/6

The very strong measures the country has taken include daily contact with WHO
and comprehensive multi-sectoral approaches to prevent further spread. It has also taken public
health measures in other cities and provinces; is conducting studies on the severity and
transmissibility of the virus, and sharing data and biological material. The country has also agreed to
work with other countries who need their support. The measures China has taken are good not only
for that country but also for the rest of the world .
The Committee acknowledged the leading role of WHO and its partners.
The Committee also acknowledged that there are still many unknowns, cases have now been
reported in five WHO regions in one month, and human-to-human transmission has
occurred outside Wuhan and outside China.
The Committee believes that it is still possible to interrupt virus spread, provided that countries put in
place strong measures to detect disease early, isolate and treat cases, trace contacts, and promote
social distancing measures commensurate with the risk. It is important to note that as the situation
continues to evolve, so will the strategic goals and measures to prevent and reduce spread of the
infection. The Committee agreed that the outbreak now meets the criteria for a Public Health
Emergency of International Concern and proposed the following advice to be issued as Temporary
Recommendations.
The Committee emphasized that the declaration of a PHEIC should be seen in the spirit of support
and appreciation for China, its people, and the actions China has taken on the frontlines of this
outbreak, with transparency, and, it is to be hoped, with success. In line with the need for global
solidarity, the Committee felt that a global coord inated effort is needed to enhance preparedness in
other regions of the world that may need additional support for that.

Advice to WHO
The Committee welcomed a forthcoming WHO multidisciplinary technical mission to China, including
national and local experts. The mission should review and support efforts to investigate the animal
source of the outbreak, the clinical spectrum of the disease and its severity, the extent of human-tohuman transmission in the community and in healthcare facilities, and efforts to control the
outbreak. This mission will provide information to the international community to aid in
understanding the situation and its impact and enable sharing of experience and successful
measures.
The Committee wished to re-emphasize the importance of studying the possible source, to rule
out hidden transmission and to inform risk management measures

https://www.who.int/news-room/detail/30-01-2020-statement-on-the-second-meeting-of-the-international-health-regulations-(2005)-emergency-committ...

R.A. 73

3/6

The Committee also emphasized the need for enhanced surveillance in regions outside Hubei,
including pathogen genomic sequencing, to understand whether local cycles of transmission
are occurring.
WHO should continue to use its networks of technical experts to assess how best this outbreak can
be contained globally.
WHO should provide intensified support for preparation and response, especially in vulnerable
countries and regions.
Measures to ensure rapid development and access to potential vaccines, diagnostics, antiviral
medicines and other therapeutics for low- and middle-income countries should be developed.
WHO should continue to provide all necessary technical and operational support to respond to this
outbreak, including with its extensive networks of partners and collaborating
institutions, to implement a comprehensive risk communication strategy, and to allow for the
advancement of research and scientific developments in relation to this novel coronavirus.
WHO should continue to explore the advisability of creating an intermediate level of alert between
the binary possibilities of PHEIC or no PHEIC, in a way that does not require reopening negotiations
on the text of the IHR (2005) .
WHO should timely review the situation with transparency and update its evidence-based
recommendations.
The Committee does not recommend any travel or trade restriction based on the current information
available.
The Director-General declared that the outbreak of 2019-nCoV constitutes a PHEIC and
accepted the Committee's advice and issued this advice as Temporary Recommendations
under the IHR.

To the People's Republic of China
Continue to:
• Implement a comprehensive risk communication strategy to regularly inform the population on the
evolution of the outbreak, the prevention and protection measures for the population, and the
response measures taken for its containment.

https://www.who.int/news-room/detail/30-01-2020-statement-on-the-second-meeting-of-the-international-health-regulations-(2005)-emergency-committ...

R.A. 74

4/6

• Enhance public health measures for containment of the current outbreak.
• Ensure the resilience of the health system and protect the health workforce.
• Enhance surveillance and active case finding across China.
• Collaborate with WHO and partners to conduct investigations to understand the epidemiology and
the evolution of this outbreak and measures to contain it.
• Share relevant data on human cases.
• Continue to identify the zoonotic source of the outbreak, and particularly the potential for
circulation with WHO as soon as it becomes available.
• Conduct exit screening at international airports and ports, with the aim of early detection
of symptomatic travelers for further evaluation and treatment, while minimizing interference with
international traffic.

To all countries
It is expected that further international exportation of cases may appear in any country. Thus, all
countries should be prepared for containment, including active surveillance, early detection,
isolation and case management, contact tracing and prevention of onward spread of 2019nCoVinfection, and to share full data with WHO. Technical advice is available on the WHO website.
Countries are reminded that they are legally required to share information with WHO under the IHR.
Any detection of 2019-nCoV in an animal (including information about the species, diagnostic tests,
and relevant epidemiological information) should be reported to the World Organization for Animal
Health (OIE) as an emerging disease.
Countries should place particular emphasis on reducing human infection, prevention of secondary
transmission and international spread, and contributing to the international response though multisectoral communication and collaboration and active participation in increasing knowledge on
the virus and the disease, as well as advancing research.
The Committee does not recommend any travel or trade restriction based on the current information
available.

https://www.who.int/news-room/detail/30-01-2020-statement-on-the-second-meeting-of-the-international-health-regulations-(2005)-emergency-committ...

R.A. 75

5/6

Countries must inform WHO about travel measures taken, as required by the IHR. Countries are
cautioned against actions that promote stigma or discrimination, in line with the principles of Article 3
of the IHR.
The Committee asked the Director-General to provide further advice on these matters and, if
necessary, to make new case-by-case recommendations, in view of this rapidly evolving situation .

To the global community
As this is a new coronavirus, and it has been previously shown that similar coronaviruses required
substantial efforts to enable regular information sharing and research, the global community should
continue to demonstrate solidarity and cooperation, in compliance with Article 44 of the IHR
(2005), in supporting each other on the identification of the source of this new virus, its full potential
for human-to-human transmission, preparedness for potential importation of cases, and research for
developing necessary treatment.
Provide support to low- and middle-income countries to enable their response to this event, as well
as to facilitate access to diagnostics, potential vaccines and therapeutics.
Under Article 43 of the IHR, States Parties implementing additional health measures that
significantly interfere with international traffic (refusal of entry or departure of international travellers,
baggage, cargo, containers, conveyances, goods, and the like, or their delay, for more than 24
hours) are obliged to send to WHO the public health rationale and justification within 48 hours of
their implementation. WHO will review the justification and may request countries to reconsider their
measures. WHO is required to share with other States Parties the information about measures and
the justification received .
The Emergency Committee will be reconvened within three months or earlier, at the discretion of the
Director-General.
The Director-General thanked the Committee for its work.

Subscribe to our newsletters~

https://www.who.int/news-room/detail/30-01-2020-statement-on-the-second-meeting-of-the-international-health-regulations-(2005)-emergency-committ...

R.A. 76

6/6

7/29t202C ase 1 :2O-cv-O4844- ~Glt&?-Ge~ l li i;e6la4 s aRHetde~Q61alaG3n deage9'h o MirEi\a g.el D

#: 451

(atJ>JD\ World Health

\.•J Organization

WHO Director-General's
opening remarks at the media
briefing on COVID-19 - 11
March 2020
11 March 2020

Good afternoon.
In the past two weeks, the number of cases of COVID-19 outside China has increased 13-fold, and
the number of affected countries has tripled .
There are now more than 118,000 cases in 114 countries, and 4,291 people have lost their lives.
Thousands more are fighting for their lives in hospitals.
In the days and weeks ahead, we expect to see the number of cases, the number of deaths, and the
number of affected countries climb even higher.
WHO has been assessing this outbreak around the clock and we are deeply concerned both by the
alarming levels of spread and severity, and by the alarming levels of inaction.
We have therefore made the assessment that COVID-19 can be characterized as a pandemic.
Pandemic is not a word to use lightly or carelessly. It is a word that, if misused , can cause
unreasonable fear, or unjustified acceptance that the fight is over, leading to unnecessary suffering
and death.

https://www.who.int/dg/speeches/detail/who-director-general-s-opening-remarks-at-the-media-briefing-on-covid-19-11-march-2020

R.A. 77

1/4

Describing the situation as a pandemic does not change WHO's assessment of the threat posed by
this virus. It doesn't change what WHO is doing, and it doesn't change what countries should do.
We have never before seen a pandemic sparked by a coronavirus. This is the first pandemic caused
by a coronavirus.
And we have never before seen a pandemic that can be controlled, at the same time.
WHO has been in full response mode since we were notified of the first cases.
And we have called every day for countries to take urgent and aggressive action.
We have rung the alarm bell loud and clear.

As I said on Monday, just looking at the number of cases and the number of countries affected does
not tell the full story.
Of the 118,000 cases reported globally in 114 countries, more than 90 percent of cases are in just
four countries, and two of those - China and the Republic of Korea - have significantly declining
epidemics.
81 countries have not reported any cases, and 57 countries have reported 10 cases or less.
We cannot say this loudly enough, or clearly enough, or often enough : all countries can still change
the course of this pandemic.
If countries detect, test, treat, isolate, trace, and mobilize their people in the response, those with a
handful of cases can prevent those cases becoming clusters, and those clusters becoming
community transmission.
Even those countries with community transmission or large clusters can turn the tide on this virus.
Several countries have demonstrated that this virus can be suppressed and controlled.
The challenge for many countries who are now dealing with large clusters or community
transmission is not whether they can do the same - it's whether they will.
Some countries are struggling with a lack of capacity.
Some countries are struggling with a lack of resources.

https://www.who.int/dg/speeches/detail/who-director-general-s-opening-remarks-at-the-media-briefing-on-covid-19-11-march-2020

R.A. 78

2/4

Some countries are struggling with a lack of resolve .
We are grateful for the measures being taken in Iran, Italy and the Republic of Korea to slow the
virus and control their epidemics.
We know that these measures are taking a heavy toll on societies and economies, just as they did in
China.
All countries must strike a fine balance between protecting health, minimizing economic and social
disruption, and respecting human rights.
WHO's mandate is public health. But we're working with many partners across all sectors to mitigate
the social and economic consequences of this pandemic.
This is not just a public health crisis, it is a crisis that will touch every sector - so every sector and
every individual must be involved in the fight.
I have said from the beginning that countries must take a whole-of-government, whole-of-society
approach, built around a comprehensive strategy to prevent infections, save lives and minimize
impact.
Let me summarize it in four key areas.
First, prepare and be ready.
Second, detect, protect and treat.
Third, reduce transmission.
Fourth, innovate and learn.
I remind all countries that we are calling on you to activate and scale up your emergency response
mechanisms;
Communicate with your people about the risks and how they can protect themselves - this is
everybody's business;
Find, isolate, test and treat every case and trace every contact;
Ready your hospitals;
Protect and train your health workers.

https://www.who.int/dg/speeches/detail/who-director-general-s-opening-remarks-at-the-media-briefing-on-covid-19-11-march-2020

R.A. 79

3/4

7/29t202C ase 1 :2O-cv-O4844- ~Glt&?-Ge~ l li i;e6la4 s aRHetde~Q61alaG3n deage94- o MirEi\a g.el D

#: 454

And let's all look out for each other, because we need each other.

There's been so much attention on one word .
Let me give you some other words that matter much more, and that are much more actionable.
Prevention.
Preparedness.
Public health.
Political leadership.
And most of all, people.
We're in this together, to do the right things with calm and protect the citizens of the world . It's
doable.
I thank you.

Subscribe to the WHO newsletter -

https://www.who.int/dg/speeches/detail/who-director-general-s-opening-remarks-at-the-media-briefing-on-covid-19-11-march-2020

R.A. 80

4/4

PROCLAMATIONS

Proclamation on Declaring a National Emergency
Concerning the Novel Coronavirus Disease (COVID19) Outbreak
Issued on: March 13, 2020

***
In December 2019, a novel (new) coronavirus known as SARS-CoV-2 ("the virus") was first detected
in Wuhan, Hubei Province, People's Republic of China, causing outbreaks of the coronavirus
disease COVID-19 that has now spread globally. The Secretary of Health and Human Services (HHS)
declared a public health emergency on January 31, 2020, under section 319 of the Public Health
Service Act (42 U.S.C. 247d), in response to COVID-19. I have taken sweeping action to control the
spread of the virus in the United States, including by suspending entry of foreign nationals seeking
entry who had been physically present within the prior 14 days in certain jurisdictions where
COVID-19 outbreaks have occurred, including the People's Republic of China, the Islamic Republic
of Iran, and the Schengen Area of Europe. The Federal Government, along with State and local
governments, has taken preventive and proactive measures to slow the spread of the virus and
treat those affected, including by instituting Federal quarantines for individuals evacuated from
foreign nations, issuing a declaration pursuant to section 319F-3 of the Public Health Service Act
(42 U.S.C. 247d-6d), and releasing policies to accelerate the acquisition of personal protective
equipment and streamline bringing new diagnostic capabilities to laboratories. On March 11, 2020,
the World Health Organization announced that the COVID-19 outbreak can be characterized as a
pandemic, as the rates of infection continue to rise in many locations around the world and across
the United States.

The spread of COVID-19 within our Nation's communities threatens to strain our Nation's healthcare
systems. As of March 12, 2020, 1,645 people from 47 States have been infected with the virus that
https://www.whitehouse.gov/presidential-actions/proclamation-declaring-national-emergency-concern ing-novel-coronavirus-disease-covid-19-outbreak/

R.A. 81

1/3

7/29t202C ase

U YcleOMe@J116W~~G:diili?ial

thlr=Ne@I !tQ6W/r20>is~

® IOf1i e\llge!,!pl#e

House

causes COVID-19. It is incumbent on hospitals and medical facilities throughout the country to
assess their preparedness posture and be prepared to surge capacity and capability. Additional
measures, however, are needed to successfully contain and combat the virus in the United States.
NOW, THEREFORE, I, DONALD J. TRUMP, President of the United States, by the authority vested in
me by the Constitution and the laws of the United States of America, including sections 201 and 301
of the National Emergencies Act (SO U.S.C. 1601 et seq.) and consistent with section 1135 of the
Social Security Act (SSA), as amended (42 U.S.C. 1320b-5), do hereby find and proclaim that the
COVID-19 outbreak in the United States constitutes a national emergency, beginning March 1, 2020.
Pursuant to this declaration, I direct as follows:

Section 1. EmergencY. Authority. The Secretary of HHS may exercise the authority under section
1135 of the SSA to temporarily waive or modify certain requirements of the Medicare, Medicaid, and
State Children's Health Insurance programs and of the Health Insurance Portability and
Accountability Act Privacy Rule throughout the duration of the public health emergency declared in
response to the COVID-19 outbreak.
Sec. i. Certification and Notice. In exercising this authority, the Secretary of HHS shall provide
certification and advance written notice to the Congress as required by section 1135(d) of the SSA
(42 U.S.C. 1320b-S(d)).
Sec. J,. General Provisions. (a) Nothing in this proclamation shall be construed to impair or
otherwise affect:

(i) the authority granted by law to an executive department or agency, or the head thereof; or
(ii) the functions of the Director of the Office of Management and Budget relating to budgetary,
administrative, or legislative proposals.

(b) This proclamation shall be implemented consistent with applicable law and subject to the
availability of appropriations.

(c) This proclamation is not intended to, and does not, create any right or benefit, substantive or
procedural, enforceable at law or in equity by any party against the United States, its departments,
agencies, or entities, its officers, employees, or agents, or any other person.
https://www.whitehouse.gov/presidential-actions/proclamation-declaring-national-emergency-concerning-novel-coronavirus-disease-covid-19-outbreak/

R.A. 82

2/3

7/29t202C ase

U YcleOMe@J116W~~G:diili?ial

thlr=Ne@I !tQ6W/r20>is~

® IOf1i e\llge!,!pl#e ~1 House

IN WITNESS WHEREOF, I have hereunto set my hand this thirteenth day of March, in the year of our
Lord two thousand twenty, and of the Independence of the United States of America the two
hundred and forty-fourth.
DONALD J. TRUMP

https://www.whitehouse.gov/presidential-actions/proclamation-declaring-national-emergency-concerning-novel-coronavirus-disease-covid-19-outbreak/

R.A. 83

3/3

Case 1:20-cv-04844-NGG-CLP Document 20-6 Filed 10/13/20 Page 1 of 21 PagelD #: 458

(atJ?~\ World _He~lth

~•'-' Orgamzat10n

Transmission of SARS-CoV-2:
implications for infection
prevention precautions
Scientific Brief
<#,kq#5353

This document is an update to the scientific brief published on 29 March 2020 entitled Modes of
transmission of virus causing COVID-19: implications for infection prevention and control (IPC)
precaution recommendations and includes new scientific evidence available on transmission of
SARS-CoV-2, the virus that causes COVID-19.

Overview
This scientific brief provides an overview of the modes of transmission of SARS-CoV-2, what is
known about when infected people transmit the virus, and the implications for infection prevention
and control precautions within and outside health facilities. This scientific brief is not a systematic
review. Rather, it reflects the consolidation of rapid reviews of publications in peer-reviewed journals
and of non-peer-reviewed manuscripts on pre-print servers, undertaken by WHO and partners.
Preprint findings should be interpreted with caution in the absence of peer review. This brief is also
informed by several discussions via teleconferences with the WHO Health Emergencies Programme
ad hoc Experts Advisory Panel for IPC Preparedness, Readiness and Response to COVID-19, the
WHO ad hoc COVID-19 IPC Guidance Development Group (COVID-19 IPC GDG), and by review of
external experts with relevant technical backgrounds.

R.A. 84

Case 1:20-cv-04844-NGG-CLP Document 20-6 Filed 10/13/20 Page 2 of 21 PagelD #: 459

The overarching aim of the global Strategic Preparedness and Response Plan for COVID-19(1) is to
control COVID-19 by suppressing transmission of the virus and preventing associated illness and
death. Current evidence suggests that SARS-CoV-2, the virus that causes COVID-19, is
predominantly spread from person-to-person. Understanding how, when and in what types of settings
SARS-CoV-2 spreads is critical to develop effective public health and infection prevention and control
measures to break chains of transmission.

Modes of transmission
This section briefly describes possible modes of transmission for SARS-CoV-2, including contact,
droplet, airborne, fomite, fecal-oral, bloodborne, mother-to-child, and animal-to-human transmission.
Infection with SARS-CoV-2 primarily causes respiratory illness ranging from mild disease to severe
disease and death, and some people infected with the virus never develop symptoms.

Contact and droplet transmission
Transmission of SARS-CoV-2 can occur through direct, indirect, or close contact with infected people
through infected secretions such as saliva and respiratory secretions or their respiratory droplets,
which are expelled when an infected person coughs, sneezes, talks or sings.(2-10) Respiratory
droplets are >5-10 µm in diameter whereas droplets -<5 µm in diameter are referred to as droplet

nuclei or aerosols.(11) Respiratory droplet transmission can occur when a person is in close contact
(within 1 metre) with an infected person who has respiratory symptoms (e.g. coughing or sneezing)
or who is talking or singing; in these circumstances, respiratory droplets that include virus can reach
the mouth, nose or eyes of a susceptible person and can result in infection. Indirect contact
transmission involving contact of a susceptible host with a contaminated object or surface (fomite
transmission) may also be possible (see below).

Airborne transmission
Airborne transmission is defined as the spread of an infectious agent caused by the dissemination of
droplet nuclei (aerosols) that remain infectious when suspended in air over long distances and time.
(11) Airborne transmission of SARS-CoV-2 can occur during medical procedures that generate
aerosols (aerosol generating procedures).(12) WHO, together with the scientific community, has
been actively discussing and evaluating whether SARS-CoV-2 may also spread through aerosols in
the absence of aerosol generating procedures, particularly in indoor settings with poor ventilation.

R.A. 85

Case 1:20-cv-04844-NGG-CLP Document 20-6 Filed 10/13/20 Page 3 of 21 PagelD #: 460

The physics of exhaled air and flow physics have generated hypotheses about possible mechanisms
of SARS-CoV-2 transmission through aerosols.(13-16) These theories suggest that 1) a number of
respiratory droplets generate microscopic aerosols (<5 µm) by evaporating, and 2) normal breathing
and talking results in exhaled aerosols. Thus, a susceptible person could inhale aerosols, and could
become infected if the aerosols contain the virus in sufficient quantity to cause infection within the
recipient. However, the proportion of exhaled droplet nuclei or of respiratory droplets that evaporate
to generate aerosols, and the infectious dose of viable SARS-CoV-2 required to cause infection in
another person are not known, but it has been studied for other respiratory viruses.(17)
One experimental study quantified the amount of droplets of various sizes that remain airborne
during normal speech. However, the authors acknowledge that this relies on the independent action
hypothesis, which has not been validated for humans and SARS-CoV-2.(18) Another recent
experimental model found that healthy individuals can produce aerosols through coughing and
talking (19), and another model suggested high variability between individuals in terms of particle
emission rates during speech, with increased rates correlated with increased amplitude of
vocalization.(20) To date, transmission of SARS-CoV-2 by this type of aerosol route has not been
demonstrated; much more research is needed given the possible implications of such route of
transmission.
Experimental studies have generated aerosols of infectious samples using high-powered jet
nebulizers under controlled laboratory conditions. These studies found SARS-CoV-2 virus RNA in air
samples within aerosols for up to 3 hours in one study (21) and 16 hours in another, which also found
viable replication-competent virus.(22) These findings were from experimentally induced aerosols
that do not reflect normal human cough conditions.
Some studies conducted in health care settings where symptomatic COVID-19 patients were cared
for, but where aerosol generating procedures were not performed, reported the presence of SARSCoV-2 RNA in air samples (23-28), while other similar investigations in both health care and nonhealth care settings found no presence of SARS-CoV-2 RNA; no studies have found viable virus in
air samples.(29-36) Within samples where SARS-CoV-2 RNA was found, the quantity of RNA
detected was in extremely low numbers in large volumes of air and one study that found SARS-CoV2 RNA in air samples reported inability to identify viable virus. (25) The detection of RNA using
reverse transcription polymerase chain reaction (RT-PCR)-based assays is not necessarily indicative
of replication- and infection-competent (viable) virus that could be transmissible and capable of
causing infection.(37)
Recent clinical reports of health workers exposed to COVID-19 index cases, not in the presence of
aerosol-generating procedures, found no nosocomial transmission when contact and droplet
precautions were appropriately used, including the wearing of medical masks as a component of the

R.A. 86

Case 1:20-cv-04844-NGG-CLP Document 20-6 Filed 10/13/20 Page 4 of 21 PagelD #: 461

personal protective equipment (PPE). (38, 39) These observations suggest that aerosol
transmission did not occur in this context. Further studies are needed to determine whether it is
possible to detect viable SARS-CoV-2 in air samples from settings where no procedures that
generate aerosols are performed and what role aerosols might play in transmission.
Outside of medical facilities, some outbreak reports related to indoor crowded spaces (40) have
suggested the possibility of aerosol transmission, combined with droplet transmission, for example,
during choir practice (7), in restaurants (41) or in fitness classes.(42) In these events, short-range
aerosol transmission, particularly in specific indoor locations, such as crowded and inadequately
ventilated spaces over a prolonged period of time with infected persons cannot be ruled out.
However, the detailed investigations of these clusters suggest that droplet and fomite transmission
could also explain human-to-human transmission within these clusters. Further, the close contact
environments of these clusters may have facilitated transmission from a small number of cases to
many other people (e.g., superspreading event), especially if hand hygiene was not performed and
masks were not used when physical distancing was not maintained.(43)

Fomite transmission
Respiratory secretions or droplets expelled by infected individuals can contaminate surfaces and
objects, creating fomites (contaminated surfaces). Viable SARS-CoV-2 virus and/or RNA detected by
RT-PCR can be found on those surfaces for periods ranging from hours to days, depending on the
ambient environment (including temperature and humidity) and the type of surface, in particular at
high concentration in health care facilities where COVID-19 patients were being treated.(21, 23, 24,
26, 28, 31-33, 36, 44, 45) Therefore, transmission may also occur indirectly through touching
surfaces in the immediate environment or objects contaminated with virus from an infected person
(e.g. stethoscope or thermometer), followed by touching the mouth, nose, or eyes.
Despite consistent evidence as to SARS-CoV-2 contamination of surfaces and the survival of the
virus on certain surfaces, there are no specific reports which have directly demonstrated fomite
transmission. People who come into contact with potentially infectious surfaces often also have close
contact with the infectious person, making the distinction between respiratory droplet and fomite
transmission difficult to discern. However, fomite transmission is considered a likely mode of
transmission for SARS-CoV-2, given consistent findings about environmental contamination in the
vicinity of infected cases and the fact that other coronaviruses and respiratory viruses can transmit
this way.

R.A. 87

Case 1:20-cv-04844-NGG-CLP Document 20-6 Filed 10/13/20 Page 5 of 21 PagelD #: 462

Other modes of transmission
SARS-CoV-2 RNA has also been detected in other biological samples, including the urine and feces
of some patients.(46-50)One study found viable SARS-CoV-2 in the urine of one patient.(51)Three
studies have cultured SARS-CoV-2 from stool specimens. (48, 52, 53) To date, however, there have
been no published reports of transmission of SARS-CoV-2 through feces or urine.
Some studies have reported detection of SARS-CoV-2 RNA, in either plasma or serum, and the virus
can replicate in blood cells. However, the role of bloodborne transmission remains uncertain; and low
viral titers in plasma and serum suggest that the risk of transmission through this route may be low.
(48, 54) Currently, there is no evidence for intrauterine transmission of SARS-CoV-2 from infected
pregnant women to their fetuses, although data remain limited. WHO has recently published a
scientific brief on breastfeeding and COVID-19.(55) This brief explains that viral RNA fragments have
been found by RT-PCR testing in a few breast milk samples of mothers infected with SARS-CoV-2,
but studies investigating whether the virus could be isolated, have found no viable virus.
Transmission of SARS-CoV-2 from mother to child would necessitate replicative and infectious virus
in breast milk being able to reach target sites in the infant and also to overcome infant defense
systems. WHO recommends that mothers with suspected or confirmed COVID-19 should be
encouraged to initiate or continue to breastfeed.(55)
Evidence to date shows that SARS-CoV-2 is most closely related to known betacoronaviruses in
bats; the role of an intermediate host in facilitating transmission in the earliest known human cases
remains unclear.(56, 57) In addition to investigations on the possible intermediate host(s) of SARSCoV-2, there are also a number of studies underway to better understand susceptibility of SARSCoV-2 in different animal species. Current evidence suggests that humans infected with SARS-CoV-2
can infect other mammals, including dogs(58), cats(59), and farmed mink.(60) However, it remains
unclear if these infected mammals pose a significant risk for transmission to humans.

When do people infected with SARS-CoV-2
infect others?
Knowing when an infected person can spread SARS-CoV-2 is just as important as how the virus
spreads (described above). WHO has recently published a scientific brief outlining what is known
about when a person may be able to spread, based on the severity of their illness.(61)

R.A. 88

Case 1:20-cv-04844-NGG-CLP Document 20-6 Filed 10/13/20 Page 6 of 21 PagelD #: 463

In brief, evidence suggests that SARS-CoV-2 RNA can be detected in people 1-3 days before their
symptom onset, with the highest viral loads, as measured by RT-PCR, observed around the day of
symptom onset, followed by a gradual decline over time.(47, 62-65) The duration of RT-PCR
positivity generally appears to be 1-2 weeks for asymptomatic persons, and up to 3 weeks or more
for patients with mild to moderate disease.(62, 65-68) In patients with severe COVID-19 disease, it
can be much longer.(47)
Detection of viral RNA does not necessarily mean that a person is infectious and able to transmit the
virus to another person. Studies using viral culture of patient samples to assess the presence of
infectious SARS-CoV-2 are currently limited. (61) Briefly, viable virus has been isolated from an
asymptomatic case,(69) from patients with mild to moderate disease up to 8-9 days after symptom
onset, and for longer from severely ill patients.(61) Full details about the duration of viral shedding
can be found in the WHO guidance document on Criteria for releasing COVID-19 patients from
isolation. (61) Additional studies are needed to determine the duration of viable virus shedding
among infected patients.

SARS-CoV-2 infected persons who have symptoms can infect
others primarily through droplets and close contact
SARS-CoV-2 transmission appears to mainly be spread via droplets and close contact with infected
symptomatic cases. In an analysis of 75,465 COVID-19 cases in China, 78-85% of clusters occurred
within household settings, suggesting that transmission occurs during close and prolonged contact.
(6) A study of the first patients in the Republic of Korea showed that 9 of 13 secondary cases
occurred among household contacts.(70) Outside of the household setting, those who had close
physical contact, shared meals, or were in enclosed spaces for approximately one hour or more with
symptomatic cases, such as in places of worship, gyms, or the workplace, were also at increased risk
of infection.(7, 42, 71, 72) Other reports have supported this with similar findings of secondary
transmission within families in other countries.(73, 74)

SARS-CoV-2 infected persons without symptoms can also
infect others
Early data from China suggested that people without symptoms could infect others.(6) To better
understand the role of transmission from infected people without symptoms, it is important to
distinguish between transmission from people who are infected who never develop symptoms(75)

R.A. 89

Case 1:20-cv-04844-NGG-CLP Document 20-6 Filed 10/13/20 Page 7 of 21 PagelD #: 464

(asymptomatic transmission) and transmission from people who are infected but have not developed
symptoms yet (pre-symptomatic transmission). This distinction is important when developing public
health strategies to control transmission.
The extent of truly asymptomatic infection in the community remains unknown. The proportion of
people whose infection is asymptomatic likely varies with age due to the increasing prevalence of
underlying conditions in older age groups (and thus increasing risk of developing severe disease with
increasing age), and studies that show that children are less likely to show clinical symptoms
compared to adults.(76) Early studies from the United States (77) and China (78) reported that many
cases were asymptomatic, based on the lack of symptoms at the time of testing; however, 75-100%
of these people later developed symptoms. A recent systematic review estimated that the proportion
of truly asymptomatic cases ranges from 6% to 41%, with a pooled estimate of 16% (12%20%).(79)
However, all studies included in this systematic review have important limitations.(79) For example,
some studies did not clearly describe how they followed up with persons who were asymptomatic at
the time of testing to ascertain if they ever developed symptoms, and others defined asymptomatic
very narrowly as persons who never developed fever or respiratory symptoms, rather than as those
who did not develop any symptoms at all.(76, 80) A recent study from China that clearly and
appropriately defined asymptomatic infections suggests that the proportion of infected people who
never developed symptoms was 23%.(81)
Multiple studies have shown that people infect others before they themselves became ill, (10, 42, 69,
82, 83) which is supported by available viral shedding data (see above). One study of transmission in
Singapore reported that 6.4% of secondary cases resulted from pre-symptomatic transmission.(73)
One modelling study, that inferred the date of transmission based on the estimated serial interval and
incubation period, estimated that up to 44% (25-69%) of transmission may have occurred just before
symptoms appeared.(62) It remains unclear why the magnitude of estimates from modelling studies
differs from available empirical data.
Transmission from infected people without symptoms is difficult to study. However, information can be
gathered from detailed contact tracing efforts, as well as epidemiologic investigations among cases
and contacts. Information from contact tracing efforts reported to WHO by Member States, available
transmission studies and a recent pre-print systematic reviews suggests that individuals without
symptoms are less likely to transmit the virus than those who develop symptoms.(10, 81, 84, 85)
Four individual studies from Brunei, Guangzhou China, Taiwan China and the Republic of Korea
found that between 0% and 2.2% of people with asymptomatic infection infected anyone else,
compared to 0.8%-15.4% of people with symptoms.(10, 72, 86, 87)

R.A. 90

Case 1:20-cv-04844-NGG-CLP Document 20-6 Filed 10/13/20 Page 8 of 21 PagelD #: 465

Remaining questions related to transmission
Many unanswered questions about transmission of SARS-CoV-2 remain, and research seeking to
answer those questions is ongoing and is encouraged. Current evidence suggests that SARS-CoV-2
is primarily transmitted between people via respiratory droplets and contact routes  although
aerosolization in medical settings where aerosol generating procedures are used is also another
possible mode of transmission - and that transmission of COVID-19 is occurring from people who
are pre-symptomatic or symptomatic to others in close contact (direct physical or face-to-face contact
with a probable or confirmed case within one meter and for prolonged periods of time), when not
wearing appropriate PPE. Transmission can also occur from people who are infected and remain
asymptomatic, but the extent to which this occurs is not fully understood and requires further
research as an urgent priority. The role and extent of airborne transmission outside of health care
facilities, and in particular in close settings with poor ventilation, also requires further study.
As research continues, we expect to gain a better understanding about the relative importance of
different transmission routes, including through droplets, physical contact and fomites; the role of
airborne transmission in the absence of aerosol generating procedures; the dose of virus required for
transmission to occur, the characteristics of people and situations that facilitate superspreading
events such as those observed in various closed settings, the proportion of infected people who
remain asymptomatic throughout the course of their infection; the proportion of truly asymptomatic
persons who transmit the virus to others; the specific factors that drive asymptomatic and presymptomatic transmission; and the proportion of all infections that are transmitted from asymptomatic
and pre-symptomatic individuals.

Implications for preventing transmission
Understanding how, when and in which settings infected people transmit the virus is important for
developing and implementing control measures to break chains of transmission. While there is a
great deal of scientific studies becoming available, all studies that investigate transmission should be
interpreted bearing in mind the context and settings in which they took place, including the infection
prevention interventions in place, the rigor of the methods used in the investigation and the limitations
and biases of the study designs.
It is clear from available evidence and experience, that limiting close contact between infected people
and others is central to breaking chains of transmission of the virus causing COVID-19. The
prevention of transmission is best achieved by identifying suspect cases as quickly as possible,
testing, and isolating infectious cases. (88, 89) In addition, it is critical to identify all close contacts of
infected people (88) so that they can be quarantined (90) to limit onward spread and break chains of

R.A. 91

Case 1:20-cv-04844-NGG-CLP Document 20-6 Filed 10/13/20 Page 9 of 21 PagelD #: 466

transmission. By quarantining close contacts, potential secondary cases will already be separated
from others before they develop symptoms or they start shedding virus if they are infected, thus
preventing the opportunity for further onward spread. The incubation period of COVID-19, which is
the time between exposure to the virus and symptom onset, is on average 5-6 days, but can be as
long as 14 days. (82, 91) Thus, quarantine should be in place for 14 days from the last exposure to a
confirmed case. If it is not possible for a contact to quarantine in a separate living space, selfquarantine for 14 days at home is required; those in self-quarantine may require support during the
use of physical distancing measures to prevent the spread of the virus.
Given that infected people without symptoms can transmit the virus, it is also prudent to encourage
the use of fabric face masks in public places where there is community transmission[1] and where
other prevention measures, such as physical distancing, are not possible.(12) Fabric masks, if made
and worn properly, can serve as a barrier to droplets expelled from the wearer into the air and
environment.(12) However, masks must be used as part of a comprehensive package of preventive
measures, which includes frequent hand hygiene, physical distancing when possible, respiratory
etiquette, environmental cleaning and disinfection. Recommended precautions also include avoiding
indoor crowded gatherings as much as possible, in particular when physical distancing is not
feasible, and ensuring good environmental ventilation in any closed setting. (92, 93)
Within health care facilities, including long term care facilities, based on the evidence and the advice
by the COVID-19 IPC GDG, WHO continues to recommend droplet and contact precautions when
caring for COVID-19 patients and airborne precautions when and where aerosol generating
procedures are performed. WHO also recommends standard or transmission-based precautions for
other patients using an approach guided by risk assessment.(94) These recommendations are
consistent with other national and international guidelines, including those developed by the
European Society of Intensive Care Medicine and Society of Critical Care Medicine (95) and by the
Infectious Diseases Society of America. (96)
Furthermore, in areas with COVID-19 community transmission, WHO advises that health workers
and caregivers working in clinical areas should continuously wear a medical mask during all routine
activities throughout the entire shift.(12) In settings where aerosol-generating procedures are
performed, they should wear an N95, FFP2 or FFP3 respirator. Other countries and organizations,
including the United States Centers for Diseases Control and Prevention (97) and the European
Centre for Disease Prevention and Control (98) recommend airborne precautions for any situation
involving the care of COVID-19 patients. However, they also consider the use of medical masks as
an acceptable option in case of shortages of respirators.

R.A. 92

Case 1:20-cv-04844-NGG-CLP Document 20-6 Filed 10/13/20 Page 10 of 21 PagelD # : 467

WHO guidance also emphasizes the importance of administrative and engineering controls in health
care settings, as well as rational and appropriate use of all PPE (99) and training for staff on these
recommendations (IPC for Novel Coronavirus [COVID-19] Course. Geneva; World Health
Organization 2020, available at (https://openwho.org/courses/COVID-19-IPC-EN). WHO has also
provided guidance on safe workplaces. (92)

Key points of the brief
Main findings
 Understanding how, when and in what types of settings SARS-CoV-2 spreads between people is critical
to develop effective public health and infection prevention measures to break chains of transmission.
 Current evidence suggests that transmission of SARS-CoV-2 occurs primarily between people through
direct, indirect, or close contact with infected people through infected secretions such as saliva and
respiratory secretions, or through their respiratory droplets, which are expelled when an infected
person coughs, sneezes, talks or sings.
 Airborne transmission of the virus can occur in health care settings where specific medical procedures,
called aerosol generating procedures, generate very small droplets called aerosols. Some outbreak
reports related to indoor crowded spaces have suggested the possibility of aerosol transmission,
combined with droplet transmission, for example, during choir practice, in restaurants or in fitness
classes.
 Respiratory droplets from infected individuals can also land on objects, creating fomites (contaminated
surfaces). As environmental contamination has been documented by many reports, it is likely that
people can also be infected by touching these surfaces and touching their eyes, nose or mouth before
cleaning their hands.
 Based on what we currently know, transmission of COVID-19 is primarily occurring from people when
they have symptoms, and can also occur just before they develop symptoms, when they are in close
proximity to others for prolonged periods of time. While someone who never develops symptoms can
also pass the virus to others, it is still not clear to what extent this occurs and more research is needed
in this area.
 Urgent high-quality research is needed to elucidate the relative importance of different transmission
routes; the role of airborne transmission in the absence of aerosol generating procedures; the dose of
virus required for transmission to occur; the settings and risk factors for superspreading events; and the
extent of asymptomatic and pre-symptomatic transmission.

How to prevent transmission
The overarching aim of the Strategic Preparedness and Response Plan for COVID-19(1) is to control
COVID-19 by suppressing transmission of the virus and preventing associated illness and death. To
the best of our understanding, the virus is primarily spread through contact and respiratory droplets.
Under some circumstances airborne transmission may occur (such as when aerosol generating

R.A. 93

Case 1:20-cv-04844-NGG-CLP Document 20-6 Filed 10/13/20 Page 11 of 21 PagelD # : 468

procedures are conducted in health care settings or potentially, in indoor crowded poorly ventilated
settings elsewhere). More studies are urgently needed to investigate such instances and assess
their actual significance for transmission of COVID-19.
To prevent transmission, WHO recommends a comprehensive set of measures including:
 Identify suspect cases as quickly as possible, test, and isolate all cases (infected people) in appropriate
facilities;
 Identify and quarantine all close contacts of infected people and test those who develop symptoms so
that they can be isolated if they are infected and require care;
 Use fabric masks in specific situations, for example, in public places where there is community
transmission and where other prevention measures, such as physical distancing, are not possible;
 Use of contact and droplet precautions by health workers caring for suspected and confirmed COVID19 patients, and use of airborne precautions when aerosol generating procedures are performed;
 Continuous use of a medical mask by health workers and caregivers working in all clinical areas,
during all routine activities throughout the entire shift;
 At all times, practice frequent hand hygiene, physical distancing from others when possible, and
respiratory etiquette; avoid crowded places, close-contact settings and confined and enclosed spaces
with poor ventilation; wear fabric masks when in closed, overcrowded spaces to protect others; and
ensure good environmental ventilation in all closed settings and appropriate environmental cleaning
and disinfection.

WHO carefully monitors the emerging evidence about this critical topic and will update this scientific
brief as more information becomes available.
[1]Defined by WHO as experiencing larger outbreaks of local transmission defined through an
assessment of factors including, but not limited to: large numbers of cases not linkable to
transmission chains; large numbers of cases from sentinel surveillance; and/or multiple unrelated
clusters in several areas of the country/territory/area (https://www.who.int/publications-detail/globalsurveillance-for-covid-19-caused-by-human-infection-with-covid-19-virus-interim-guidance)

References
1. Operational planning guidance to support country preparedness and response. Geneva: World
Health Organization; 2020 (available at https://www.who.int/publications/i/item/draft-operationalplanning-guidance-for-un-country-teams).
2. Liu J, Liao X, Qian S, Yuan J, Wang F, Liu Y, et al. Community Transmission of Severe Acute
Respiratory Syndrome Coronavirus 2, Shenzhen, China, 2020. Emerg Infect Dis. 2020;26:1320-3.

R.A. 94

Case 1:20-cv-04844-NGG-CLP Document 20-6 Filed 10/13/20 Page 12 of 21 PagelD # : 469

3. Chan JF-W, Yuan S, Kok K-H, To KK-W, Chu H, Yang J, et al. A familial cluster of pneumonia
associated with the 2019 novel coronavirus indicating person-to-person transmission: a study of a
family cluster. Lancet. 2020;395 14-23.
4. Huang C, Wang Y, Li X, Ren L, Zhao J, Hu Y, et al. Clinical features of patients infected with 2019
novel coronavirus in Wuhan, China. Lancet. 2020;395:497-506.
5. Burke RM, Midgley CM, Dratch A, Fenstersheib M, Haupt T, Holshue M, et al. Active Monitoring of
Persons Exposed to Patients with Confirmed COVID-19  United States, JanuaryFebruary 2020.
MMWR Morb Mortal Wkly Rep. 2020;69(:245-6.
6. Report of the WHO-China Joint Mission on Coronavirus Disease 2019 (COVID-19) 16-24 February
2020. Geneva: World Health Organization; 2020 (available at https://www.who.int/docs/defaultsource/coronaviruse/who-china-joint-mission-on-covid-19-final-report.pdf).
7. Hamner L, Dubbel P, Capron I, Ross A, Jordan A, Lee J, et al. High SARS-CoV-2 Attack Rate
Following Exposure at a Choir Practice  Skagit County, Washington, March 2020. MMWR Morb
Mortal Wkly Rep. 2020;69:606-10.
8. Ghinai I, McPherson TD, Hunter JC, Kirking HL, Christiansen D, Joshi K, et al. First known personto-person transmission of severe acute respiratory syndrome coronavirus 2 (SARS-CoV-2) in the
USA. Lancet. 2020;395:1137-44.
9. Pung R, Chiew CJ, Young BE, Chin S, Chen MIC, Clapham HE, et al. Investigation of three
clusters of COVID-19 in Singapore: implications for surveillance and response measures. Lancet.
2020;395:1039-46.
10. Luo L, Liu D, Liao X, Wu X, Jing Q, Zheng J, et al. Modes of contact and risk of transmission in
COVID-19 among close contacts (pre-print). MedRxiv. 2020 doi:10.1101/2020.03.24.20042606.
11. Infection Prevention and Control of Epidemic-and Pandemic-prone Acute Respiratory Infections in
Health Care. Geneva: World Health Organization; 2014 (available at
https://apps.who.int/iris/bitstream/handle/10665/112656/9789241507134_eng.pdf;jsessionid=41AA684F
sequence=1).
12. Advice on the use of masks in the context of COVID-19. Interim guidance. Geneva: World Health
Organization; 2020 (available at https://www.who.int/publications/i/item/advice-on-the-use-of-masksin-the-community-during-home-care-and-in-healthcare-settings-in-the-context-of-the-novelcoronavirus-(2019-ncov)-outbreak).
13. Mittal R, Ni R, Seo J-H. The flow physics of COVID-19. J Fluid Mech. 2020;894.

R.A. 95

Case 1:20-cv-04844-NGG-CLP Document 20-6 Filed 10/13/20 Page 13 of 21 PagelD # : 470

14. Bourouiba L. Turbulent Gas Clouds and Respiratory Pathogen Emissions: Potential Implications
for Reducing Transmission of COVID-19. JAMA. 2020;323(18):1837-1838..
15. Asadi S, Bouvier N, Wexler AS, Ristenpart WD. The coronavirus pandemic and aerosols: Does
COVID-19 transmit via expiratory particles? Aerosol Sci Technol. 2020;54:635-8.
16. Morawska L, Cao J. Airborne transmission of SARS-CoV-2: The world should face the reality.
Environ Int. 2020;139:105730.
17. Gralton J Tovey TR, McLaws M-L, Rawlinson WD. Respiratory Virus RNA is detectable in
airborne and droplet particles. J Med Virol. 2013;85:2151-9.
18. Stadnytskyi V, Bax CE, Bax A, Anfinrud P. The airborne lifetime of small speech droplets and their
potential importance in SARS-CoV-2 transmission. Proc Ntl Acad Sci. 2020;117:11875-7.
19. Somsen GA, van Rijn C, Kooij S, Bem RA, Bonn D. Small droplet aerosols in poorly ventilated
spaces and SARS-CoV-2 transmission. Lancet Respir Med. 2020:S2213260020302459.
20. Asadi S, Wexler AS, Cappa CD, Barreda S, Bouvier NM, Ristenpart WD. Aerosol emission and
superemission during human speech increase with voice loudness. Sci Rep. 2019;9:2348.
21. Van Doremalen N, Bushmaker T, Morris DH, Holbrook MG, Gamble A, Williamson BN, et al.
Aerosol and surface stability of SARS-CoV-2 as compared with SARS-CoV-1. N Engl J Med.
2020;382:1564-7.
22. Fears AC, Klimstra WB, Duprex P, Weaver SC, Plante JA, Aguilar PV, et al. Persistence of
Severe Acute Respiratory Syndrome Coronavirus 2 in Aerosol Suspensions. Emerg Infect Dis
2020;26(9).
23. Chia PY, for the Singapore Novel Coronavirus Outbreak Research T, Coleman KK, Tan YK, Ong
SWX, Gum M, et al. Detection of air and surface contamination by SARS-CoV-2 in hospital rooms of
infected patients. Nat Comm. 2020;11(1).
24. Guo Z-D, Wang Z-Y, Zhang S-F, Li X, Li L, Li C, et al. Aerosol and Surface Distribution of Severe
Acute Respiratory Syndrome Coronavirus 2 in Hospital Wards, Wuhan, China, 2020. Emerg Infect
Dis. 2020;26(7).
25. Santarpia JL, Rivera DN, Herrera V, Morwitzer MJ, Creager H, Santarpia GW, et al. Transmission
potential of SARS-CoV-2 in viral shedding observed at the University of Nebraska Medical Center
(pre-print). MedRxiv. 2020 doi: 10.1101/2020.03.23.20039446.

R.A. 96

Case 1:20-cv-04844-NGG-CLP Document 20-6 Filed 10/13/20 Page 14 of 21 PagelD # : 471

26. Zhou J, Otter J, Price JR, Cimpeanu C, Garcia DM, Kinross J, et al. Investigating SARS-CoV-2
surface and air contamination in an acute healthcare setting during the peak of the COVID-19
pandemic in London (pre-print). MedRxiv. 2020 doi: 10.1101/2020.05.24.20110346.
27. Liu Y, Ning Z, Chen Y, Guo M, Liu Y, Gali NK, et al. Aerodynamic analysis of SARS-CoV-2 in two
Wuhan hospitals. Nature. 2020;582:557-60.
28. Ma J, Qi X, Chen H, Li X, Zhan Z, Wang H, et al. Exhaled breath is a significant source of SARSCoV-2 emission (pre-print). MedRxiv. 2020 doi: 10.1101/2020.05.31.20115154.
29. Faridi S, Niazi S, Sadeghi K, Naddafi K, Yavarian J, Shamsipour M, et al. A field indoor air
measurement of SARS-CoV-2 in the patient rooms of the largest hospital in Iran. Sci Total Environ.
2020;725:138401.
30. Cheng VC-C, Wong S-C, Chan VW-M, So SY-C, Chen JH-K, Yip CC-Y, et al. Air and
environmental sampling for SARS-CoV-2 around hospitalized patients with coronavirus disease 2019
(COVID-19). Infect Control Hosp Epidemiol. 2020:1-32.
31. Ong SWX, Tan YK, Chia PY, Lee TH, Ng OT, Wong MSY, et al. Air, Surface Environmental, and
Personal Protective Equipment Contamination by Severe Acute Respiratory Syndrome Coronavirus 2
(SARS-CoV-2) From a Symptomatic Patient. JAMA. 2020 323(16):1610-1612.
32. Taskforce for the COVID-19 Cruise Ship Outbreak, Yamagishi T. Environmental sampling for
severe acute respiratory syndrome coronavirus 2 (SARS-CoV-2) during a coronavirus disease
(COVID-19) outbreak aboard a commercial cruise ship (pre-print). MedRxiv. 2020.
33. Döhla M, Wilbring G, Schulte B, Kümmerer BM, Diegmann C, Sib E, et al. SARS-CoV-2 in
environmental samples of quarantined households (pre-print). MedRxiv. 2020 doi:
10.1101/2020.05.02.20088567.
34. Wu S, Wang Y, Jin X, Tian J, Liu J, Mao Y. Environmental contamination by SARS-CoV-2 in a
designated hospital for coronavirus disease 2019. Am J Infect Control. 2020;S0196-6553(20)302753.
35. Ding Z, Qian H, Xu B, Huang Y, Miao T, Yen H-L, et al. Toilets dominate environmental detection
of SARS-CoV-2 virus in a hospital (pre-print). MedRxiv. 2020 doi: 10.1101/2020.04.03.20052175.
36. Cheng VCC, Wong SC, Chen JHK, Yip CCY, Chuang VWM, Tsang OTY, et al. Escalating
infection control response to the rapidly evolving epidemiology of the coronavirus disease 2019
(COVID-19) due to SARS-CoV-2 in Hong Kong. Infect Control Hosp Epidemiol. 2020;41:493-8.

R.A. 97

Case 1:20-cv-04844-NGG-CLP Document 20-6 Filed 10/13/20 Page 15 of 21 PagelD # : 472

37. Bullard J, Dust K, Funk D, Strong JE, Alexander D, Garnett L, et al. Predicting infectious SARSCoV-2 from diagnostic samples. Clin Infect Dis. 2020:ciaa638.
38. Durante-Mangoni E, Andini R, Bertolino L, Mele F, Bernardo M, Grimaldi M, et al. Low rate of
severe acute respiratory syndrome coronavirus 2 spread among health-care personnel using
ordinary personal protection equipment in a medium-incidence setting. Clin Microbiol Infect.
2020:S1198743X20302706.
39. Wong SCY, Kwong RTS, Wu TC, Chan JWM, Chu MY, Lee SY, et al. Risk of nosocomial
transmission of coronavirus disease 2019: an experience in a general ward setting in Hong Kong. J
Hosp Infect. 2020;105(2):119-27.
40. Leclerc QJ, Fuller NM, Knight LE, Funk S, Knight GM, Group CC-W. What settings have been
linked to SARS-CoV-2 transmission clusters? Wellcome Open Res. 2020;5(83):83.
41. Lu J, Gu J, Li K, Xu C, Su W, Lai Z, et al. Early Release-COVID-19 Outbreak Associated with Air
Conditioning in Restaurant, Guangzhou, China, 2020. Emerg Infect Dis. 2020;26(7):1628-1631.
42. Jang S, Han SH, Rhee J-Y. Cluster of Coronavirus Disease Associated with Fitness Dance
Classes, South Korea. Emerg Infect Dis. 2020;26(8).
43. Adam D, Wu P, Wong J, Lau E, Tsang T, Cauchemez S, et al. Clustering and superspreading
potential of severe acute respiratory syndrome coronavirus 2 (SARS-CoV-2) infections in Hong Kong
(pre-print). Research Square. 2020. doi: 10.21203/rs.3.rs-29548/v1
44. Matson MJ, Yinda CK, Seifert SN, Bushmaker T, Fischer RJ, van Doremalen N, et al. Effect of
Environmental Conditions on SARS-CoV-2 Stability in Human Nasal Mucus and Sputum. Emerg
Infect Dis. 2020;26(9).
45. Pastorino B, Touret F, Gilles M, de Lamballerie X, Charrel RN. Prolonged Infectivity of SARSCoV-2 in Fomites. Emerg Infect Dis. 2020;26(9).
46. Guan WJ, Ni ZY, Hu Y, Liang WH, Ou CQ, He JX, et al. Clinical Characteristics of Coronavirus
Disease 2019 in China. New Engl J Med. 2020;382:1708-1720.
47. Pan Y, Zhang D, Yang P, Poon LLM, Wang Q. Viral load of SARS-CoV-2 in clinical samples.
Lancet Infect Dis. 2020;20(4):411-2.
48. Wang W, Xu Y, Gao R, Lu R, Han K, Wu G, et al. Detection of SARS-CoV-2 in Different Types of
Clinical Specimens. JAMA. 2020;323(18):1843-1844.
49. Wu Y, Guo C, Tang L, Hong Z, Zhou J, Dong X, et al. Prolonged presence of SARS-CoV-2 viral

R.A. 98

Case 1:20-cv-04844-NGG-CLP Document 20-6 Filed 10/13/20 Page 16 of 21 PagelD # : 473

RNA in faecal samples. Lancet Gastroenterol Hepatol. 2020;5(5):434-5.
50. Zheng S, Fan J, Yu F, Feng B, Lou B, Zou Q, et al. Viral load dynamics and disease severity in
patients infected with SARS-CoV-2 in Zhejiang province, China, January-March 2020: retrospective
cohort study. BMJ. 2020:m1443.
51. Sun J, Zhu A, Li H, Zheng K, Zhuang Z, Chen Z, et al. Isolation of infectious SARS-CoV-2 from
urine of a COVID-19 patient. Emerg Microbes Infect. 2020;9:991-3.
52. Xiao F, Sun J, Xu Y, Li F, Huang X, Li H, et al. Infectious SARS-CoV-2 in Feces of Patient with
Severe COVID-19. Emerg Infect Dis. 2020;26(8).
53. Zhang Y, Chen C, Zhu S, Shu C, Wang D, Song J, et al. Isolation of 2019-nCoV from a stool
specimen of a laboratory-confirmed case of the coronavirus disease 2019 (COVID-19). China CDC
Weekly. 2020;2:123-4.
54. Chang L, Zhao L, Gong H, Wang L, Wang L. Severe Acute Respiratory Syndrome Coronavirus 2
RNA Detected in Blood Donations. Emerg Infect Dis. 2020;26:1631-3.
55. Breastfeeding and COVID-19. Geneva: World Health Organization; 2020 (avaialble at
https://www.who.int/news-room/commentaries/detail/breastfeeding-and-covid-19).
56. Andersen KG, Rambaut A, Lipkin WI, Holmes EC, Garry RF. The proximal origin of SARS-CoV-2.
Nat Med. 2020;26(4):450-2.
57. Zhou P, Yang X-L, Wang X-G, Hu B, Zhang L, Zhang W, et al. A pneumonia outbreak associated
with a new coronavirus of probable bat origin. Nature. 2020;579(7798):270-3.
58. Sit TH, Brackman CJ, Ip SM, Tam KW, Law PY, To EM, et al. Infection of dogs with SARS-CoV-2.
Nature. 2020:1-6.
59. Newman A. First Reported Cases of SARS-CoV-2 Infection in Companion AnimalsNew York,
MarchApril 2020. MMWR Morbid Mortal Wkly Rep. 2020; 69(23):710713.
60. Oreshkova N, Molenaar R-J, Vreman S, Harders F, Munnink BBO, Honing RWH-v, et al. SARSCoV2 infection in farmed mink, Netherlands, April 2020 (pre-print). BioRxiv. 2020 doi:
10.1101/2020.05.18.101493.
61. Criteria for releasing COVID-19 patients from isolation Geneva: World Health Organization; 2020
(available at https://www.who.int/news-room/commentaries/detail/criteria-for-releasing-covid-19patients-from-isolation )

R.A. 99

Case 1:20-cv-04844-NGG-CLP Document 20-6 Filed 10/13/20 Page 17 of 21 PagelD # : 474

62. He X, Lau EH, Wu P, Deng X, Wang J, Hao X, et al. Temporal dynamics in viral shedding and
transmissibility of COVID-19. Nat Med. 2020;26(5):672-5.
63. Zou L, Ruan F, Huang M, Liang L, Huang H, Hong Z, et al. SARS-CoV-2 viral load in upper
respiratory specimens of infected patients. New Engl J Med. 2020;382(12):1177-9.
64. To KK-W, Tsang OT-Y, Leung W-S, Tam AR, Wu T-C, Lung DC, et al. Temporal profiles of viral
load in posterior oropharyngeal saliva samples and serum antibody responses during infection by
SARS-CoV-2: an observational cohort study. Lancet Infect Dis. 2020;20(5):P565-74.
65. Wölfel R, Corman VM, Guggemos W, Seilmaier M, Zange S, Müller MA, et al. Virological
assessment of hospitalized patients with COVID-2019. Nature. 2020;581(7809):465-9.
66. Zhou R, Li F, Chen F, Liu H, Zheng J, Lei C, et al. Viral dynamics in asymptomatic patients with
COVID-19. Int J Infect Dis. 2020;96:288-90.
67. Xu K, Chen Y, Yuan J, Yi P, Ding C, Wu W, et al. Factors associated with prolonged viral RNA
shedding in patients with COVID-19. Clin Infect Dis. 2020;ciaa351.
68. Qi L, Yang Y, Jiang D, Tu C, Wan L, Chen X, et al. Factors associated with duration of viral
shedding in adults with COVID-19 outside of Wuhan, China: A retrospective cohort study. Int J Infect
Dis. 2020;10.1016/j.ijid.2020.05.045.
69. Arons MM, Hatfield KM, Reddy SC, Kimball A, James A, Jacobs JR, et al. Presymptomatic SARSCoV-2 Infections and Transmission in a Skilled Nursing Facility. New Engl J Med. 2020;382(22):208190.
70. COVID-19 National Emergency Response Center, Epidemiology and Case Management Team,
Korea Centers for Disease Control and Prevention. Coronavirus Disease-19: Summary of 2,370
Contact Investigations of the First 30 Cases in the Republic of Korea. Osong Public Health Research
Perspectives. 2020;11:81-4.
71. James A, Eagle L, Phillips C, Hedges DS, Bodenhamer C, Brown R, et al. High COVID-19 Attack
Rate Among Attendees at Events at a Church - Arkansas, March 2020. MMWR Morb Mortal Wkly
Rep. 2020;69:632-5.
72. Park SY, Kim Y-M, Yi S, Lee S, Na B-J, Kim CB, et al. Coronavirus Disease Outbreak in Call
Center, South Korea. Emerg Infect Dis. 2020;26(8).
73. Wei WE, Li Z, Chiew CJ, Yong SE, Toh MP, Lee VJ. Presymptomatic Transmission of SARS-CoV2 - Singapore, January 23-March 16, 2020. MMWR Morb Mortal Wkly Rep. 2020;69(14):411-5.

R.A. 100

Case 1:20-cv-04844-NGG-CLP Document 20-6 Filed 10/13/20 Page 18 of 21 PagelD # : 475

74. Qian G, Yang N, Ma AHY, Wang L, Li G, Chen X, et al. COVID-19 Transmission Within a Family
Cluster by Presymptomatic Carriers in China. Clin Infect Dis. 2020;ciaa316.
75. WHO Coronavirus disease 2019 (COVID-19) Situation Report-73. Geneva: World Health
Organization; 2020 (available at https://apps.who.int/iris/handle/10665/331686).
76. Davies N, Klepac P, Liu Y, Prem K, Jit M, CCMID COVID-19 Working Group, et al. Agedependent effects in the transmission and control of COVID-19 epidemics. Nat Med. 2020;
10.1038/s41591-020-0962-9.
77. Kimball A, Hatfield KM, Arons M, James A, Taylor J, Spicer K, et al. Asymptomatic and
presymptomatic SARS-CoV-2 infections in residents of a long-term care skilled nursing facilityKing
County, Washington, March 2020. MMWR Surveill Summ. 2020;69(13):377.
78. Wang Y, Liu Y, Liu L, Wang X, Luo N, Ling L. Clinical outcome of 55 asymptomatic cases at the
time of hospital admission infected with SARS-Coronavirus-2 in Shenzhen, China. J Infect Dis.
2020;221(11):1770-1774..
79. Byambasuren O, Cardona M, Bell K, Clark J, McLaws M-L, Glasziou P. Estimating the Extent of
True Asymptomatic COVID-19 and Its Potential for Community Transmission: Systematic Review and
Meta-Analysis (pre-print). MedRxiv. 2020 doi: 10.1101/2020.05.10.20097543.
80. Sakurai A, Sasaki T, Kato S, Hayashi M, Tsuzuki S-I, Ishihara T, et al. Natural history of
asymptomatic SARS-CoV-2 infection. N Engl J Med. 2020;10.1056/NEJMc2013020.
81. Wang Y, Tong J, Qin Y, Xie T, Li J, Li J, et al. Characterization of an asymptomatic cohort of
SARS-COV-2 infected individuals outside of Wuhan, China. Clin Infect Dis. 2020;ciaa629.
82. Yu P, Zhu J, Zhang Z, Han Y. A Familial Cluster of Infection Associated With the 2019 Novel
Coronavirus Indicating Possible Person-to-Person Transmission During the Incubation Period. J
Infect Dis. 2020;221(11):1757-61.
83. Tong Z-D, Tang A, Li K-F, Li P, Wang H-L, Yi J-P, et al. Potential Presymptomatic Transmission of
SARS-CoV-2, Zhejiang Province, China, 2020. Emerg Infect Dis. 2020;26(5):1052-4.
84. Koh WC, Naing L, Rosledzana MA, Alikhan MF, Chaw L, Griffith M ea. What do we know about
SARS-CoV-2 transmission? A systematic review and meta-analysis of the secondary attack rate,
serial interval, and asymptomatic infection (pre-print). MedRxiv 2020 doi:
10.1101/2020.05.21.20108746.

R.A. 101

Case 1:20-cv-04844-NGG-CLP Document 20-6 Filed 10/13/20 Page 19 of 21 PagelD # : 476

85. Heneghan C, E S, Jefferson T. A systematic review of SARS-CoV-2 transmission Oxford, UK: The
Centre for Evidence-Based Medicine; 2020 (available at https://www.cebm.net/study/covid-19-asystematic-review-of-sars-cov-2-transmission/)
86. Cheng H-Y, Jian S-W, Liu D-P, Ng T-C, Huang W-T, Lin H-H, et al. Contact Tracing Assessment of
COVID-19 Transmission Dynamics in Taiwan and Risk at Different Exposure Periods Before and
After Symptom Onset. JAMA Intern Med. 2020;e202020.
87. Chaw L, Koh WC, Jamaludin SA, Naing L, Alikhan MF, Wong J. SARS-CoV-2 transmission in
different settings: Analysis of cases and close contacts from the Tablighi cluster in Brunei Darussalam
(pre-print). MedRxiv. 2020 doi: 10.1101/2020.05.04.20090043.
88. Considerations in the investigation of cases and clusters of COVID-19: interim guidance, 2 April
2020. Geneva: World Health Organization; 2020 (available at
https://www.who.int/publications/i/item/considerations-in-the-investigation-of-cases-and-clusters-ofcovid-19).
89. Global surveillance for COVID-19 caused by human infection with COVID-19 virus: interim
guidance, 20 March 2020. Geneva: World Health Organization; 2020 (available at
https://www.who.int/publications/i/item/global-surveillance-for-covid-19-caused-by-human-infectionwith-covid-19-virus-interim-guidance).
90. Considerations for quarantine of individuals in the context of containment for coronavirus disease
(COVID-19): interim guidance, 19 March 2020. Geneva: World Health Organization; 2020 (available
at https://www.who.int/publications/i/item/considerations-for-quarantine-of-individuals-in-the-contextof-containment-for-coronavirus-disease-(covid-19)).
91. Lauer SA, Grantz KH, Bi Q, Jones FK, Zheng Q, Meredith HR, et al. The Incubation Period of
Coronavirus Disease 2019 (COVID-19) From Publicly Reported Confirmed Cases: Estimation and
Application. Ann Int Med. 2020;172:577-82.
92. Considerations for public health and social measures in the workplace in the context of COVID19: annex to considerations in adjusting public health and social measures in the context of COVID19, 10 May 2020. Geneva: World Health Organization; 2020 (available at
https://www.who.int/publications/i/item/considerations-for-public-health-and-social-measures-in-theworkplace-in-the-context-of-covid-19).
93. Key planning recommendations for mass gatherings in the context of the current COVID-19
outbreak: interim guidance, 29 May 2020. Geneva: World Health Organization; 2020 (available at
https://www.who.int/publications/i/item/10665-332235 ).

R.A. 102

Case 1:20-cv-04844-NGG-CLP Document 20-6 Filed 10/13/20 Page 20 of 21 PagelD # : 477

94. Infection prevention and control during health care when COVID-19 is suspected: interim
guidance, 29 June 2020. Geneva: World Health Organization; 2020 (available at
https://www.who.int/publications/i/item/WHO-2019-nCoV-IPC-2020.4).
95. Alhazzani W, Møller MH, Arabi YM, Loeb M, Gong MN, Fan E, et al. Surviving Sepsis Campaign:
Guidelines on the Management of Critically Ill Adults with Coronavirus Disease 2019 (COVID-19). Crit
Care Med. 2020;48(6):e440-e69.
96. Lynch JB, Davitkov P, Anderson DJ, Bhimraj A, Cheng VC-C, Guzman-Cottrill J, et al. Infectious
Diseases Society of America Guidelines on Infection Prevention for Health Care Personnel Caring for
Patients with Suspected or Known COVID-19. J Glob Health Sci. 2020.
97. United States Centers for Disease Control and Prevention. Interim infection prevention and
control recommendations for patients with suspected or confirmed coronavirus disease 2019
(COVID-19) in healthcare settings. Coronavirus Disease 2019 (COVID-19). 2020 (available at
https://www.cdc.gov/coronavirus/2019-ncov/hcp/infection-control-recommendations.html).
98. European Centre for Disease Prevention and Control. Infection prevention and control and
preparedness for COVID-19 in healthcare settings - fourth update. 2020 (available at .
https://www.ecdc.europa.eu/sites/default/files/documents/Infection-prevention-and-control-inhealthcare-settings-COVID-19_4th_update.pdf).
99. Rational use of personal protective equipment for coronavirus disease (COVID-19): interim
guidance, 6 April 2020. Geneva: World Health Organization; 2020 (available at
https://www.who.int/publications/i/item/rational-use-of-personal-protective-equipment-for-coronavirusdisease-(covid-19)-and-considerations-during-severe-shortages).

WHO continues to monitor the situation closely for any changes that may affect this scientific brief.
Should any factors change, WHO will issue a further update. Otherwise, this scientific brief document
will expire 2 years after the date of publication.

Want to read more?
Subscribe to newsletter

R.A. 103

Case 1:20-cv-04844-NGG-CLP Document 20-6 Filed 10/13/20 Page 21 of 21 PagelD # : 478

R.A. 104

Case 1:20-cv-04844-NGG-CLP D0Clllm1illllio!Oifiln1.i.ilti&rle.lie'ilh001cli\iage 1 of 4 PagelD #: 479

7/29/2020

~

~.,-~ Centers for Disease
Control and Prevention

'!i !lt'j

1VU~.

Coronavirus Disease 2019 (COVID-19)

IMHM

Cleaning and Disinfection for Households
Detailed Disinfection Guidance
Interim Recommendations for U.S. Households with Suspected or Confirmed Coronavirus Disease 2019
(COVID-19)
Updated July 10, 2020

Print

Summary of Recent Changes
Revisions were made on 3/26/2020 to reflect the following:
• Updated links to EPA-registered disinfectant list
• Added guidance for disinfection of electronics
• Updated core disinfection/cleaning guidance

Background
There is much to learn about the novel coronavirus (SARS-CoV-2) that causes coronavirus disease 2019 (COVID-19). Based on
what is currently known about COVID-19, spread from person-to-person of this virus happens most frequently among close
contacts (within about 6 feet). This type of transmission occurs via respiratory droplets. On the other hand, transmission of
novel coronavirus to persons from surfaces contaminated with the virus has not been documented. Recent studies indicate
that people who are infected but do not have symptoms likely also play a role in the spread of COVID-19. Transmission of
coronavirus occurs much more commonly through respiratory droplets than through objects and surfaces, like doorknobs,
countertops, keyboards, toys, etc. Current evidence suggests that SARS-CoV-2 may remain viable for hours to days on
surfaces made from a variety of materials. Cleaning of visibly dirty surfaces followed by disinfection is a best practice measure
for prevention of COVID-19 and other viral respiratory illnesses in households and community settings.
It is unknown how long the air inside a room occupied by someone with confirmed COVID-19 remains potentially infectious.
Facilities will need to consider factors such as the size of the room and the ventilation system design (including flowrate [air
changes per hour] and location of supply and exhaust vents) when deciding how long to close off rooms or areas used by ill
persons before beginning disinfection. Taking measures to improve ventilation in an area or room where someone was ill or
suspected to be ill with COVID-19 will help shorten the time it takes respiratory droplets to be removed from the air.

Purpose
This guidance provides recommendations on the cleaning and disinfection of households where persons under investigation
(PUI) or those with confirmed COVID-19 reside or may be in self- isolation. It is aimed at limiting the survival of the virus in the
environments. These recommendations will be updated if additional information becomes available.
These guidelines are focused on household settings and are meant for the general public.

• Cleaning refers to the removal of germs, dirt, and impurities from surfaces. It does not kill germs, but by removing them,
it lowers their numbers and the risk of spreading infection.

• Disinfecting refers to using chemicals, for example, EPA-registered disinfectants, to kill germs on surfaces. This process
does not necessarily clean dirty surfaces or remove germs, but by killing germs on a surface after cleaning, it can further
lower the risk of spreading infection.

1/4

https://www.cdc.gov/coronavirus/2019-ncov/prevent..getting..sick/cleaning..disinfection.html

R.A. 105

7/29/2020

Case 1:20-cv-04844-NGG-CLP D0Clllm1illllio!Oifiln1.i.ilti&rle.lie'ilh001cli\iage 2 of 4 PagelD #: 480

General recommendations for routine cleaning and
disinfection of households
• Community members can practice routine cleaning of frequently touched surfaces {for example: tables, doorknobs, light
switches, handles, desks, toilets, faucets, sinks, and electronics {see below for special electronics cleaning and
disinfection instructions)) with household cleaners and EPA-registered disinfectants B that are appropriate for the
surface, following label instructions. Labels conta in instructions for safe and effective use of the cleaning product
including precautions you should take when applying the product, such as wearing gloves and making sure you have
good ventilation during use of the product.
o For electronics follow the manufacturer's instructions for all cleaning and disinfection products. Consider use of
wipeable covers for electronics. If no manufacturer guidance is available, consider the use of alcohol-based wipes
or spray containing at least 70% alcohol to disinfect touch screens. Dry surfaces thoroughly to avoid pooling of
liquids.

General recommendations for cleaning and disinfection of
households with people isolated in home care (e.g.
suspected/confirmed to have COVID-19)
• Household members should educate themselves about COVID-19 symptoms and preventing the spread of COVID-19 in
homes.

• Clean and disinfect high-touch surfaces daily in household common areas (e.g. tables, hard-backed chairs, doorknobs,
light switches, phones, tablets, touch screens, remote controls, keyboards, handles, desks, toilets, sinks)
o In the bedroom/bathroom dedicated for an ill person: consider reducing cleaning frequency to as-needed {e.g.,
soiled items and surfaces) to avoid unnecessary contact with the ill person.
• As much as possible, an ill person should stay in a specific room and away from other people in their home, following

home care guidance.
• The caregiver can provide personal cleaning supplies for an ill person's room and bathroom, unless the room is occupied
by child or another person for whom such supplies would not be appropriate. These supplies include tissues, paper
towels, cleaners and EPA-registered disinfectants {see examples B ).
• If a separate bathroom is not available, the bathroom should be cleaned and disinfected after each use by an ill person.
If this is not possible, the caregiver should wait as long as practical after use by an ill person to clean and disinfect the
high-touch surfaces.
• Household members should follow home care guidance when interacting with persons with suspected/confirmed
COVID-19 and their isolation rooms/bathrooms.

How to clean and disinfect
Hard (Non-porous) Surfaces
• Wear disposable gloves when cleaning and disinfecting surfaces. Gloves should be discarded after each cleaning. If
reusable gloves are used, those gloves should be dedicated for cleaning and disinfection of surfaces for COVID-19 and
should not be used for other purposes. Consult the manufacturer's instructions for cleaning and disinfection products
used. Clean hands immediately after gloves are removed.
• If surfaces are dirty, they should be cleaned using a detergent or soap and water prior to disinfection.
• For disinfection, most common EPA-registered household disinfectants should be effective.
o A list of products that are EPA-approved for use against the virus that causes COVID-19 is available here B . Follow
manufacturer's instructions for all cleaning and disinfection products for {concentration, application method and
contact time, etc.)

Always read and follow the directions on the label to ensure safe and effective use.
• Wear skin protection and consider eye protection for potential splash hazards
2/4

https://www.cdc.gov/coronavirus/2019-ncov/prevent..getting..sick/cleaning..disinfection.html

R.A. 106

Case 1:20-cv-04844-NGG-CLP D0Clllm1illllio!Oifiln1.i.ilti&rle.lie'ilh001cli\iage 3 of 4 PagelD # : 481

7/29/2020

• Ensure adequate ventilation
• Use no more than the amount recommended on the label
• Use water at room temperature for dilution (unless stated otherwise on the label)
• Avoid mixing chemical products
• Label diluted cleaning solutions
• Store and use chemicals out of the reach of children and pets
You should never eat, drink, breathe or inject these products into your body or apply directly to your skin as they can
cause serious harm. Do not wipe or bathe pets with these products or any other products that are not approved for
animal use.
See EPA's 6 steps for Safe and Effective Disinfectant Use B
Special considerations should be made for people with asthma and they should not be present when cleaning and
disinfecting is happening as this can trigger asthma exacerbations. To learn more about reducing asthma triggers:
https:/ /www.cdc.gov/asthma/reduce_triggers.html
o Additionally, diluted household bleach solutions (at least 1000ppm sodium hypochlorite, or concentration of 5%-

6%) can be used if appropriate for the surface. Follow manufacturer's instructions for application, ensuring a
contact time of at least 1 minute, and allowing proper ventilation during and after application. Check to ensure the
product is not past its expiration date. Never mix household bleach with ammonia or any other cleanser. Unexpired
household bleach will be effective against coronaviruses when properly diluted.
• Prepare a bleach solution by mixing:
o 5 tablespoons (113 rd cup) bleach per gallon of room temperature water or
o 4 teaspoons bleach per quart of room temperature water

• Bleach solutions will be effective for disinfection up to 24 hours.

Soft (Porous) Surfaces
• For soft (porous) surfaces such as carpeted floor, rugs, and drapes, remove visible contamination if present and clean
with appropriate cleaners indicated for use on these surfaces. After cleaning:
o Launder items as appropriate in accordance with the manufacturer's instructions. If possible, launder items using
the warmest appropriate water setting for the items and dry items completely.
• Otherwise, use products that are EPA-approved for use against the virus that causes COVID-19 B and that
are suitable for porous surfaces.

Electronics
• For electronics such as cell phones, tablets, touch screens, remote controls, and keyboards, remove visible
contamination if present.
o Follow the manufacturer's instructions for all cleaning and disinfection products.
o Consider use of wipeable covers for electronics.

o If no manufacturer guidance is available, consider the use of alcohol-based wipes or sprays containing at least 70%

alcohol to disinfect touch screens. Dry surfaces thoroughly to avoid pooling of liquids.

Linens, clothing, and other items that go in the laundry
• Wear disposable gloves when handling dirty laundry from an ill person and then discard after each use. If using reusable
gloves, those gloves should be dedicated for cleaning and disinfection of surfaces for COVID-19 and should not be used
for other household purposes. Clean hands immediately after gloves are removed .
o If no gloves are used when handling dirty laundry, be sure to wash hands afterwards.
o If possible, do not shake dirty laundry. This will minimize the possibility of dispersing virus through the air.
o Launder items as appropriate in accordance with the manufacturer's instructions. If possible, launder items using

the warmest appropriate water setting for the items and dry items completely. Dirty laundry from an ill person can
....... .. .................. ... ;................... ....... ....... ... , ... , __ :+ ........... ...

314

https://www.cdc.gov/coronavirus/2019-ncov/prevent..getting..sick/cleaning..disinfection.html

R.A. 107

Case 1:20-cv-04844-NGG-CLP D0Clllm1illllio!Oifiln1.i.ilti&rle.lie'ilh001cli\iage 4 of 4 PagelD #: 482

7/29/2020

U~ VVd::>l l~U VVlll I Ull 1~1 J,J~UIJI~::, ll~I I I!>.

o Clean and disinfect clothes hampers according to guidance above for surfaces. If possible, consider placing a bag

liner that is either disposable (can be thrown away) or can be laundered.

Hand hygiene and other preventive measures
• Household members should clean hands often, including immediately after removing gloves and after contact with an ill
person, by washing hands with soap and water for 20 seconds. If soap and water are not available and hands are not
visibly dirty, an alcohol-based hand sanitizer that contains at least 60% alcohol may be used. However, if hands are
visibly dirty, always wash hands with soap and water.

Always read and follow the directions on the label to ensure safe and effective use.
• Keep hand sanitizers away from fire or flame
• For children under six years of age, hand sanitizer should be used with adult supervision
• Always store hand sanitizer out of reach of children and pets
See FDA's Tips for Safe Sanitizer Use~ and CDC's Hand Sanitizer Use Considerations
• Household members should follow normal preventive actions while at work and home including recommended hand
hygiene and avoiding touching eyes, nose, or mouth with unwashed hands.
o Additional key times to clean hands include:
• After blowing one's nose, coughing, or sneezing
• After using the restroom
•

Before eating or preparing food

• After contact with animals or pets
•

Before and after providing routine care for another person who needs assistance (e.g. a child)

Other considerations
• The ill person should eat/be fed in their room if possible. Non-disposable food service items used should be handled
with gloves and washed with hot water or in a dishwasher. Clean hands after handling used food service items.
• If possible, dedicate a lined trash can for the ill person. Use gloves when removing garbage bags, handling, and disposing
of trash. Wash hands after handling or disposing of trash.
• Consider consulting with your local health department about trash disposal guidance if available.

More Information
OSHA COVID-19 Website

CDC Home Care Guidance for People with Pets

CDC Home Care Guidance

Last Updated July 10, 2020

4/4

https://www.cdc.gov/coronavirus/2019-ncov/prevent..getting..sick/cleaning..disinfection.html

R.A. 108

Case 1:2O-cv-O4844-NGG-CLP DOCUSlllilfflbiiilahdilig, lii~tihQ/tixll,ljj),1;01?age 1 of 2 PagelD #: 483

7/30/2020

~

~.,-~ Centers for Disease
Control and Prevention

'!i !lt'j

1VU~.

Coronavirus Disease 2019 (COVID-19)

IMHM

Social Distancing
Social Distancing
Keep a Safe Distance to Slow the Spread.
Updated July 15, 2020

Print

Limiting close face-to-face contact with others is the best way to reduce the spread of coronavirus disease 2019 (COVID-19).

What is social distancing?
Social distancing, also called "physical distancing," means keeping a safe space between yourself and other people who are
not from your household.
To practice social or physical distancing, stay at least 6 feet (about 2 arms' length) from other people who are not from your
household in both indoor and outdoor spaces.
Social distancing should be practiced in combination with other everyday preventive actions to reduce the spread of COVID19, including wearing cloth face coverings, avoiding touching your face with unwashed hands, and frequently washing your
hands with soap and water for at least 20 seconds.

Why practice social distancing?
COVID-19 spreads mainly among people who are in close contact (within about 6 feet) for a prolonged period. Spread
happens when an infected person coughs, sneezes, or talks, and droplets from their mouth or nose are launched into the air
and land in the mouths or noses of people nearby. The droplets can also be inhaled into the lungs. Recent studies indicate
that people who are infected but do not have symptoms likely also play a role in the spread of COVID-19. Since people can
spread the virus before they know they are sick, it is important to stay at least 6 feet away from others when possible, even if
you-or they-do not have any symptoms. Social distancing is especially important for people who are at higher risk for
severe illness from COVID-19.
If you are sick with COVID-19, have symptoms consistent with COVID-19, or have been in close contact with someone who has
COVID-19, it is important to stay home and away from other people until it is safe to be around others.
COVID-19 can live for hours or days on a surface, depending on factors such as sunlight, humidity, and the type of surface. It
may be possible that a person can get COVID-19 by touching a surface or object that has the virus on it and then touching
their own mouth, nose, or eyes. However, this is not thought to be the main way the virus spreads. Social distancing helps
limit opportunities to come in contact with contaminated surfaces and infected people outside the home.
Although the risk of severe illness may be different for everyone, anyone can get and spread COVID-19. Everyone has a role to
play in slowing the spread and protecting themselves, their family, and their community. In addition to practicing everyday
steps to prevent COVID-19, keeping space between you and others is one of the best tools we have to avoid being exposed to
this virus and slowing its spread in communities.

Tips for Social Distancing
When going out in public, it is important to stay at least 6 feet away from other people and wear a cloth face covering to slow
the spread of COVID-19. Consider the following tips for practicing social distancing when you decide to go out.

• Know Before You Go: Before going out, know and follow the guidance from local public health authorities where you live.
https://www.cdc.gov/coronavirus/2019-ncov/prevent..getting.sick/sociaklistancing.html

1/2

R.A. 109

7/30/2020

Case 1:20-cv-04844-NGG-CLP DOCUSlllilfflbiiilahdilig, lii~tihQ/tixll,ljj),1;01?age 2 of 2 PagelD #: 484

• Prepare for Transportation: Consider social distancing options to travel safely when running errands or commuting to
and from work, whether walking, bicycling, wheelchair rolling, or using public transit, rideshares, or taxis. When using
public transit, try to keep at least 6 feet from other passengers or transit operators - for example, when you are waiting
at a bus station or selecting seats on a bus or train. When using rideshares or taxis, avoid pooled rides where multiple
passengers are picked up, and sit in the back seat in larger vehicles so you can remain at least 6 feet away from the
driver. Follow these additional tips to protect yourself while using transportation.

• Limit Contact When Running Errands: Only visit stores selling household essentials in person when you absolutely need
to, and stay at least 6 feet away from others who are not from your household while shopping and in lines. If possible,
use drive-thru, curbside pick-up, or delivery services to limit face-to-face contact with others. Maintain physical distance
between yourself and delivery service providers during exchanges and wear a cloth face covering.

• Choose Safe Social Activities:lt is possible to stay socially connected with friends and family who don't live in your home
by calling, using video chat, or staying connected through social media. If meeting others in person (e.g., at small outdoor
gatherings, yard or driveway gathering with a small group of friends or family members), stay at least 6 feet from others
who are not from your household. Follow these steps to stay safe if you will be participating in personal and social
activities outside of your home.

• Keep Distance at Events and Gatherings: It is safest to avoid crowded places and gatherings where it may be difficult to
stay at least 6 feet away from others who are not from your household. If you are in a crowded space, try to keep 6 feet
of space between yourself and others at all times, and wear a cloth face covering. Cloth face coverings are especially
important in times when physical distancing is difficult. Pay attention to any physical guides, such as tape markings on
floors or signs on walls, directing attendees to remain at least 6 feet apart from each other in lines or at other times.
Allow other people 6 feet of space when you pass by them in both indoor and outdoor settings.

• Stay Distanced While Being Active: Consider going for a walk, bike ride, or wheelchair roll in your neighborhood or in
another safe location where you can maintain at least 6 feet of distance between yourself and other pedestrians and
cyclists. If you decide to visit a nearby park, trail, or recreational facility, first check for closures or restrictions. If open,
consider how many other people might be there and choose a location where it will be possible to keep at least 6 feet of
space between yourself and other people who are not from your household.
Many people have personal circumstances or situations that present challenges with practicing social distancing to prevent
the spread of COVID-19. Please see the following guidance for additional recommendations and considerations:
• Households Living in Close Quarters: How to Protect Those Who Are Most Vulnerable
• Living in Shared Housing
• People with Disabilities
• People Experiencing Homelessness

More Information
How to Protect Yourself
Cleaning and Disinfecting Your Home
Gatherings and Community Events

Last Updated July 15, 2020

2/2

https://www.cdc.gov/coronavirus/2019-ncov/prevent..getting.sick/sociaklistancing.html

R.A. 110

Case 1:20-cv-04844-NGG-CLP Document 20-9 Filed 10/13/20 Page 1 of 3 PagelD #: 485

No.202

EXECUT IVS ORDER
Declaring a J}isaster E mergency in the St!lte of New York

WHEREM,, on January 30, 2020, the World Health.Organi7.atlon designated ihe novel
coronaviros, COVID-19, outbreak as a \>ublicHea.lth Emetgency of International Concern.;

WHEREAS, on January 31 , 2020, Unhed Srat~s Health and .l:;[uman Services Secretary Alex M.
A:z.ar U declared a pu.biic health emergency for the elit~e United States to aid the nation' s healthcare

community in responding to COVID-19;

WUEREAS, botb travel-te\ated cases a:ud comrnul')ity COn!HCt transmission of COVITT-19 bave
been documented in Kew Yo:rk State and more are expected to coo;tinu,:; and
WHEREAS, New York State is addressi ng the threat that COVID-19 poses to the health i!nd
welfare of i1.s residents and visitors.
NO W, THEREFORE,l, AndrcwM. Cuomo, Governor of the StateoL -ewYot\4 byvi11Ueoftbe
aulhority vested in me by the Constitution and ihe Laws of the State of New York, hereby find, pursuant to
Section 28 of Artil,le 2-B of the E.xecutive Law, that a d.isa.ster is impending in New York Slate, forwbicb
!he llffected local governments are 1.lllablc to respood adequately, and l do hereby declare a State disaster
emergeDcy for the entire State of New York. This Executive Order shall be in effect \IIltil September 1,
2020; -and

IN ADDITION, this declaration satisfies th rcquiremenr.s- of 49 C.F.R. 390.23(a)O)(A), which
provides relief from Parts 390 through 399 ofihe Pederal Motor Carrier Safety Regulations (FMCSR).
Such relief from the FMCSR is necess&ry to ensure that crews are available !IS !i.~e.l.
¥URTHER, pUISlllUit to Section 29 of Article 2-13 of the Executive Law, l direct the
frnplemeniation oftlle State ComJ1rehensfve Emctgency Management Plan and authorize a.II necessary Slate
agencies to 1ake appropri8lc: action to assist local govemments and individuals in containing, preparing for,
responding to and recovering from this stale disaster emergency, to protec1 staie and local property, and to
provio.c: such other ;L>Sistll!)oe as i,s necessa,y to protect public healtb, welfare, and safety.
IN ADDIT(ON, by \Tll"fi1e of the authority vested inme by Section29-a of Article 2-B of the
Executive Law to temporarlly suspend or modify any siatute, Jooa1 law, ordinance, ordet, rule, or
,regulatlon, or parts thereof, of any agency dudag 11 State disaster ilmerg!!ncy, 1f com_pliance with such
saatute, local law, otdinance, ordet, rule, or regulation would prevent, llinder, or delay action necessary to
cope ·with the disaster emergency or if necessary to assist or aid in coping with such disaster, I hereby
temporarily suspe.-id or modify, for the. period from the date of this ExCC1.1tive Order through April 6, 2021)
the following:

R.A. 111

Case 1:20-cv-04844-NGG-CLP Document 20-9 Filed 10/13/20 Page 2 of 3 PagelD # : 486

Section 112 of tl:te State Finance Law, to the extent consistent with Article V, Sectioii l of.the State
Constitution. and to the extent oecessary to add additional work, sites, -and titne 10 State contracts or to
11ward emergency contracts, includ.ing but not limlred to emergency contracts or leases for relocation and
suppon of State operations under Section 3 of the Public Buildings Law; or emergency contracts mider
Section 9 of the Public Buildings Law; or ~mergency contracm for professional slll"Vices under Section 13611. of the State Finance L!tw; or emergency contracts £or coOllllodities, services, and technology under
Scctio0- l 63 of the State Finllnoe Law; or design-build or best value contracts under and Pan F of Cb.apter
60 of the Laws of20 l 5 and Part RR.R of Chapter 59 of ihe Laws of2017; or eme.rgency contracts for
purchases of commodities, services, aod technology through any federal GSA schedules. federal 1122
programs, or other state, regional, local, multi-jurisdiction.al, or cooperative contract vehicles;
Section 163 of the State Finance Law and Article 4-C of the Economic Development Law. to the
extent necessary to allow the purchase of neressary commodities. services, technology, and mate.rials
"1thout following the standard notice and. procurement processes;
Section 97-G of the State Finance Law, to the extent necessary to pureha.se food, supplies, ,ervices.
lllld equipment or fw:niih or provide various centralized services; including but not .limited to, building
esign and construction services to assist affected local govcmmen •, individuals, and other non-State
entities in =ponding to and recove:ring from the disastc:r eme:rge1:icy;
Section 359-a, Section 2879, and 2879-a of the Public Authorities Law to the e.xtent necessary to
purchase necessary goods and services without followi.ng tbe standard procurement processes;
ections 375, 385 and 401 ofihe Vehicle $nd Traffic Law to the extent th.at exemption forvehlcles
validly regislered in other jurls~ctions from vehicle r~gistration, equipnient and dimension requirements is
necessary to assist .in pxepared.nes·s an:d re.sponse to the COVID-19 outbreiik;
Sectioas 6521 and 6902 of the Education Law, to the extellt Dccessary to permit unlicensed
indlviduals, upon completion of training deemed adequarc by the Coomussionet of Health, to collect thro!l.1
o, nasOJ)bary1J.ge!ll swab specimeAS from U)di,iduaJ.s suspected of being infected by COVID-19, for
purposes oftestiQg; and to the ei.'tent necessary to permit non-nursing staff, upcn completion oftralning
deemed adequate by the Commissioner of Health, to perform tasks, under the supervisiOll ofa nurse,
otherwise limited to the scope of practice of a Ii ceased or registered nurse;
Subdivision 6 ofsection 2510 and section 251 l ofihe Public Hea!mLaw, to the extent necessary to
waive or revise eligibility criteria, documentation requirements, OI premium contributions; modify covered
healui care services or the scope and level 01' such sw,ices set forth in contracts; increase subsidy paywents
to approved organizatioll.S, including the m.ax.imlllll dollar amouot set forth in contracts; or provide
extensions for required reports dW! by a.Pproved organizations in accordance "'ith contracts;
Section 224-b and subdivision 4 of section 225 of the Public Health Law, 1o the extent necessary to•
pemrit the Commissioner of Health to promulgate emergency regulations and to amend tbe State Sanitary

Code;

Subdivis.ion 2 of section 2803 of the Publi.c Health Law, to the extent necessary to permit the
Coro.missioner to promulgate ernargency regulations contem.ing the facilities lice.rued put'Suant to Article
2& of the Public Health Law, i.ucluding but
limited to the operation of gcnora.l ho,'J)itals;

not

Subd.ivisioll, 3 of section 273 of the.Public Health Law and subdivisions 25 aru12.5-a of sectioo 364.-j
of the Social Services Law, to the oxtent necessary to allow patients to =eive p=criboo drugs without
delay·
Section 400.9 l!lld paragraph 7 of subdivjsion f of section 405.9 of Title 10 of !he NYCRR, to th~
exte.nt necessary ro permit general hospitals a.mi nursing homes licensed pl.Il'Sl.IBD,t to Article 28 of the Public
Health Law ("Article 28 facilities") that are treating patients duting the dis{lster el)Jergep.cy lo rapidly
discharge, traD,Sfer, or reeeive such patients, as authorized by the Commissioner ofllealth, provided such
wcilities Wre all reasonable measures to protect the heaJth and safety of rocb patiel:).ts and residents,
including safe tratlSfer and discharge pracuces, and to comply with the Emei:gency Medical Treatment and
Active Labor Act (42 U.S.C. section 1395dd) and aoy associated Tegulations;
CRR, to tlle exte1J.t uccessary tO peno,it Article ;28 faci).itie,;
Section 400.11 of title IO of the
receiving pati,mts as a result of the disaster emergency to complete patient review instruments as soon as
p'tncticable;

Sec:tio • 405 of Title JO of tbe NYCRR, to the extent necessary to main,tain the public liealth with
Jespect to treatmen. or conrainment of indi vidua!s with or suspected to have COVID- 19;

R.A. 112

case 1:20-cv-04844-NGG-CLP Document 20-9 Filed 10/13/20
Page 3 of 3 PagelD #: 487

Subdivisi on d and u of ~ction 800.3 of Title 10 of the ~CRR, to
the extent 11ecessary to permit
emergency medical service pecSonnel to provide community para.medicine,
tran~-portatioa to destinations
other than hospitals or health care facilities, telemc<licine to facilitate treatment
of patients in place, and
such other services as may be approved by the Commissioner of Health;

Paragraph 3 of subdivision f of section 505.14 of Title 18 of the NYCRR.
to the extent ncc.:ssary to
pe!Tllit nursing supervision visits .fur personal care services provided to individual
s affected by ihe disaster
eme~geJJCy be me.de as soon as practicable;
Sections 8602 and 8603 of the Education Law, 8Dd section 58-1.5 of Title
IO of the NYCRR, to theextent necessery to permit individuals who meet the federal requirements
for bii;.ll comple/rlty testing to
pe.rfoun testing for the detection ofSARS-CoV-2 in spe.cimeµs collected
from individuals suspected of
suffering from a COVID-19 infection;
Subdivision 4 of section 6909 of the Public Health Lsw, subdivisio n 6 of
section 6527 of the
Educatioo. Law, and section 64. 7 of Title 8 of the NYCRR, to the extent necessary
to permit physicians au.a
certified nnrse practitioners to m-ue a no,n-patienl specific regimen to nurses
or any such other persons
authori7,ed by law or by this executive order to collect throat or nasophary
ngeal swab Epeeimens from
indi\>id.u?-1s suspected of suffering from a COVID•19 infection, for p1.11:poses
of testing, Ol' to perfm:m such
other tasks as may be necessary to provide r.are for individuals diagnosed
or suspected of suffering from a
COVID-19 infection_;
Section 596 of Title 14 oftbe NYCRR to the extent necessary to a!Jow for
rapid approval oftheuze
of the tclemenlll.1 bealtb services, includin.g the require,rue[).ts for in-person
initi?l -a.ssessmcnt prior to 1he
delivery of telemenr.al l,ealth services, limitations on who can deliver telemea,ta
l health services,
requirements for who must be present while te.lememal health services are
delivered, and a recipient's right
to refuse telemental health services;
Section 409-i of the Education Law, sectioo l 63·b of 1he State Finance Law
with associated OGS
guidance, and Executive Order No. 2 are suspended to the extent necessary
to allow elementary and
secondary schools to procure and use cleaning and mamtenaoce products
in schools; !llld sections I 03 a:nd
104-b of the GeneruMunicipa1Law arc suspended to the extent lll.."OeSS3r)'
to allow schools to do so
without the usual advertising fqr bids and offers aod compliance wi1h ewting
proc\ltllment policies and
procedures;
Article 7 of the Public Officers Law, section 41 of the General Constructi
on. Law, and section 3002
of the Public Health Law, to the extent necessary to permit the Public Health
and Health Planning Council
and the State Emergency Medical Services Council to meet andtake such
actions authorized by law, a.
may be necessary to respond to the COVID-19 outbreak, without meeting
quorwn Tequiremcnts or
permitting the public in,.person access to meetin.gs, provided thfll any such
meetings must be webcast an,cl
means for c.ff-cctive public co=ent must be made available; and
FURTEIER. l hereby temporarily modi{y, for the period from tho date of
this Executive Order
through April 6, 2020, the following laws:
Section 24 of the Executive Law; Sections 104 and 346 of tho Highway Law;
Scoti.o.ns 1602, 1630,
l640, 1650, and 1660 of the Vehicle and Traffic Law; Section 14(16) of the
TrlUlSponation Law; Sectio!lS
6-602 and 17-1706 of me Village Lav; Seccio.n 20(32) oftbe General City
L,a:\v; Secti01191 of Second
Class Cities Law; Section 19-107(ii) of the New Yor.k City Administrative
Code; -and Seotion 107 .I of Title
21 of the !-(ew York Codes, R\J.les .and Regulations, to the extC!\t necessary
to provide the Govemor with.
the aut.hori1y to regulate traffic and the movement of vehicles on roads, highways
, and streets.
G IVE N wider my band and the P.riVY Seal of tho:
State io the City of Alba.ny this
seventh day ofMaroh i:n the year two
thousand tw~nty.

BY TIIE GOVER!~OR

/}Li, , c-- --_
Secretary to the Gove,rnor

R.A. 113

Case 1:20-cv-04844-NGG-CLP Document 20-10 Filed 10/13/20 Page 1 of 2 PagelD #: 488

N o. 202.3

EXECUTIVE ORDER
CONTINCJING TEMJ>ORARY SUSPENSION

ND M ODWICATION OF LAWS RELATING T

THE DISASTER EtdERGENCT

WHEREAS, on March 7, 2020, [ issued .&ecurive O.tde): Number 202, declarin,g a State disaster
emergency for the entire Stafe of NflW York;
W.8E.REAS, 'ooth travel-related cases aa.d canm11.1JJ,j'ly con!act trans.mission of COVID- 19 .h ave
beell documeoted iu . -ew York State e.nd are ~cted to be continue;

WlIEREAS, one sw:e acfuig alone.cannot control tbe continued spread ofthis dise~se e.nd it
requires coordination and cooperation amo~gst the states; -e.nd
NOW, THEREFORE, l, Govetnor AndrewM Cuomo, by virtue of iheauthorityvested in me by
Sectioo 29-a of Acticle 2-B of the Executive Law to tempol'3J'.i]y suspend or /DOdify any statute, local law,
orclinance; ordei:, rule, or regulation, or parts thereof, of aoy agelJ.cy during a State disaster emergency, if
compliance with such irtatur.e, local law, oo:dinan~e, order, rule, or regulation would prevent, hindet, or
delay actio.n necessary to cope with the disasteir eu:iergeucy or if necessary to assist or aid in coping with
such. disaster, or to i5Slle any dire<:tive dutill.g a disaster emergency nece:,sary to cope with the disaster, l
hereby issue the following directives and suspeusioni. and modifications for the period from the date of J;his
Executive Orde,r 202.3 ihrougb April 15, 2020 ;

•

The directive rcCJ,niting large gath.erings awl. events ta be c,qicelled or postponed if they
had anticipated attendance in excess of 500 people by virtue of'Exeoutive Orde.r 202. l
dated M&reh 12, 2020, is hereby am.ended and modified to require that any large
gathering or event (co)l.ccrt, confe.rence, worship senrice, performance before a large
audie.noe, etc.) shall be cancelled or postponed if mare than :fifty persons are expected in
anendance, at any location in New York State uofil further notice.

•

Any 1estau.rant or bar in the state of New York shall cease serving patrons food or
bev erage on•premi~es effective at 8 pm on March 16 2020, an.a WJ.til further notice shall
op]_y se..ve food or beverage for off-premises consumption. Notwjthstand.i.til?; any
provision of the alcohQl and bevei:age contra l law, a retai I on-pi:emi ses lice,nsee sh aJ l be
authorized for the duration of this Executive Order to sell alcohol fot off-premises
conswnptfon, which shall inoludeeithcr take-out or delivery, subject to reasonable
l.imitatiops set by the State Liquor Authority.

• Any :faciliry authorized to conduct video lottery gaming, or casino gaming shall cease
operation offective at 8 pm 011 March 16, 2010, and until funher notice. For a Class ill

R.A. 114

Case 1:20-cv-04844-NGG-CLP Document 20-10 Filed 10/13/20 Page 2 of 2 PagelD #: 489

I'noal (r..ming enterprise or Class IL Tribal Gaming etit<:1J)rise, any facLlity should also
close to the publio lllltil furthe.r notice.

• Any gym, fl.tttess centers or classes, and '0:lOvie theaters shal l also cease operation
effective at 8-pm on March l6. 2020 uutil further notice.

•

No local government or political subdivision shall.issue any local emergency order or
declaration of emergency o, disaster inconsisteo,twith, conflicting with or superneding
the foregoing directives, or any other executive order issued under Sootion 24 of the
E.xeeutive Law md any local emergency order or any looal administrative codes,
ch,u-ters, Jaws, rules or .regulations, are hereby s~pended with respect to any such order
issu0d under such authority diffe:rent or in conflict '\\<ith Executive directives.

G 1V EN under my hand and the Privy Seal of the
Siate in the City of Albany this

snaecli.lh day of March in the year
rwo ihousand twen1)·.

BY T8E GOVER,.~OR

/},L, .

e----___

Secretary to the Governor

R.A. 115

case 1:20-cv-04844-NGG-CLP Document 20-11 Filed 10/13/20 Page
1 of 2 PagelD #: 490

t-<o. 202.4
:BXECU TIV fi 0RD~R

Continlling Tempornry uspension and Modification of L11.w~
Relating to the Disaster Emergenc y

WHEREAS, on March 7, 2020, l fssued Executive Order Number 202, declaring
a State disaster
=ergeocy for the cnl'ire State of New York;
WHEJIBA S, both travcl-relaied oase5 and community 0011tact transmission ofCOVID19 have
been documented in New York State and are e~eoled to be continue; and

NOW, THEREFO RE; by virtue of the autho:,;ity vested in me by Section .29-a
of Article2-B of the
Executive Law to isSl{e any directive during a disaster cme,rgency necessary to cope
with the disaster, I
hereby issue the following directives for the period from the date of Executive Order
through April 15,
2020:

• An.y local government or political subdivision shall, effective March 17, 2020,
allow nonessential personnel as determined by the loc;tl government, to be ab'le to work
from borne or
talce Jeave without chatging accruals, e.xcept for those persoDile\ essential to the
locality' s
response to the COVID-19 emergency. Such non,-essential personnel shall
total n.o less than
fifty-pe.rceQt (50%) of the total number of employees across the eatire workforce
of s\Jcb local
government or political subdivision,
•

Restrictions oo reporting: to work for any state worker whose service is .non-essen
tial, or not
required to support the COVID-19 response, are expanded to all coUI1ties in the
State ofNew
York.

•

Notwithstanding any i,rior directives, every sc.bool in the state of New York is hereby
direcied to
close no later than Wednesday, March 18, 2020, for a period of two weeks, ea\i.iug
April 1, 2020.
Toe state shall reassess at that. time whether to e:,..iend such clos\lre beyond this date
and may
continu-, to suspend tb,e l 80 day instructiooal requiremenr. 'tbe l 80 day suspcnsjon
will be adjll5terl
to the siate' sallowed closure directive. Sc.b.ools tha1 exceed the period will uorbe
eyernp!ed from
the 180-day rule. School disllicts shall develop a plan for alternative instruction
al options,
distribution and ava.ilabili,ty of meals, and chil.d care, with an emphasis on serving
chlJdreJJ of
parents in the health care profession orfust responders who are c:titical to the
response effon, Suoh
plam shall be submitted 10 the State Education Department and may be amended or
modified by (he
State Education Depar1ment, in consultation with the Department of Health and Office
of Children
-and Family Servi,ces at any time. School districts in Nassau Cowity, Suffolk County-and
Westchester County and the City of New Yorkm.ust submit such plans for approval
no lai:ertban
midnight, \v18J:ch I?, 2020 to the State.

R.A. 116

Case 1:20-cv-04844-NGG-CLP Document 20-11 Filed 10/13/20 Page 2 of 2 PagelD #: 491

•

Any village election to be held March 17, 2020 sh.all be p'ostporred and any ejected official
holding such position shall remain in office until such time as a new election is held.
GI V EN under my hand and the Ptivy eal of the
State in the City of Albany the

six.teen th day of Marchio the year·
two thousand rwenty.

BY THE GOVER!""/OR

/vlP·

Secretary to the Governor

R.A. 117

Case 1:20-cv-04844-NGG-CLP Document 20-12 Filed 10/13/20 Page 1 of 3 PagelD #: 492

No. 202 .5

Contiiuting Tl!Ulpor.iey Slll!peoaioo and ;\:lodi6,:,ilion o!Ln,~$
Relati11g to t_lle l>ls~ter Ep,ergoncy
-WIII:MAS, on '.M'=h 7, 2020, l i.s51l•d Exccoti\-c Order NUmbe: 202, declaring c St-ate disasuor emergency
for the fill.~ St1Ji, of :--Jew York;
WHEREAS, both II'SVel-related ca;es and comml!llity CQni.,.ct !l'l!nSmission of COVJD-19 have occm

.:lo umentcd in New York Stale and are e,cpcGted to be continue;

WH'li:REAS, in order to facili1 aul the mos1 timoly rmd offoctive l'CSpO)lSt' to the COVID 19 01nergo11cy dis-..ster,
it is critical fQr New \,:ork Sm:c to be able to aot quickly to gather, coordinate, :lnd deplo, goods, servicas. profos..<ionals,

and voiunt~ ofall kin~; ~nd

NOW, THERE.FORE, J, Andrew M . Cuom!l, Governor oftbo Stall} of 'cw York, by virrue oftba authority
vested in mi> by Section 29-a of Article 2-B of the Executive L.lw to temporarily suspend or modify any S!llilrlt, local
law, oitlinance, ardor, rJle, r,r ·regulation, or part; thcroof, of any agency during a State disoster em ergency, if
comp]i;mco with su~~ ~!lltule, local Jaw, ordinance, order, rule, or regulstion would prevent, hinder, oc delay aerion
n:cessary :o cope lillith the diusta...t emerge.ocy or 1f n~~'Slll)' ro 11Ssist r llid in coping with sucil disaster, I hereby
tempor-..r.~y 6Uspe11d <Y.' modify. for tho perfod from tb.e dare of this E;>:ecutivo O~d~ tbrough April l 7, 20'20 the
foUo'A~ng;

•

Seotion• 65\:? throllgh 6516, ~d 6524 of the Education Law and Part 60 of Titre 8 of the ':-!YCRR, to the
oxtent ncces 'llJ)' to allow physicians licensed and in c11trent1,1ood sunding in·any state in the United StlJt•~ to
practice medicine. in New York State wi1ho11t civil or crimin~ penalty related 10 ]~ck of licensure;

•

Section 6502 o.f the EduoaJ.iou Law 1111d P{IJ'l 59.8 ofTitle 8 of the NYCRR to tlie extent neccssaiy to allow
pl:;.ysfoiano lic-e.nsed and in cu,;rent good 51.uldiog in :-/ew York Swe but not registered itJ- ~ew Yori< s- ;o
practice in New York Sll\te without eivil or criminal ~alty ttlAtcd to rack of tegislratfon;
Seotlons 6512 tbrougll 6516, and 6905, 6906 and 6910 of die Education Law 9.Ld Port 64 ofTitle 8 oftha

NYCRR, 10 the e"tent oe=my to allow registered nurses, lic=e-d pre.cti~al nurso;, and nurse pra11tit10Mr.i

liuo,sed and in current good ,,anding in any stare in the Un.it.ed Sta.ti,a to practice in ~<'IVY01·k State without

civll ar criminal pl!Jlalty relaJed 10 lack of liceru;ure;

Scccions 6St2 through 6516, -and6S4l ofme Education Law md Pan6o.S of Title 8 oftheNYCRR SNYCRR,
allow phys[ci.an assisl&nts liceneed and in cucr.mt good standing in any st,rn: in the
L"nited $r:,,ces to pmctioe in New York Stat« without civil or<:runinat penalty relalcd to lack ofliceosure;.

to the e,cu,nt necessary 10

•

Section 400, \2 of 'l"itle 10 of the NYCRR to the e,ctenr necessary tQ allow pati.eots affected by the disaster
em!ll'goney ro be tran;;ferred to 1-eceiving Article 28 facilities as authori1,.,d by tb.eCol\Ullissiocer ofl{e:tlth;
Sett.on 415,11 of Title 10 of the ~CRR ro the «<.tent necessary to ponnit nw-sing homes r=iving
indh·iau.at., ~f'!.i,cwd by the d\,11,';ter omergim;;y to perfurn:: comp\'\\hensive ~se.smeots of tl>o$e resi(leu\,
!.O!l)porefi.ly ~vacuated to such nursing hortieii as soon as practlcable foUowing 1tdmission or to furego such

nl.~cssmenti. fer individucl!! return~d to facilities .from which lhey were ev11Cua.ted;
•

Sul>di\'lSion b of section 415. l 5 o! Title l C, of the NYCRR, to the extent necessary to v,,rmit uumng homes
receiving individu:!l.s nffccu:d liy the di=t emergency to obrain physicim approv~s for admjssion !!S soon
as practicable following a.ti.mission or to forego sucp approval for individuals rerun1cd to fiiciliti~ from whiob
thoy were eva=ted;

R.A. 118

Case 1:20-cv-04844-NGG-CLP Document 20-12 Filed 10/13/20 Page 2 of 3 PagelD #: 493

Subdivision i ot'sootion 41526 oe Title I() oftlu, 1-"YCAA.. to the e.xtent necessary to penn1t nursin_g homos
teeeiving individuals dected by the disaster emergency to oomp1y with admissio11 proood\lres M soon as
p1$.ctlcable fo1lowfog edmission or to forego ~Uoh procedures ror individuals rewrned ro faclUtie.s from wb]ch

they were .:vecu~;

•

P-arazraph 2 of subdi.-ision g of section 163.4~paragraphs, and 8 af stlbd.ivisicm h of section 763.4; paragraph
'Z ofsubdivision ii of sectio11 766. S: and pru;,grapb l ofsubdivi.o,ion dofsection 766.5 <>fTille JO of the l\'YCRR,
to the extent necessary to percil certified home I1ea!th ag~noies, l.:ipg term home bttlth care pr Ogr:t)llS, AIDS
home care programs, and lioensed home care services ,1geQcies ser"mi! ind.hidu,;ls ~ffec!od by the djsast.,,e.mergencyro conduct ln-home supervision of home bealthnldes and p•rsooal cm'Qaides e.s soon ss pnicticable
the initial service visit, or to perm.it in-person and io-hOme supervlsion 10 be conducted through inditect
means, including by telepllone or video OomJnl.L~ic-~tion;

•

Subdivisiou a of &CCtion 763.5 ofTitle IO of the )<YCRR, lo the extent necessary to permit initial µatient visits
for certified ho.me health agendes, long tenn. home health care programs and Alb s home cye progniros
serving individuals ;:ffc,;ted hy the dlsa.'ier ome;geooy to be ml!de within 48 hour., of receipt and acceptance
of e community referral OT Jttllrn home fr<>m in.1-titutional placemunt;
Sections 403.3 and 403.S if Title 10 of the NYCRR, to exreod the riJ:ne in which home care. ""rvice~ entitle~
must ntbmit infonnation to the Home Care Worker ll.egistl)I;
Sections 3584.3, 3S8-5.12 e.rtd 358-5.13 of Title 18 oflhe NYCRR, 10 the extent necessary to llllo, or reqoirt>
nppe-21ance by any parties. to " rair hearing by written, telephouic, video or other dccttoniomeans;

•

Sections 2999-h and 2999-j of the Ptmlio Heal!h Ll<w, to me =m necessary to pro.vide reimbursemem m
Medical Iniicmnity Fund enrollees, in primary re&idencl!!' wh::re a reident h!13 had CO'\.'lD- 19 or was exposed
tO CO'VlD-J 9, for costs relat•d to cleanu,g and d\sinfoction of such primozy ,-esidonct.5, at the discretJon ofth.e
Cor.Jrnissioner of l-lealth;

•

Section 2605-!c of tile PubU Health Law J1.11d sections 4-05.4, 405.5, 405,9, 405.14, 405. tll, end 405..22 ofTille
!O .:,f the NYCRR, to the a)(tent necessl!t)I to allow staff with the n~ssary professional cmn~r.ency and who
lil'O privil~,scd and oredemial~d to wo!'k in a faaility in ooinplianoe with rncb sootion of die Public Health Law
and sucb se~lions ofllieNYCRR, or who e.reprivileg<d and credentialed to work ina fuoili!y in another sfllte
in compliani;e with the applies bk Jaws aru! n.gulalions of Ilia other state, to prec:tic<> in• faeilil}' in New Yo1k

St=·

•

Pm 405 of Title l O of the .NYCRR, to th~ extent oece,Slllj' 10 adopt existing policj113 !Wd procedures in e

g.anera1 hospital at a new, temporary faoili!)' ere;w,d for tlie purpo,e of treating p~tionts during_ the COVID-19

outbreak;
•

•

Any colie related to ;;onS1J'Uction. irnwgy coUSl:Nalfon, or o!h.-r b1tilding code, and all state ffid loc;il law,,
ordioances, and regull!tions nol,img to administration and enforcement of theforegoiog, '16 the extem necessary
ro allow, upon approval. by the Commissioner of Health or the Commissioner of OPWDD, us applicable, tb·e
rcinpora.ry ch)Ulges tc phy5ical plant, bed capacities., ond 5ervic"" providoo; the coostruction of t"1)1porary
hospital locations and eXl.Cnsions; the incr= in 11J1d/or oxc..,ding 0£ cen.i6cd C"Jlacity Jirn,it$; and the
cslablishmont of temporary hospitol loeations and e.'tlt.'lls!ons;
P.art 425 of Title 10 of me 1'1"\'CRR and s~1lon 461-.k of the Socicl Services Law, o the ;ooentnccessary to
prevon1 ttansportmon oo 11nd arumdruice t adu lt day cnre program., until authorized by the Commissioner of
lliallh;
Section Hi.17 of the Men~\ Hygien.i, Law 10 !he ex.tent ne.:;e.ssa,y to pe:rmit the Office cf People witl1
D~ve\opmenw Disa.biiitie,; to tllko emargenoy wrioo to suspe;nd or-lil:nil o. providers oper,,1i:llg oe,:tificare:

•

Se,,tlons 633. i2 !ltld 636-J of'ritle 14 of the NYCRR, to the,""-tent 00CeSSary to temporarily cl~·ia.te from -an
individlllll's ser;ioe plan, which would otherwise outllne panicipo.tion in do.y progrrur.mmg and other
cortuni:ni1:y
served, o.nd to the e)ttent nectese;ry to tempc~y .-.locale individuA]s, in order tom in1llin
the health ~nd safety of that individual duri-ug this emergeocy p•,iod a.'ld to the extent JJece.s~;
Section~ 33 .02 and 33.05 of tho Mental Hygiene law and sections 633.4, 636-L4 and 63'.l.16 ofTit\e 14 of the
NYCRR, to the extent necessary ro restrict visitors ro facilities conified puts\.U!J1t Article 16 of the Menral
Hygien~ law u.od to pe.rmi1 restrictions on ,omrnuni:y uutinss for .residents of such facilitits to ,-educe !he
sprea,d of COVID-19;

Semions 633.8 and 633.14 of Title 14 of jhe [YCRR to !,he e,q,,ot o ~ 10 porroit abbrevi.;;,d traming of
direct s11pport p,ofesslonaJ• ernp!oyed in pi'Ogtams and fi,~ilitil'S ~fied pUl'SIWlt to Article 16 ofme M<Jlld
Ryglen:, Law tba, a.re cxp~endng ~mil' shorr:iges;
Sceuon 633 .17 of Title 14 of the :NYCRR, to the c,ctent oeeessary to p.,-nnit ablmeviated medi~:ition
adn11oims1fon training of di.roat.,upport professionals employo,1 in ptOS!"llUt or facilities cerllfiod purs.uant to
Article !6 of the Mcn!al Rygieno Law;

•

Section 390-b ofrhe Social Se,r,•i= Law ~d r~lzjou. at sections 413A and 415 .15 of 11tle 18 of the
NYCRR ,osofat u thlll .nab.Ile i!D.d thase (egul~tion; establish background ch~k requiremen~ fot child day
=;

R.A. 119

Case 1:20-cv-04844-NGG-CLP Document 20-12 Filed 10/13/20 Page 3 of 3 PagelD #: 494

Section 390 of the Soci~ Services Law insofar,.., thMsoctioo of?aw exempl'S school age child care progtams

•

Qperatod by a .ch,)()l or e,uicy with experio11oe pro·.~diug, cbild care s1u! lo~ in school providir)g
e)omentary or s«:,on!W)· education from having to comply with the regulations of the offioe of childtseo 1Wd
(amily servici:s;

•

Subdivision 7 of section 590 and subdivision 2 of seotion 607 ofihe Labor Law. so tar as they rdate to waiting

periods fur uoomployment insurance claimants whose claims for wiemployment insurance arise due to closut~
of iw employer for a reason n:lated to COVID-19 or ciw, to a mandru:ory order of a government entity duly
ll1]1hprizcr,l io issu11 sue~ order to closc 3u;:h employer, as ofM"srob 12., l020;
Snbdiv¼ion b of section 708 of the B11Sl.Mss Corporation Law to th~ exltnt uecessary 10 porD1it busiMss
co!pOl'lltions co Wee -any action othl!IVlise pormltted under that section wilb the electronic com;ent of the
m;,:nbCl'S of ihe bpard or committee, when sucll co,uent is. w.bmirted via electronic mail .ilong with infonnatioo
from 1vhich it oan reasonllbly be determined tllet the tramirnission was au010rized by such member;

•

Seelions 6~(13)(b) nod 66{12)(!) of tho Public Service Law to the el':tent of having in-person pulilicc hi:arings,
provided tha!: such hearings are hold by conference call or similar ~lectronicm=s, which are recorded and
lat"r transcribed;

•

Section 16S(l) of the Pub Uc Service Law ("PSL'~ to the i:xteut of holding public statemenr hearings, provided
that the p~blic may file writtencomruent3 in any case &llbject ro PSJ:.. Aniele 10 u.ntil issuance ofaf)nal order;
,tlJd

•

Section 123(1.) of the Public Serv:ce Law ("PSL•~ to th• e.,tl!tll of lwldinga. public be,,ring, provided thm tlte
public may file ,,,-:inen oomm1'Jl'IS ln allJ ease subject to PSL .-'\rticle VU unt1l issuance ofa final order.

IN ADDITION, by virtue of the authority vest.ed in me by Section 29-a of Arricle 1-B of the E-xecurive La\\> to
igsue any directive during a disast.., emergency necessary to cope with the disaster, I hereby issue fu:,; following
dir"1:tives for the p~nod from the d4te cf Er.ecutive Order through April i 7, 2020;
•

Any village elecrio1\ set to be h~ld Mare1h 18, 2020 shrul be po.tpolled and any elected official i1old.ing
such position £hall remain in office un1il such time as a new election is \leld.

•

E,ffeclive at 8 p.m. Mirrcb 19, ;!020, all lo.door common p011ioos ofreuul shopping malls with in e..'!ces5 of
l 00,000 squai-e ~et of retail .p&ce avails.ble for lease shall close and cease a~cess to the public. Any mre~
located w{tllit1 shopping. malls, which have !heir own eiu:emal entrance., cp:ll to the public s,:pw11.1e from \he
gencrul mall ~ntrancc, may rt,nain open. subject to fue requircmenJS of Exocutive Order 2023 thli! any
resllluram shall limit iTSelf to ou;e out or dlllivory focd s.,rvices, 3lld that ony innod"r entrnncos to common
llfi;&; of the tUaU remain clos~-0 and loc.!5ed.

•

Additionally, all pla.:es of public amusement, v,,hlllh,er i11tloors or O\ltdoo~ ui.oludirig but QO\ lirnil'ed tQ,
locations with amusement rides, carnivals, amusM>ent parks, water parks, aquariums, 200;;, arcades, fairs,
o!u1dren' s play centers, funpJex.,s, thelne psrk.s, bowling alleys, family and children's snr:ictions shell llkeWiso
be closedtotbe public 1<t 8 p.m. on March 19. This direcciv,i sbaJJ not apply to public parks and OP"" recreation
nrca-,.

•

Notwithstanding section 24 of me Executive Law, ,,,, lOCBlity or politic,,! subqi,·i,ion s~ll iSl'u.e :my )acal
emergen;;:y order orcxc,: utiV<O order wit~ respect ro resp<1iwo ofCOVlD-19 without th~ approval cf the Slllie
Department ofRcalth.

G l V E N under my hand an,i thePr"'Y Seal aftbe- Slat<
ln the Cit)' eot Albany the eighb:eoth day of
Marcli in the year two thou6alld twenty.

)3Y 1HF.GOV.8RNOR

/}l,£,.
Sec,retary to tho Gove\Tior

R.A. 120

Case 1:20-cv-0484 4-NGG-CLP Document 20-13 Filed 10/13/20 Page 1 of 4 PagelD #: 495

, o. 202.10
J;;~ECUTl

VE ORDER

Co11tin,uingTempornry SnslJcnsion and Moclification of Laws
Relating to the Disaster Emergency
waE.REAS, on March 7, 2020, l issued Ex,:cutivc Order Number 202, declaring a State disaster
emergency for the entii:t Stare of New York~
WHEREAS, boih n-a,vel-related cases and community contai:'\ transmission of COVID-19' have been
drn:ument~d in New York State and are e)(peated to be. continue;
\VllEREAS, ensuring the State of New York h11S adequa~ bed capacity, supplies, and providers to trent
patients affected with COVID-J 9, as well as patients affiicted with oiher maladies, is of critical impotllmce; and
WlIERE.AS, eliminating any obsrae.J~ to the provi;ion of supplfes and medical trealmcm is necessazy
1.0
ensme the New York b,e;;lthcarc -system has adequate capacity to provide care to all who need it;

NOW, TlIEREFORE , 1, Andrew M. Cuomo, Governor of the State of Kew York. by virtue of 1he
l\Uthority vesrcd in me by Section 29-a. of Article 2-B of the Executive l..aw to temporarily suspend or modify
aay
ffllute, local law, ordinance, order, rule, or regulation, or parts thereof, of any agency during a Staie
disaster
emergency, if conwliance with such statute, locnl law, ordinaJJce, order, rule, or regulation would prevent, hinder,
or delay action necessary 10 oope with the disaster emergency or if necessary to assist or aid in copiqg witlt such
disaster, 1 hereby temporarily su~pend or modify, for the period from tho dace o{ this Ex~utive Order throilgh
April 22, 2020 the followtng:
•

Section 2803 ofihe Public.Health Law, and Parts 400,401,405,4 09, 710,.711 and 712 ofTitle JO of
the NYCRR, to the extent necessazy to permit and require general hospitals tn q,ke all measures
necesS!!r)' to increase the number of beds available to patients, in accordance with the directives set forth
in this Executive Oi:de.r;

•

Section 3001, 3005-a, '3008, and 3010 of tho Public .ijealth Law to the extwit necessary to modify the
definition of "emergenoy medical services" to include emergency, non-emergency and low acuity
ml!dical assistao.c"; to eliminate any re.'i!Tiotions on an approved ambulance services or providers
operating outside of the primary territory listed on.such e.mbulance service's o~&ting certificate with
prior approval by the Department of Health; to ~rmit the Commissioner of Healtb to issue pro\l'\simial
emergency rnedica1 services provider certifications. to qualified individuals wi!h modifiecl certification
periods as app11>ved; and to allow emergen.cy medical services to transport patients to locations other
than healthcare fiioilities with prior approval by Department of Health;

•

'Section 3002, 3002-a, 3003, 1llld 3004-a of Public \"Jealth Law to the extern neoessazy to allow any
emergency medical treatment protocol development or modification to occur solely with the spprovaJ
of
the Commissioner of Health;

•

Section• 405.13 iind 755.4 of Title 10 of the NYCR.R to the ei.1:ent necessary to permit an ~dvsnced
practice registered nur;e with a doctol:!\te or ma.ster'.s de~e specializing in the administration of
anesthesia administering <111esth~sii. in a general hospital or free-standing ambulatory surgery cenier
without the supervision of a q~a.lified physlcian in these health aare settings;

R.A. 121

Case 1:20-cv-0484 4-NGG-CLP Document 20-13 Filed 10/13/20 Page 2 of 4 PagelD #: 496

•

Paragraph 1 of Section 6542 of the Education Law and Subdivisions (a) and (b) of Section 94.2 of Title
10 of the NYC:RR 10 the e."<tent necessary to permit a phyiidanassism nt m pr,:,vide medical services
appropriate to their edUllatimi., trzining and e.,i;pcricace without oversight from supervising physician
without civil or criminal penatty rehted to a lack of oversight by a supervising physician;

a

•

Paragraph I of Section 6549 of the Education Law and Subdivlsions (a) and (b) of Section 94.2 ofTitli;
10 ofth1t NYCRR to !he extent necessary to permlta specialist assistant ta provido medical services
appropriate to their education, training and experience without oversight from a supervlsing physician
without civil or cri'mirutl penalty related ro 11 lack of uversight by a supervising physician;

•

Subdivision (3) <1f Section 6902 0£ Education Law, and any associated regulations, including, but not
limited to, Section 64.5 of Title 10 of the NYCRR, to the e,ctent neceS$11[)' to permit a nurse practilloo'cl
to.provide mediaal services-appropriate to their educatiot\, training and e:<peri.encc, withoui a written
praotice llgreemc11t, or collabomtive relationship with a physician, without civil or criminal pennl.ty
related to a ]a()lc of written practice agreement, or collaborative celation.hip, with a physician;

•

SubdivisiO!I (15) of section 3001, cod Sections 800.3, 800.15 and 800.16 of1ftle JO of the 1'4-YCRR wlth
approval of the department, to the extent necessary to define "medical c.>nttol" to include emergency
and non-emergency direction to all emergency medical services personnel by a regional or stllte medi~-al
control center and to permit emergency medical se-rv:ices personnel to operate UI1de,r the advice and
direction of~ nurse practitioner, physician usismnt, or panunedic, provided that such medical
-profe,sional is prnviding care under the supervision of a physician and pursuant to a plan approved bJ
the Department of Health;
·

•

Subdivision (2) ol'seccion 6527, Section 6545, and Subdivlsion (I) of Section 6909 oftheEducatio o
Law, to the extent necessary to provfde that all physicians, physician assistmlS, specialist assistants,
nurse pra~1itioners, lfcensed registered professional nurses and li~n.sed pr:i.ctii:al nurses shall be immune
-from civil liability :for 81\Y injury or death alleged to Ju.ve been sllSlaihed directly a.s a result of an act or
omission by suoh mcdie&l professional in the course of providing medie11l services in support of the
State's response co the COVID-19 outbreak, 1,1n\css tt ts establishe.d that s11ch iaju.ry or death was caused
by the gross negligence of such medical professional;

•

Any healthcare facility is authorized to allow srudcmts, in progi-Sins to become licensed rn New York
·
State to practioe as a healthcare professional, to volunteer at the healthcare facili'ty for educati"onal credil

as if the student had secur~d a placement under a clinje.el affiliation agreement, without entering into
a.'1.y such clinical affiliation agreement;
•

Notwithstanding any h,w or !'l!'gulatioii'to the coutrazy, health care providers are relieved o.f
recordkeeping requirements to tbe ex1e.nt necessary for health care provider-s to perform tasks as may be
peces ary to respond to lite COVID-19 outbreak, including, but not limited to, requirements to maintalr1
medical n:cords that accurately roflect tbe evaluation a.nd treann.cnt of patients, or requtremcots ID assi_gn
diagnostic codes or to create or maintain other records for billing purposes. Any person acting
reasonably and in good faith under this provision shall be affo;ded absolute immunity from li!lbility for
any failure to comply with My recordkeoping reqllirement. In ordcr to protect from liability any person
acting reasonably and in good faith under thi; provision, requirements to maintafu medical records
under Subdivision 32 of Section 6S'.l0 of the-Education Law, Paragraph. 0) of Subdivision (a) of Section
29.2 of Title 8 oftheNYCRR , and Sections 58,1.J 1, 405.10, a11d 415.22 of Title 10 of the "NYCRR, or
any other such laws or regulations= suspended or modified to the exrent necessary for health care
providers to perform tasks as rn.ay be noc~~S!UJ to respond io the COVID-19 outbreak.;
Section 405.45 ofTifle 10 of the NYCRR to the elttentnecessary to permit the Commissioner ofHe.alth
to designate a hel\lth care facility as a tral.llTl~ center, or extend or modify the period for which a bealT.h
care facilit:y may be designated as e trewna center, or modify the review team for assessment of trauma

ccnrer;

•

Sections 800.3, 800.8, 800.9, 800.10, 800.12, 800.l7, 800.18, 800.23, 800.;!4, and 800.26 of Title 10 of
tb.e ::st-YCRR to the extent necessary to extend al\ existing emergency mi:dical services provider
cerrifi.catimis for one year; to pmnit the Commissioner of Health to modify the examination or
rec<:rtification requirements for emergency medical service,, provider cen1fications; to suspend or
modify, at the discretion of:the Commissionet ofHeultlt, any requirements for the recerti.fioation o(
previously certified emergency medical ~ervlces providers; and, at the discretion of the Commissioner
of Health, develop a process determioed by the Dep2J'tment of Health, io permit.any emergency medical
service, provider certified or licensed by another Stare to provide emergency medical &erviccs within
>iew York stare; at th" discretion of the Commissioner of Health, to suspend or modify equlpmept or
vehicle requiremenis in order to ensure sustainability ofEMS operations;

•

Paragraph (6) of subdivision (b) of part 405.4 of Title 10 oftheNYCRR to the extent necessary to
remove limits on w orkiI;,gJ,our. for,physicians and:postgmdwite trainees;

R.A. 122

Case 1:20-cv-04844-NGG-CLP Document 20-13 Filed 10/13/20 Page 3 of 4 PagelD #: 497

•

Subparagraph (ii) of paragraph (2) of subdivision (g) of 10 N.Y.C.R.R. section 405.4, to the extent
necessary to allow graduates of foreign medical schools lw,vfng at least one year of graduate medical

education to provide patient care in !iospimls, is modified so 8!I to allow such gl'aduates without l icenses
to provide patient care in hospitals if they have corup1eted-at lea.st one year of graduate mediC<1l
eduC11.tion;

•

Subdivision (e) of section 405.2 of Title lO of the NYCRR, 10 the extent necessary to permit g~neral
ho<i_Pitals affected by the disaster emerg~ncy ro maintain adeqUJ1te staffing;

..

Subdivision (b) of sect.ion 405 .3 of Title l O of the 1-i-YCRR, to the extent necessary to allow general
hospitals to use qualIBed vol\Inteers or _personnel nftiliated ,vith different generaL hoopitals, subject to
i:he temis and CQJlditions established by the Commissioner of Health;

•

Section 3507 of the Public Health Law and Part 89 of Title 10 of the NYCRR to the extent nec;es.,a,y \0
permit mdfologic technologists licensed and in current good smodjng in New York Stace but not
registered in Ney, York Srate to practice•in New York State witho\ll civil or c\i,minal penalty related to
lack of registration;

•

Seetion5 3502 and 3505 of the P\Jblic Health Law and Part 89 of Title 10 of the NYCRR to the exte-nt
necessary to perm.it radiologic technologists )icensed and in current good s!1lnding in 81\Y state in the
Unit~d State to practice i:n New York State without civil ot criOlinal pcmtilty r;,]ated to lack of licen~ci;

•

Secti'ons 8502, 8504, 850~, 8505, and 8507 of the Education La.wand Subpai179-4 of Title 8 of the
NYCRR, to the Cl<!tmt necessary to allow r~piratory t.her~piSis lic:,nscd and in current good standing •i~
any state in 'lh~ United Staies to practice in ·ew York State witllolll civil or criminal penalry related to
lack of licensute;

•

Se,;tion 6502 of th.e.Educstion Law and 8 NYCRR 59.8, to the e;rtentnece-ssazy to allow physician' s

assistants licensed and in cU!Teo,t good standing in 1'jew Yotk State but not registered in New York St..te

to practice in ·ew York State wiihoul ci,lj] or criminal.penalty related to lack of registrntion;
•

Sectio11 6502 of the Edllct1tion Law and 8 NYCRR 59.8, to the extent nccessa.ry to allow regj.rtered
profossioµal nllrSes, liccn,cd practical nurs~ and nurse practitioners licensed and ih current good
stsnding in ! -ew York State butnouegistered ln New York State lo practice in New York Staie without
civil ot criminal penalty related to lack of registratioo;

•

Su.bdivi;;iori (2-b) of Soct:ion 4002 of the Pub]ioHealth Law to the extent necessary tO allow a )10spice
residence to designate any number of'beds within sm:,h facility as d11ally certified i_npatient beds;

•

Title V of Article 5 ofrhe Public l;Ieahh Law and subparts 19 and 58 of'trtle 10 of the NYCRR,
e:xt.ent necess1uy to allow l~boi-atories holding a Clinical i.mboratm:y Improvement Aet.S (CLIA)
certi;ficate and meeting the CLIA quality standard.s desc.noed in 42 CFR Subparts }l; J, K and M. to
perform testing for the detection ofSARS,CoV-2 in speou!'Iens colkct:ed from individuals suspected o!
suffering from a COVID-19 inf~tion;

•

Article ) 39 of the Education Law, Section 576-b of the Publio Heailth Law and Section 58- ! ,7 ofTitle10 oftheNYCRR., to the ex;tent ncccssa.ry to permit regisoored n~es to on:lcr the co1Jec1ion of ths:oator
oasopha.ryngeal swab specimens from individuals suspected of being fnfected by COVID-19, for
purposes of testing; and
'

tow

• . Subdivision (1) of Section 6801 oftl,e Education Law, Section 6832 of the Education Law md Section
29.7(a)(2l )(il)(b)(4) of Tille 8 of the NYCRR, to the extent necessary to pemiit a certified or registere<l
phann2ay technician, under the direct personal ~upervision of a li~eosed phannaci~t, to l!Ssist such
license-d pharmncist, a~ directed, in compounding, preparing, labeling, or dispensing of drugs us•d to fill
valid prescriptions or rn~'d.ioation orders for a home infusion provider Jlcensed as a pharmacy in New
Yotlc, comptie.nt with the United States Phannaoo_p,,ia. General Chapter 797 st.and;u-ds for
Ph!lll11acoutical Compmmding - sterile prcpat11tions, and providing bomc infusion setviccs through a
home car" agency ]jc.ensed under Article .36 of the Public Health Law.

lN ADDITION, by virtue oftheauthoricy v~ted inme by Section 29-a of Anicle 2-B of,the faecutive
Law to issue any dir~ctive during disaster emergency n~cessary to OO'PO with the disastei:, Thereby i.s,;ue
the foHowing ditectivc.s -for the period from the d11te of this Executive Oimr through Apn1 22, 2020:
•

Any hei!.lthcare facility is authori:zrd to allow students, in programs to beoo,n~ licensed in 'New York
State to practire a healthcare professiooal, to-volunteer a.t the healthcare facilil)' for educational credit ll~
if the student had secured a _pl11Cetnent under a c\iniClll affiliation agreement without entering jnt,) uny
such clinical a.fliliation agreemenq

R.A. 123

Case 1:20-cv-04844-NGG-CLP Document 20-13 Filed 10/13/20 Page 4 of 4 PagelD #: 498

•

The Commissioner of Health is authorized to d\r"Ct, and shall •o dlroct, ill general hospitals, ambulatory
;urgory centers, office-based surgai-y practices and diagnostic and treatment centers to lncrease the
number of beds available to prtietlts, including by canceling all elective surgeries ;ind procedures, as the
Comrnissiom:r !)fHealro ,shall define. General hospitals shall comply with such order by submitting
COVID-19 Plans to the New York State Department of Health (NYSDOH), on a schedule to _be
detennined byNYSDOlt, to accomplish this puq,o~;

•

The Commissioner of Health is authorized to suspend or revoke the operating cenificate or any general
hospital should they be unable to meet the requirements of the necessary capacity directives; and
notwithstanding any law to the contrary the Commi;;sioner may appoint a receiver to continue the
operations Oil 24 how:s' notice to the current operator, in order to pres~rve the life, health. and safety Qf
the people of the State- of New York.

• No pharmacist shlll[ dispense hydroxychloroquine or chloroquine except when written 115 prescribed for
nn :FDA-approved indication; or as part of a st:;ite approved cltnicsl trial related to COVID- 19 for a
patient who bas. tested positive for COVID-19, wltb such test result documented as part of the
prescription. No other eiq,eri:mental or prophylactic use shall be permined, and any permitted
prescription is limited to one fourteen day prescription with no ref.Us.

•

Any !iecnsed health tnsuraoce company sh.all deliver to the Superintendent, no later than March 24,

2020 a list ofi.11 persons who have a professional lic..osure or degree, whether phy5ic1an' s assistllnl,

medical doctor, licensed registered nurse, lie<:nsed nurse practitioner or liacruied practical ·nurse, and
whether or not the person has a cllf!etttly valid, or reeently ( within pa.st five years) e,cpired license in the
st:atc ofNew Yerk:. The Oepamnent of Financial Services shall poll such irtdividllllls co dei:,,tinine
whether or not such proiessiootls woulQ serve in the COVID-19 response effort.
•

Non-essential gatherings of individuals of any size for- any rellSOO (e.g. parties, celebrations or other·
social events) are canwlerl or postponed at this rime.
GI V E, N under my hand and the Privy Seal ofth.e

State in the City of Al bany fi\is twent;L

third day of Marc)1 in the year two
thousaod twetlty.

BYTIIE GOVERNOR

/}\>·

Secretary m the Govemc>r

R.A. 124

Case 1:20-cv-04844-NGG-CLP Document 20-14 Filed 10/13/20 Page 1 of 3 PagelD #: 499

• 0 - 202.32

EXEC1[Tl VE ORD.ER
Continuing Temporary Suspension a.nd Modification of Laws
Re.lating to the Dis~tcr Emergoncy

WHEREAS, on Much 7, 2020, I issued Bxecmive Order Nwnber 202, declaring a Slate disaster
.emergency for the entire State ofNew York; and

WHEREAS, both cmvel-relat.cd cases and community cQllta lra.tl.$1lllSSion ofCOVID-19 have
b~n dooumented in New York State and are expected to continue;
NOW, THEREFORE, 1, Andrew M Cuomo, Governor of (he StaJ;e of New York, by virtue of the
authority vested in me by Section 29-a of Aniole 2-B of the Executive Law, do hereby continue the
suspensions and modifications of Jaw, nod l!nY directives, cot-superseded by a subsequent directive, made
by Executive Order 202.23 and each succ~.ssor EXL'i:Utive Order up to and including Executive Order
202.27 fo1 thirty days until June 20, 2020.
IN ADDITlON, l hereby temporarily suspend or modify ille followin.g for the period from the dll!n
of this Executive Order through June 20, 2020, the following:
•

Subdivision(!) of section 576-b of the PU:Wic Health Law ?Dd section 58-1. 7 and 58-1.8 of Title l 0
of the NYCRR, 10 the extent necessary 10, in furtherance ofEl,:ecutive Order 20230 l\lld any
extensioru; tbc~of, allow cl.i.uical laboraiories to accept and e11:;umne speci!nens for COVID-19
testing, :fi'om pecsonnel of nursirlg homes and adult care facilities, as such personnel ;u-e delin,ed ill
Executive Order 202.30, ,vithout a proscription or order from an authorized ordering source, and to
report the rl'Sults of such tests to the appropriate operators and administrators of the nursing bome.
or adult care facility for which the person for whom the rest was perfonne<! provides services;
provided that, to ensure appropriate follow-up witb patients who test positive for COVID-19, the
facility administrator shall contact. the local health department to ensute all facility personnel who
test positive me provided appropriate clinical guidance a,; well as !ippropriate isolation ardors; iind

•

Section 6-530 of the Education Law, to U,o ,;,xteni tmcessa.ry to allow physicians to order COVID- 19
rests, authorized by the U.S. Food and Drug Administralioo (FDA) for self-collection, without
otherwise having a,i initial phy sician-patient .i;olat:ion.mip with the patient
IN ADDlTIO:N, by virtue of1he authority vested i.o me by Section 925-a of !he-Real Ptoperty Tax

w.w to extend dtmnS a State disaster emergency the period for paying prope,rty truces without interest or

penalties upon request of the c:bief ~ecutive officer of an affected coll,llty, cil), town, village or school
district, l do hereby ei..'tend by twenty-one days the period for paying, without interest or pe.aa!.ty, propeit)
taxes that are due in the followillg localities that have i:eq\Jested Sl;ich a.i e.xteosion: Village of Antwerp,
Jefferson County; Village of l1..sharokeo, Suffolk Couoty; Village of Bainbridge, ChelllUlgo Cou.o;ty; Village
ofB;,yville, Nassau County; Village of Bronxville, Westchester County; Village of Canastota, Ma<;lisoo
COlUlty; Villa,ge of Cedarhurst, Nassau County; Village of Chester, Orange Coll.ll.ty; Village of Chitteosngo,
Madison County; City of Corning, Steuben County; Village of Coxsackie, Greene Couaty; Vill~ge of
Croton-on-Hudson, Westchester County; Village of Delhi, Delaware County; Village of Deposit, BroomDelaware County; Village of Dexter, Jefferson Coumy; Village of Dryden, Tompkins County;
Town/Village of East Rochester, Monroe County; Village of East Rockaway, Nassau County; Village of
flower Hill, Nassau County; Grand-View-on-Hudson. Rockland County; Village uf Granville, Wasbiog,on

R.A. 125

case 1:20-cv-04844-NGG-CLP Document 20-14 Filed 10/13/20
Page 2 of 3 PagelD # : 500

County; Village of Great Neck, Nassau County; Village of GreatNeck Estates,
Nassau County; Village of
liaverstrnw, Rockland County; ViUage ofHetlcimer, Herkimer CoW\ty; Village
of l::(olland Patent. Oneida
County; Village of Holley, Orleans County; Village of Huntington Bay, Suffolk
County; Village of kings
Point, Kassau County; Village of (rvingtou, Westehester County; Village of
Lynbrook, Nassau Coun,ty;
Village of Massapequa Park, Nassau County; Village of Massena, St. Lawrence
County; Village of
Menands, Albany County; Village ofMe,xico, Oswego County; Village of
Mill Neck, ~assau County;
Village of '.\iillpor., Chemung County; Village of Naples, Ontario County;
Village of Nassau, Rensselaer
County; Villag;:-of New Banford, Oneida County; Village of New York MiUs-,
Oneida County; Village of
Old Westbury, ~assau County; Village of Orch$!d,Park. Erie County; Village
of Oyster Bay Cove, Nassm..
County; Village of Pawling, Dutchess County; VUJ.age of Poland, ~<:!"!rimer
County; Village of Pulaski,
Oswego County; Village of Quogue, Suflb~ County; Village of Roslyn, Nassau
County; Village of Roslyn
Harbor, Nassau County; Village of Saranac Lake, Franklin-Essex. Counties;
Village of Saugerties, Ulster
County; Village of Sconsvili.e, Monroe County; Vilia,ge of Sea Cliff, Nassau
County; Village of Sid.ney,
Delawai;e County; Vilhlge of Spencerport, Monroe County; VtUage of Sodus,
Wayne CoUDty; Vill;tge of
South. oiens Falls. Saratoga County; Village of Tnunansburg, Tompkins CoUnty;
Village of Tuckahoe,
Westchester County; Village of Upper Nyack, Rockland County; Village of
Warwick, Orange Counry;
Village of Wesley Hills, Rockland County; Village or West fle:versu:aw, Rockland
County; Village of
Westbury, ~&Ssau County: Village of Whitehall, Washington County; Village
of Whitesboro, Oneida
County· Village ofWilllston Park, Nassau County; Village ofV!!lley Str~am.
Nas.<lau County; Village of
Floral Park, Nassau County; Village of Schoharie, Schoharie County; and
we Counry of Suffolk..
IN ADDITION, by virtue of the authority vested in me by Sectioo 925-a of
the Real Property Tal(
without interest or penal~
the property taxes that were due by April 1, 2020, in the Village of Head oftbe
11"1:bor, Suffolk County,
and the Village of Ru.sscll Gardens, Nassau Colll\ty.

Law, I do hereb:y retroactively extend by twenty-one days the period foi: paying

IN ADDITION , by virtue of the authority vested in jlle by Section 29-a of
Article 2-B of the
'Executive Law to issue any directive durini1 a disaster emetgeacy necessary
to cope with the dis8.$lcr, J do
hereby issue the following directives for the pt:riod from the date of this Executive
Order LlirOllog.h June 20,
W20:

• AJJy JicenRee or franchisee·of a racetrack iu the Srate is hei-eby permitted
to operate such
racetracl- as of June 1, 2020, provided such racetrack docs I\Ot permit
any visitor or fan into the
facility, and allows on 5jte only essential personnel ; and ptov~ded
further tbnt such l.icensee o~
franchisee of a ra=-ack , ao.d .a.JJ essential persoDJ1el adhere to any c!ireotive
or guidance issued
by the Departme nt of Health and/~ by the Gaming Com.mission.
•

Executive Order 202.10 (as later extended by Executive Order 202.18 and
Executive Ortle.202,29)
which prohibited all non-essential gatherings of any size for any reason, is
hereby modified to
permit a gathering of ten or fewer mdividuals for any religious service or ceremony
, or for the
pwpos<:s of any Memorial Day sm>ice or commemoration, provided that social
distancing protocols
and cleaning end <lisinfection protocols required by the Department of1lealth
arc adhered m, and
provided further, that any drive-in or remore religious service may continue
in excess of the ten
persou liJnit -so IOQ& as there is oo in-persoi, contact between participants.
Vehicle caravans are
permittlld.
.

•

The authority of the Commissioner of Taxation and Finruice to abate hue .lili:ng
and payment
penalties pursuant to section 1145 of the Tax Law is hereby ex_panded to authorize
abatement of
interest and penalties for a period of up to 100 days for laxpayers who were
..equired to :filerel:ult)So
and rcmi1 sales and use iaxes by Matcb 20, 2020, for the sales tai,; quertcrly
period that ended
February29 2020.

lN ADDmON, by vhtue of the authority vested in me by Section 29-a
of Article 2-B of tbc
.&ecutive La,v, I he-roby snspend err modify the following provisions included
in faecutive Ordet 202.221
for the period from the dare of this Executive Order through June 20,
2020, unless an earlier date fa
specified below:

•

Article 5 oftbe Real Property Tax Law, and analogous provisioos of any other
genera.I or special
laws that regurr_: a tentative assessment roll to be filed on or before June 1,
2020, to allow the
tentative and fi]l3.] assessmeru rolls 10 be filed, at local option, up to 30 days
later than otherwise
allowable, to allow an assessing unit to set a date for heruing assessment complaint
s that is at least
21 days after the filing of the tentative roll, to allow notice of the filing of
the reotativeroll to be
published olely online so long as the date for bearing complaints :is prominen
tly displayed, to
suspend in-person inspection of the teonttive roll , and to allow loci!l Boards
of AsscssmentR.eview
to hear complaints remotely by conference cell or slmilar service, provided
that complainants can
present tb,eir complaints through such service and the public has the ability
to viow o; listen to suoh
procccdin g;

R.A. 126

case 1:20-cv-04 844-NGG- CLP Document 20-14 Filed 10/13/20 Page 3 of
3 PagelD #: 501

•

Section 1212 of the Real Property 1ax Law, to the ~x.tent necessary to allow the commissione
r of
taxation and finance to certil)• final slate equalization rate-, class ratios, and ol.ass equalization
rates,
if required, no later than ten dayspnorto the last date set by \aw for !evy of taxes of any municipal
corporation to which such equalization rate, class rdtios, and class equnlization rates are applicable:

•

Section 1512(1) of the Real Property Tax.Law and Sections 283.291 a.ud 283.221 of the Laws
of
Westche:,-ier County, are suspended to ~ow the County .E.xecutive to negotia1e with any town
supervisor or mayor of any city, to accept a lesser percentage of taxes, special ad valorem levies
or
special assessme~ which are otherwise due on May 25, t?tovided that mno event shall any town
or
ci:ty be required to pay rnore than sii,,iy percent The County Executive is empowered {O de1ermine
whether or .not penalties for late payment or interest are able io be waived dependent on whether
or
not such tow11 or city applies the County E>;:ecutive's crireriu for detertl:).UIUlg hardship due to
COVJD-19;
.

•

Section 283.221 of the Le.ws o{ Wc:stc.l1ester County is further suspended to tb,e e.xteut n~essary
to
require the supervisor of a town, to waive payment of penalties for late payr:o,cn~ of county and
counry district taxes uodey section 283.221 up to July 15, 2020, and wllive paYlllenl of peoalties
for
late pa}'m.ent of town and town district tax.es a.od 11SsessmeJ,\ts in lhc St>me manner, provided ,uob
town applies the County Exemttlve' s criteria for the de1ermination ofbard5hip due to COVID-19;

•

Sectio.n 1512(1) of the Real Property Tax Law and any penalty provision of the taX code of a
city ·
within Westchester County is furthat suspe.aded 10 the extent necessary to allow the mayor of
tha1
Ci Ly to waive tb<>paym.ent of penalties for late payment of county and county district tmt"s and
to
further waive payment of penalties for late payment of city and city district taxes and assessments
in
the same manne~, provided such city !!pplies the Coun:y E.~ecutive' s criteria for the deteII11iru11io.
n
ofhmlship due to COVID-19;

•

Section 5-18.0(2) of the N&Ssau County AdministrotiveCode, to the exteotnecc-ssary to allow
the
3S3au County Executive to extend until June 1, :2020, the deadline to pay without interest or
penalty tbe final one-half of school taxes upon real estate in such colW,ty.

-

GIVEN unde, my hand 31:ld ihe Privy Seal of the
State in. tb.e City of Albany this
twenty-first day of May io the year

two thousand twenty.

13Y IBE GOVER.i'\l"OR

Secretary to the Governor

R.A. 127

Case 1:20-cv-04844-NGG-CLP Document 20-15 Filed 10/13/20 Page 1 of 1 PagelD #: 502

No.202.33
~XEQJlTIVE ORDf,R
Continuing Temporary Suspeo~ion aod Modific,ation of Law~
Relating to the Disaster Emergency

WHEREAS, on March 7, 2020, I issued Executive Order Nwnbe, 202, declaring a State dis-dSte.i
emergency for the entire State ofNew York; e.nd

WHEREAS, both travel-related cases and community contact transmission of COVID-19 have

been ,documented in New York State and are cxpeoted to continue;

NOW, TilER'.EFORF., ~. Andtew M. Cuomo, Govemor of the State of ew York, by virtue of tbe
anthority vested in r:ne by Section 29-a of Article 2-B of the Executive Law to issa~ illlY directive during a
\ti,astet emergency necessary to cope with fue disaster, I do hereby issue tbe following directives fonhc
period .from 1he date of thi.s fa:ev-u1ive Order through June 21, 2020:
•

Executive Order 202.10, as later extended by Ex.ecutive Order 202. 18, Executive Order 202.29 and
as extended and amended by Executive Order 202.32, ·which prohibited all non-essential gaiherings
of any size for any reason, excepl fo; any religious ,ervice or ceremony, or for the pwposes- of any
Memorial Day service or CO!lllilemoration, whicJi -allowed teo or fewer individuals to gather,
provided that social distancing protocols and cleaning 1!Ild disinfection protocols- required by the
De_partment ofHealth are adhered to is hereby modified to J)C!IDi.t any non-essential gathering ohea
or fewer individuals. fur 11!\Y lawful purpose or reason, provided that gocial distancing protocolS' and
cleaning and disinfection prorocols required by the DepEll'tme.at of Health ure adhered to.

GIVEN imdcr my band and the Privy Seal of the
State in the City of Albany this
twenty-second day of May in the year
two thousand twenty.

BYTHEGOVERi.'<OR

/X,c; .

c--___

Secretary to the Governor

R.A. 128

Case 1:20-cv-04844-NGG-CLP Document 20-16 Filed 10/13/20 Page 1 of 1 PagelD #: 503

No, 202.42
E~EClfTIV:E _ OR D ER
Contin uing Temporary Su.s pension and Modifi cation of Laws
R elating to t be Di~ast er E mergency

WHEREAS, on l\1.;rch 7, 2020, I issued Executive Order Number 202., declaring a Stare disaster
~rui,rgeocy for the entire State of New York; and
WHEREAS, both travel-related cases and community conmct transmission of COVID-19 have
b;:en doc~e,a.ted in New York State and are expected to continue:
·
~ OW, THEREFORE, I,_ Andrew M. Cuomo, Governor of the State of New York, by virtue of the
authority vested in me by Section 29-a of Article 2-B of the Exeoutive Law to issue ;my directive during a
disaster emergen,cy oecessa.ry to cope with.~e disaster, I hereby issue the following directives fo r the
pctioci from fhe clal of this Executive Ordertbrougb.July lS, 2020:
•

The directive contained in Executive Order 202.35, as ex.ended and as amended by Executive Order
202.38, which amruided the directive in Executive Order 202.10 that limited all non-essential
gatherings to ten or fewer l:n~duals, is hereby further modij'ied to allow twenty-five (25) or fewer
individuals, for any lawful pUipose or reason. provided that the locati.on of the gathering is in a
regiou that has reached Phase 3 of the State's reopening, 3ll.d social distancing protocols and
cleaning and disinfection -ptotoco\s Tequired by the D.:partment of Health arc adhered to.

G I VEN undtlmyhand and theJ>ri vy Seal of the
Su.le in the City of Albany this
fifteenth day of Ji.me in the year two
thousand twenty.

BY THE GOV"eRNOR

Secretary to he Govd:ll.or

R.A. 129

Case 1:20-cv-04844-NG G-CLP Document 20-17 Filed 10/13/20 Page 1 of 2 PagelD #: 504

No,202.45
BXE~UTIVE ORDER

Continuing Tempoi:-.uy S11SJ>eosio11 and Modification of Laws
Relating to theDisaste:i- Emergency
WHEREAS. on March 7, 2020, I issued Executive Order Number 202, declariog a State.disa.-ier

emergency for the entire State ofNew Yodc; and

WHEREAS, both travel-related ~es lUld co.a,murli:ty contact lraosrnission ofCOVID-19 have been
documeoted in New York State and are expected to continue;

NOW, THEREFORE, I, Andrew M. Cuomo, Governor of the State ofNew Yolk, by virtue of the
authority vested in me by Section 29-a of Article 2-.8 of the Executive u.w to temporarily suspend or modify
:my statute, local Jaw, ordinance, order, rule, or regulc.tior:i, or pans thereat; of :u;y agency during a State disaster
emergency, if colllplianoe with 511Ch statute, local law ordinance, order, nilc, or regulation would prevent,
hinder, or delay action necessazy to cope with t]Je. disaster emergency or if necessary to assiSt o:i; aid in coping
with such disaster, 1 hereby extend any directive contlined in Executive Order 202.34 and 202.35, provided
such directive bas not been superseded by a subsequent duective, and further, I hereby temporarily suspend or
modify, for the per.iod from the d!3te of this Executive Order through July 26, 20Z0 the fol lowing:
•

Para,gra_ph (e) of sub<li<tision 1 of Section 581 of the Labor Law, to the extent n ~ to authorizetl!c:
Commissioner of Labor to issue a finding related to experience rating chru;ges ns permitted by the
Famil.ie.s First Coronavirus Response Act :u,.d inc=d beginning with tF>e benefit week starting March
9, 2020;

•

Subdivision 4 of seetion I of chapter25 oftlle laws of2020 is modified to tbe extent necessary to
_pJ;Ovide1hat in addition to any travel to a counuy for which the Ct.ntecs for Disease Control and
Prevention hai;a level two or three travel health ootic., all employee shall not be eligible for paid sick
leave benefits or any other paid benefits pursuant to this chapter if such employee volummily travels
which commences after June 25, 2020 to a state with a positive test rate higher thnn JO pct J00,000
.residents, or higher than a 10¾ test _positivity rate, over a seven day rolling average, ~nd which the
commissioner of th~ department of health bas de!;igwited as meetiog these conditions as outlined in the
advisory issued pursllD.llt to l:xocunve Order 205, and the oovel wns not taken as pilrt of the employee 's
employment or lit the directioll of the employee •~ employer;

•

Section 28-66 of the Charter of th.e City of Buffalo, to the e.xtent necessary lo allow t:be M;zyorto waive
thc-adtlitions prescribed therein on unpaid 2019-2020 city taxes for the monl!is of April, May and June
of2020, and to require payments of 2019-2020 city taxe!> that :u:emade a£h:,- June 30, 2020 to be made
withour additiot1!.for the months of April , May aod June of2020;

lN ADDil'IO , by virtue of the authority ve ted inme by Section 92-5,a oftheRea.lPropertyT oxLaw
e,crend during a State disaster emergency tl:te period for paying property tall:es without interest or ~nalties
upon request of the chief c.-.cccui:ive officer of an affected county, city, town. village or school di,;trict, Tdo
hereby extend by twenty-one clays the period for poyiz\g, without interest or penalty, property nixes that are due
in ihc following localities th3t have requested S1Jcb llll extension: Villa~ of Ossining, Westch<:Stcr County;
Viii.age of Pomona, Rockland County;
IO

IN ADDITJON, by virtue of the authority vest~d in rne by Section 29.a of Anicle 2-B at the Ex.coum
Law 10 issue any directive during a disrulet- emergency necessary to cope with thecli5astei:, lliereby issue the
li>llowing directives for the period from the dale of this Executive Order through July 26, 2020:

R.A. 130

case 1:20-cv-04 844-NGG- CLP Document 20-17 Filed 10/13/20 Page 2 of
2 PagelD #: 505

•

Toe dire-.--tive coalained in Executive Order 202.35, as extended and as amended by Executive
Order
202.38 and Executive Ord<'r20?..42 , which amended the directive in ~utive Order 202.101"nt
limired all non-essential gatherings, is hereby further modified to allow gatberings of fifty (50)
or fewer
uidividuals for eny lawful purpose or reason, so long as any such gatherings occurring indoors
do not
exceed 50% of the maxftnLllll occupancy for a particular indoor :irea, and provided that.the location
of
the gathering is in a region that bas .reached I'hase 4 of the Stale's reopening, and provided further
thn\
soci3! distancing, fa ce covering, and cleaning :u,d disinfection protocols required by the
Department of
Health are •dbel'.ed to.

•

E.-.:ecutive Order 202.41, which mended the provis~ons ofBxccutlve Orders 202.3, 202.4, 202.5,
202.6,
202.7, '.202.8, 202.10, 102.1 l, 202.13, 202.14, 202.28, 202.31 , 202.34, and 202.35 which each
closc:d Of
otherwise restricted _public or privllte businesses or places of public accommodation, is hereby
continued
untihmd unless later amended or extend~ by a future Executive Oeder, provided, however.

o That effe.:tive on June 26, 2020, the reduct.ions 'ollld restrictions oo th.e in-person ,vorkforce at
non-essential businesses or other entities shall no longer apply to Phase Pour indUStries, as

detenmn,ed by the Department. of Health, in eligible regions, including:
• Higber Education;
• Film and)fusic Production;
• Low-risk indoor arts and ~otenainmeot;
• Lov,..risk outdoor arts and entcmainment; and
• Professional Sports without fans.
Businesses or entities in industries open in Ph.ase Four must be opemc:d in compliance witb
the
.guidance promulgated by the Dcpm:tme.nr of Health,
o As of June 26, 2020 th.c regions meeting th.e prescribed public healtbMd safety metri,;:~ required
for Pbase Four recproin_g are; Finger Lakes, Ccnll"al New York, Mohawk V~ley, Southern Tier:,
lllld the North Country. Any additional regions which meet tbc critori3 after such date will be
deemed to be incorporated into this Executive Order witbotn fw:the:r revision and will be
permitted to re-Qpen Phase Four industries, subject to the same umns and condition&.
o Any previous directive that restricted oper.ition of-any industry, b1.1Siness, or facility that i5
permitted to open in Phase One, Phase Two, Phase Three, or Phase FOUI is hereby superseded,
ooly insofar s.s it is inoonsistent with any Ela:cutivc Order allowing busi=s, industrie.;, and
facl lil.ics to reopen.
•

'Tile directive contained io Executive Order 202.44 regarding elective sllfgei;ies is hereby amended
to
provide tlurt the iilrective contained in Executive Order 202.10 authorizing the Commissione
r ofHealilt
t0 direnta11 general \lospitals, ambulatory surgery centers, office.-based
surgery practices and diagnosticand treaJment cenl..-rs to increase th.e number of beds availl,ble to patients, including by canceling
aU
elective surgeri.es and procedures, is hereby modified 10 authorize general hospita,ls to perform
elective
, urgeries and procedures so long as the cstabli~ed criteria are met currently whether or
not such
criteria were met on the dares set fortlt in ·suc:h directive, and u modified by tbe Juoe I 411> Department
o
Health guidan.ce.

•

Exlx;utive O.rtler :202.34, which extended the directive contained in Executive Orders 202.28,
102.18,
202.14 and 202.4 as amended by Executive Order 202. t 1 related to the closure ofscbools s=wide,
is
hereby continued to p{Ovide that all schools shall remain closed to in-person instruction except
fo, the
plllJlOSC o,f provision ofs~ia\ education services. School dismcts must ensure the. availability
of meals,
and chi.ld can:, with an emphasis on serving children of essential wor!<crs. Mca.ls may be provided
by an
altemative entity, provided that the school district shall be responsible for ensuring th;,t
:i.11 children have
acoess 10 free m.eals. Should tho students oot have access ihrough au a.1temative entity, the
school
district must provide the meals.

G 1 V E N uodCT my hand and tho Privy SeaJ oftb.e
State ln th,:. City of Albany th.is tw.,nty-

sfxth day of Juoe io the year two
thousand twenty.

BY THE GOVER.NOR

R.A. 131

Case 1:20-cv-04844-NGG-CLP Document 20-18 Filed 10/13/20 Page 1 of 2 PagelD #: 506

No.'205

QUARANTINE RESTR1C1'10NS O

'.(RAVELERS ARRrVJNG IN l'!EW YORK

WHEREAS, the State ofNcw York has successfully slowed the trllllSCl.ission ofCOVID-19;
WHEREAS, the .State of New York has gone from haVlllg the highest infection .r.ue to one of the
lowest in the country and is one of ooly a few states reported to be on track to conrain COVID-19;
WHEREAS, the Governor has undertaken a <:autiollli, incre:maitaJ and evidencc~basc:d -approach to

reopening the State ofNew York;

WHEREAS, other states that may have taken a less cautious approach are e)IJ>ttiencing an

increased prevalence of COVID-19;

WHEREAS, New York mLISt work u:,. OOllJll!J.Otion wjth iti; neigh.boring stateg of 1ew Jersey aoci
Connccticu(, in light of the significant i;isk; posed to the health and welfare of all residentS by the funher
spread of COVID-19 to the trjstare m:ea, 1.0 p,otect the p;o_g)'tlss 1113de;
NOW, TBEREFORE, I, Andrew M. Cuomo, Govemor of the State of New York. by virtQe of the
authority vested in me by the Constitution and the Law$ of the State of New York, in particular Article IV,
section one, r do hereby (lrdec and direct as foUows:
The commissioner of the Department of Health to issue a travel sdvisaty to be communicated
widely at all majol'points of e.Iltl)' into New Yodt, including on highway message boards and in all New
Yotlc airports, that:

All mvelel'S entering Ne-w York from ast;¼te with;i positive test rate higher tbao. l 0per 100,000
residents, or higher than a 10% test l)OSitivity rate, overa s = day rolling average, will be required 10
quarantine for a period of 14 days c=s'i~-tent with Department of He.uih regulations for quarantine.
The Commissioner may issue additiooal protocols for ~ntie.1 wor'ker.;, or for other extraordinary
circumstances, when a quaraolioe is not possib1e, provided such measures continue to safeguard the public
healtn.
The criteria and the protocols will be coordinated with New Jersey and CODllecticut ColllJlllSSioners
of Health, .in order to ensure that the tristate .11Jea is protected from community transmission of CO VID- l9,
while permitting free travel ber.¥ecn and amon_g the states.
The Commissioner ofHealth in New York shall make public the impacted juri:;dictions on its
website and such travel adviSOIJ will be effective at 12:01 a.m.. onJwie 25, 2020 until n:~cicd..:d hy the
Commissioner.
Any violation of a quarantine or isolation order issued to an individual pursuant to Ifie
Co=issioner of the Department of Health's lrave). advisory by a local department nf health or st.Ito

R.A. 132

Case 1:20-cv-04844-NGG-CLP Document 20-18 Filed 10/13/20 Page 2 of 2 PagelD #: 507

department of health may be enforced pursuant to article 21 of the public health law, and non-compliance
may additionally be deemed a violation pursuant to sec1i.on 12 of the public health law subject to a civil
penalty ofupto $10,000.

GIVEN under my hand and the Privy Seal of the
State in the City of Albany this
twenty-fourth day of June in the year
two thousand twenty.

BY THE GOVERNOR

Secretary to the Governor

R.A. 133

Case 1:20-cv-04844-NGG-CLP Document 20-19 Filed 10/13/20 Page 1 of 2 PagelD #: 508

No, 20Z.6J
l;XEOUT JV E. ORDER
Co ntinuing Temporary Suspension sJ1d Modification of Laws
Relating ro the Disaster Emergency

WBER.tAS, on March 7, 2020, I issued Executive Order Number 202, ileclatiog a State disaster
emergency for the eotire St!te of New Yock; and
WHEREAS, both tmvel-relared cases and community contact trnnsm.issfon ofCOVID-19 have bcj:n
docwnented in. 1ew York Stare and are expected to continue;

NOW, 'IlIEJ.{EFORE. I, Andrew M. Cuomo, Governor of the State of New York,, by virtue of1he
authority vested in me by Section 29-a of Anicle 2-B oHbe Executive Law to temporarily SU6paod or modify any
stanu.e. Joeal law, ordinance, order, tu.le, or \'t&ulation, or paiu tb,ereof; of any agency quring a State disaster
emergency, if CQmpliao.ce with such starute, local law, ordioaoca, orde_r, rule, or regulation would prevent, hinder,
or delay aation necessary to cope with the disaster emergency or if necessary to assist or aid -in coping witli such
disaster, I bereby temporarily suspend or modify, for the, period from the date of this E.,cecutive Order through
October 9, 2020 the {())lowing:
•

Subdivision l of section 579 of the Public Health Law is modified t o the exteot necessary to ,:equire
immediate reporting (oot more thao 3 hours) of results of COVID-19 and influen:ut testing by additioonl
clinical laboratories, including those ope.atcd by a. licensed physiciu\, ostt:opath, dentist, midwife, nurse
practitioner ·o r optometrist who is authorized by the Food and Drug AdminL<tration {FDA) or
Depnrnneot ofHealth to administer a point of care COVID-19 res, and registered with the Dep:irtment"
oftJ:calth as a physician office laboratory, in aCCQrdance with section 576-c of the Public Heallh Law
and Section 58-1.14 of Title 10 of the l'I-YCRR; provided fu.rthcr as it relates to COVID-19 testing,
containing information pertain.log to attendance and employment in school as required by the below

directives,

JN ADDr:I']ON, by virruc of the authority V"3tcd inme by Seotion 29-a of Article 2-B oftheEx.ecuuve
Law to issue '1'1)' direotive during a dis~cr emergency necessary to cope with the disa,,ier, r do hereby issue the
following direclives through. October 9, 2020:
•

Every licensed professional authopzed by the Department of Health Physician Office Laboratory
Evaluation Program to administer a test fur COVID-19 or influenza, whether alone or in conjuoirtion
with any othc:i: cesi:, shall report such results immediately (not more than 3 hours) to the Department of
Health through the El=onic Clinical Laboratory Reporting System (ECLRS) when 'I result is received.
o Provided further tJ:u,i evc,:y professional authorized to adatlnister a test for COVID-19 shall not
take such sample m: administer such test without inquiring, if such individual attends school, and
ifso, as to where ouch individual attends school and to repon such data to ECLRS; ard as to
pTace of employment, and whether (be individl!lli works or volunteers _in an e!.,me-nmry,
.secondary school, or poSt-secondary school, and if so, to report such dam to ECL;RS.
o Additionally, every professional a uthorized to administ.,,- a test fot COVID-19 shall not take
such sample or administer such test witl:\out inquiring as to the individual• s local address, if such
address differs from tlte individual's permanent address, and such local address must be repoi;:r.od

toECLRS.

•

Every licen,ed laboratory tn the state of New Yodc shall require thal, pcior to processin_g sny specimen
for a COVID•) 9 test, alope m: in cor~unctioo with a test for any other communicable disea!;e,
information related to ~hool of attendance, or place of cmplojrmmt or volunteer work for any adult, be
trailsmitled such laboratory along with.such sample. Sucb infonnatian must be reponed tO the State
Deoariment ofHeallh vis ECLRS .

,o

R.A. 134

Case 1:20-cv-04844-NGG-CLP Document 20-19 Filed 10/13/20 Page 2 of 2 PagelD # : 509

•

Every local bealtl\ 11epamnentin the state-ofNew York shall rcpon to the Department ofReah:h. on a
daily basis, in a form and manner to be< determined by the Department, all COVID-1 9 testing and
diagnoses foc any individual who is a student., teacher, and any other individual who is a school
employee or volunt.eer, for both higher-and lower ~ucation institutions and districts. Such dai1y report
shall include any other dslll elements as 1he Commissioner of Health determines to be appropriate to
track outlmaks of COVID-19 within higher and lower educa'\iol\ institutions, schools and school
districts.

•

Every school and school district shall report to the Dcprutment of Health, on a daily basis, in a form and
manner to be determined by the Department, all COVJD-19 testing and diagnoses among students,
,eaching stafl;. and any other employees or volunteersc Such daily report sh;ill include any other data
elements as the Commissioner of Health determines to be appropriate 10 ttack outbreaks of COVID-19
within such sobools and school districts.

•

Every higher education institution, including bu1 not limited to COillilluni.ty and junior colleges,

uliive:rsilies, graduate and professional schools, medical schools, and t-echrucal schools, shall report to
the Department of Health, oo a daily basis, in a form and manner to be determined by the Department,
all COVID- ~9 testing and disgnoses among any on-campus students, teaching stat£, and any other

employees or vo!untccn;'. Such daily report shall include o.ny other dal.11 elements as the Commissioner of
Health determines to be appropriate to track outbreaks ofCOVID-19 within such higher educslibn
institutions, and provided further, that additional notification to the Department of H.ealth is. rcquii:cd
once an institution reacbes 1DD positive cases.

•

A.iiy directive, modification o_r suspension heretofore issued to authorize individuals to administer or

process any COVID-19 test shall apply to any FDA approved method to test for COVID-19 in

conjum:tiop, wi1h any other communicable disease.

•

All boards of elections shall develop a plan to allow a regisrered vote, to <!{op off a completed absentee
ballot at a board of election, early voting location. or election day voting location. without -requiring 1:hey
wait in line wrth in-perSO'n vote~ to help minimize a.,Jays during in-person voting and promote
contactless voting, Plans must be subori~d to the State Boru'd of Elections by September 21 , 2020, and
made publicly available in the county board of elections office and on their website wh.en submfued.

•

For any absentee ballot issued pursuant to Chapter 91 and Chapter 138 of the Laws of2020 and/or the
provisions of Executive Order 202.58 for which a paper application need not be retllmed by the votec
because the voter t1ppliod. for a,n absentee ballot by le1ter, email, facsimile, phone, internet or
electronically, the board of elections shall not send such voter a paper absentee ballot app!(cai.ionwitl1
1heir ballot, and suc)l voter :shall not-bo required to complete a pajltl! application either pcior to or
simultaneously to receiving t:he ballot.

•

The directive in Executive Order 202.48, which modified ihe directive conrained in .E;,cecutive Order
202.41. that prohibited indoor food services and dining as part of/'hase Three in New '¥ork Oity, is
hereby modified to allow indoor food services and dining in New York City heguming September 30,
2020, so long as Department of Hea:lt:h and any other applicable State--issued guidance is strictly adher-ed

w.

G IVEN und.er my b>wd and ihe Privy Seal of the
Sm.te in the City of Albany this ninth
day of September in the year t\vo

thousand rweniy.

BY THE GOVERNOR

/1tt, .

Secretary to the Governor

R.A. 135

How 'Superspreading' Events Drive Most COVID-19 Spread - Scientific American

Case 1:20-cv-04844-NGG-CLP Document 20-20 Filed 10/13/20 Page 1 of 6 PagelD # : 510
PUBLIC HEALTH

How ‘Superspreading’ Events Drive Most COVID-19 Spread
As few as 10 percent of infected people may drive a whopping 80 percent of cases

in specific types of situations

By Christie Aschwanden on June 23, 2020

Credit: Getty Images

In late February about 175 executives from around the world came to the biotechnology company
Biogen’s leadership conference in Boston. Over two days, attendees shook hands, talked among
themselves and shared meals. Also in attendance: the new coronavirus. Several people at the
event were unknowingly infected with the microbe that causes COVID-19, and it quickly spread
among others there, who then brought it home. At least 99 people ended up sick in Massachusetts
alone.

https://www.scientificamerican.com/article/how-superspreading-events-drive-most-covid-19-spread1/?print=true[8/5/2020 3:05:45 PM]

R.A. 136

How 'Superspreading' Events Drive Most COVID-19 Spread - Scientific American

Case 1:20-cv-04844-NGG-CLP Document 20-20 Filed 10/13/20 Page 2 of 6 PagelD # : 511

Around the same time, the coronavirus was spreading among more than 100 people who went to
a funeral in Albany, Ga. sparking an outbreak that soon led to the surrounding rural county
posting one of the nation’s highest cumulative incidences of COVID-19. The next month a single
individual with the disease infected 52 people during a two-and-a-half-hour choir practice in
Washington State. Two people died. In Arkansas, an infected pastor and his wife passed the virus
on to more than 30 attendees at church events over the course of a few days, leading to at least
three deaths. And these new cases spread to 26 more people, at least one of whom died.

As scientists have learned more about COVID-19, it has become clear that so-called
superspreader incidents—in which one person infects a disproportionate number of other
individuals—have played an oversized role in the transmission of the virus that causes the
disease. The Boston conference and the funeral in Georgia were among several superspreader
events that played “a notable role in the early U.S. spread of COVID-19 ,” according to a report by
Anne Schuchat, principal deputy director of the Centers for Disease Control and Prevention. In
fact, research on actual cases, as well as models of the pandemic, indicate that between 10 and 20
percent of infected people are responsible for 80 percent of the coronavirus’s spread.

ADVERTISEMENT

These numbers mean that preventing superspreader events could go a long way toward stopping
COVID-19, says Samuel Scarpino, a network scientist who studies infectious disease at

Northeastern University. Scientists have identified factors that catalyze such events, including
large crowd sizes, close contact between people and confined spaces with poor ventilation.
Current evidence suggests that it is mostly circumstances such as these, rather than the biology of

specific individuals, that sets the stage for extreme spreading of the novel coronavirus.
When describing how the SARS-CoV-2 virus spreads, epidemiologists not only use the average
number of other people that one individual infects but also employ another key value called the

https://www.scientificamerican.com/article/how-superspreading-events-drive-most-covid-19-spread1/?print=true[8/5/2020 3:05:45 PM]

R.A. 137

How 'Superspreading' Events Drive Most COVID-19 Spread - Scientific American

Case 1:20-cv-04844-NGG-CLP Document 20-20 Filed 10/13/20 Page 3 of 6 PagelD # : 512
dispersion factor, or “k.” This number describes how much a disease clusters. A small k generally

means that a relatively small number of cases are responsible for transmissions, while a larger k
indicates that transmissions are more evenly spread. In Hong Kong, researchers calculated that in
more than 1,000 COVID-19 cases they examined, the value for k was 0.45. That value was higher
than that of SARS or MERS—two previous viral outbreaks that featured superspreading—but

much lower than that of the 1918 flu pandemic. In other words, SARS-CoV-2's transmission is not
as reliant on superspreading as SARS and MERS were but is far more dependent on it than

influenza, Scarpino says.
The novel coronavirus seems to primarily spread via respiratory droplets produced by an infected
individual during coughing, sneezing, talking or breathing. The next person becomes infected by
inhaling these droplets into his or her lungs or by getting them in the nose or mouth. If people got
sick right away after they were infected, they might stay at home in bed, giving them few
opportunities to transmit the virus. Instead individuals with COVID-19 are contagious before they
have symptoms, says Lauren Ancel Meyers, executive director of the University of Texas at Austin
COVID-19 Modeling Consortium. The CDC estimates that about 40 percent of transmissions
occur before the infected person has any symptoms and that symptoms take an average of six
days to begin. That time gives an infected individual a long window to come into contact with
other people—and to perhaps get into a situation ripe for superspreading.

Researchers have identified several factors that make it easier for superspreading to happen.
Some of them are environmental. For instance, poorly ventilated indoor areas seem especially
conducive to the virus’s spread. A preliminary analysis of 110 COVID-19 cases in Japan found that
the odds of transmitting the pathogen in a closed environment was more than 18 times greater
than in an open-air space
············································· And the authors concluded that confined spaces could promote
superspreader events. (The study has not yet been peer-reviewed.) Another preliminary preprint
study, by researchers in London, examined clusters of COVID-19 cases and found that nearly all
of them were indoor or indoor-outdoor settings. The largest clusters were found in indoor spaces
such as nursing homes, churches, food-processing plants, schools, shopping areas, worker
dormitories, prisons and ships.

Unsurprisingly, another thing these superspreader venues have in common is that they are places

https://www.scientificamerican.com/article/how-superspreading-events-drive-most-covid-19-spread1/?print=true[8/5/2020 3:05:45 PM]

R.A. 138

How 'Superspreading' Events Drive Most COVID-19 Spread - Scientific American

Case 1:20-cv-04844-NGG-CLP Document 20-20 Filed 10/13/20 Page 4 of 6 PagelD # : 513
where large numbers of people congregate. The more individuals you pile into one place, the

greater the opportunity for the coronavirus to infect many people at once, Meyers says. “If you

max out at five people, it will be very hard to have a superspreading event," she adds. But as a
group’s size increases, so does the risk of transmitting the virus to a wider cluster. A large group
size also increases the chance that someone present will be infectious.

ADVERTISEMENT

Time matters too. The longer a group stays in contact, the greater the likelihood that the virus will
spread among them. Exactly how much time someone needs to pick it up remains an unanswered
question, says Syra Madad, a special pathogens expert at NYC Health + Hospitals. She adds that
the benchmark used for risk assessment in her contact-tracing work is 10 minutes of contact with
an infectious person, though the CDC uses 15 minutes as a guideline. Essential workers such as
grocery store checkers and nursing home employees interact with large groups by necessity and
work in situations primed for superpreading. Meyers says that if we want to contain COVID-19,

we will have to find ways to protect them and make their workplaces less favorable to such events.
What people are doing matters, too, because some activities seem to make it easier to spread

respiratory gunk. We have all seen droplets go flying when someone coughs or sneezes. But even
when you talk, you emit a “tremendous amount” of particles, says University of California, Davis,
chemical engineer William Ristenpart. “Nobody thinks about them, but they’re there,” he says.
Ristenpart’s team has found that speech emits more particles than normal breathing. And
emissions also increase as people speak louder. Singing emits even more particles, which may
partially explain the superspreader event at the Washington State choir practice. Breathing hard
during exercise might also help the spread of COVID-19. Fitness dance classes held in small
rooms with up to 22 students at a time were linked to 65 cases of the disease in South Korea. But
yoga classes at one of the same facilities were not linked to any clusters. A study of COVID-19
clusters in Japan found cases connected to exercising in gyms, karaoke parties, cheering at clubs
and holding conversations in bars, providing further evidence that these activities may aid

https://www.scientificamerican.com/article/how-superspreading-events-drive-most-covid-19-spread1/?print=true[8/5/2020 3:05:45 PM]

R.A. 139

How 'Superspreading' Events Drive Most COVID-19 Spread - Scientific American

Case 1:20-cv-04844-NGG-CLP Document 20-20 Filed 10/13/20 Page 5 of 6 PagelD # : 514
transmission.

Ristenpart and his colleagues have not yet confirmed that the particle-emission changes they saw
affect transmission of the novel coronavirus. Their study did not measure SARS-CoV-2 itself. But
the airborne particles are presumably important carriers of viral particles. The scientists also have
found intriguing evidence that a small subset of people may behave as “speech superemitters”—
individuals who consistently broadcast an order of magnitude more respiratory particles than

their peers. "It is very difficult to identify who is going to be a superemitter ahead of time," he
says. “One of the superemitters was a very petite young woman. And I was a bigger, bulkier guy
and was not a superemitter.”

-

Sign up for Scientific American's free newsletters.

The evidence about superspreading activities has led researchers to believe they are responsible
for much of the new coronavirus’s transmission. “All of the data I’m seeing so far suggest that if
you tamp down the superspreader events, the growth rate of the infections stops very, very
quickly,” Scarpino says. “We saw in Seattle that there were at least a couple of introductions that
did not lead to new cases”—implying that the virus can fade out if it is denied circumstances for
spreading.

But in the U.S.—where there have been nearly 2.16 million cases and more than 117,000 deaths—
those situations may be on the rise. States are reopening businesses and activities, which means
more people are coming in contact with one another in larger groups. So minimizing conditions
that allow superspreading events to happen will be crucial for keeping COVID-19 in check. In
advised people to avoid situations with the three C’s.: closed spaces
Japan, health officials have ...........................................................................................
with poor ventilation, crowded spaces and close-contact settings. A virus’s ability to infect is not
entirely a property of that pathogen, says Cristopher Moore, a computer scientist at the Santa Fe
Institute who models virus-spreading events. “It’s a property of how the virus and human society
https://www.scientificamerican.com/article/how-superspreading-events-drive-most-covid-19-spread1/?print=true[8/5/2020 3:05:45 PM]

R.A. 140

How 'Superspreading' Events Drive Most COVID-19 Spread - Scientific American

Case 1:20-cv-04844-NGG-CLP Document 20-20 Filed 10/13/20 Page 6 of 6 PagelD # : 515

interact,” he notes, and that’s something we have the power to change.

ADVERTISEMENT

Read more about the coronavirus outbreak from Scientific American here. And read coverage
from our international network of magazines here .

ADVERTISEMENT

ABOUT THE AUTHOR(S)

Chri~ie Aschwanden

Scientific American is part of Springer Nature, which owns or has commercial relations with thousands of scientific publications (many of them can be found
at www.springernature.com/us ). Scientific American maintains a strict policy of editorial independence in reporting developments in science to our readers.

© 2020 SCIENTIFIC AMERICAN, A DIVISION OF SPRINGER NATURE AMERICA, INC.

ALL RIGHTS RESERVED.

https://www.scientificamerican.com/article/how-superspreading-events-drive-most-covid-19-spread1/?print=true[8/5/2020 3:05:45 PM]

R.A. 141

10113/2020

~

~.,-~ Centers for Disease
Control and Prevention

'!i !lt'j

1VU~.

Morbidity and Mortality Weekly Report (MMWR)
Weekly I May 22, 2020 / 69(20);632-635
On May 19, 2020, this report was posted online as an M MWR Early Release.

Allison James, DVM, PhD 1•2 ; Lesli Eagle'; Cassandra Phillips1; D. Stephen Hedges, MPH'; Cathie Bodenhamer'; Robin Brown,
MPAS, MPH ' ; J. Gary Wheeler, MD 1; Hannah Kirking, MD 3 (View author affiliations)
View suggested citation

Summary

Article Metrics

What is already known about this topic?

Altmetric:
News (218)

Large gatherings pose a risk for SARS-CoV-2 transmission.

Biogs (15)

Policy
documents

What is added by this report?

(2)

Twitter (7497)

Among 92 attendees at a rural Arkansas church during March 6-11, 35 (38%) developed
laboratory-confirmed COVID-19, and three persons died. Highest attack rates were in
persons aged 19-64 years (59%) and ,!:65 years (50%). An additional 26 cases linked to the
church occurred in the community, including one death.

Facebook
(19)

Wikipedia (1)
Reddtt (34)

Citations: 4

What are the implications for public health practice?
Faith-based organizations should work with local health officials to determine how to
implement the U.S. Government guidelines for modifying activities during the COVID-19
pandemic to prevent transmission of the virus to their members and their communities.

Views: 330,599
Views equals page views
plus PDF downloads

IMl·SMM

Figure

no A

PRIMARY CASES

2 symptomatic people
attended church events
March 6-8, later tested
positive for COVID-19

CHURCH CASES

At least 3S of 92
attendees acquired
COVID -19, 3 deaths

CDC.GOV

COMMUNITY

Tables
Table 1

D
D

Table2

From contact with
chu rch cases, at least
26 additiona l cases
were confirmed,
1 death

-

bit.l~/MMWA0Sl920

References

Related
Materials

•

On March 16, 2020, the day that national social distancing guidelines were released ( 1), the
PDF
[1101<]
Arkansas Department of Health (ADH) was notified of two cases of coronavirus disease 2019
(COVID-19) from a rural county of approximately 25,000 persons; these cases were the first
identified in this county. The two cases occurred in a husband and wife; the husband is the
pastor at a local church (church A). The couple (the index cases) attended church-related events during March 6-8, and
developed nonspecific respiratory symptoms and fever on March 10 (wife) and 11 (husband). Before his symptoms had
developed, the husband attended a Bible study group on March 11. Including the index cases, 35 confirmed COVID-19 cases
occurred among 92 (38%) persons who attended events held at church A during March 6-11; three patients died. The agespecific attack rates among persons aged s 18 years, 19-64 years, and ,!:65 years were 6.3%, 59.4%, and 50.0%, respectively.
During contact tracing. at least 26 additional oersons with confirmed COVID-19 cases were identified among communitv
116

https://www.cdc.gov/mrrrNr/volumes/69/wr/mm6920e2.htm

R.A. 142

10113/2020

members who reported contact with church A attendees and likely were infected by them; one of the additional persons was
hospitalized and subsequently died. This outbreak highlights the potential for widespread transmission of SARS-CoV-2, the
virus that causes COVID-19, both at group gatherings during church events and within the broader community. These findings
underscore the opportunity for faith-based organizations to prevent COVID-19 by following local authorities' guidance and the
U.S. Government's Guidelines: Opening Up America Again (2) regarding modification of activities to prevent virus transmission
during the COVID-19 pandemic.
On March 1Oand 11, the wife of the church pastor, aged 56 years, and the pastor, aged 57 years, developed fever and cough.
On March 12, the pastor, after becoming aware of similar nonspecific respiratory symptoms among members of their
congregation, closed church A indefinitely. Because of fever, cough, and increasing shortness of breath, the couple sought
testing for SARS-CoV-2 on March 13; both were notified of positive results by reverse transcription-polymerase chain reaction
testing on March 16. The same day, ADH staff members began an investigation to identify how the couple had been exposed
and to trace persons with whom they had been in contact. Based on their activities and onset dates, they likely were infected
at church A events during March 6-8 and the husband might have then exposed others while presymptomatic during a Bible
study event held on March 11.
During March and April 2020, all persons in Arkansas who received testing for SARS-CoV-2 at any laboratory were entered into
a database (Research Electronic Data Capture [REDCap]; version 8.8.0; Vanderbilt University) managed by ADH. Using a
standardized questionnaire, ADH staff members interviewed persons who had positive test results to ascertain symptoms,
onset date, and potential exposure information, including epidemiologic linkages to other COVID-19 patients; this information
was stored in the database. Close contacts of patients with laboratory-confirmed cases of COVID-19 were interviewed and
enrolled in active symptom monitoring; those who developed symptoms were tested and their information was also entered
into the database. Church A-associated cases were defined as those in 1) persons who had laboratory results positive for
SARS-CoV-2 who identified contact with church A attendees as a source of exposure and 2) actively monitored contacts of
church attendees who had a test result positive for SARS-CoV-2 after becoming symptomatic.
The public health investigation focused on the transmission of SARS-CoV-2 among persons who attended church A events
during March 6-11 . To facilitate the investigation, the pastor and his wife generated a list of 94 church members and guests
who had registered for, or who, based on the couple's recollection, might have attended these events.
During March 6-8, church A hosted a 3-day children's event which consisted of two separate 1.5-hour indoor sessions (one on
March 6 and one on March 7) and two, 1-hour indoor sessions during normal church services on March 8. This event was led
by two guests from another state. During each session, children participated in competitions to collect offerings by hand from
adults, resulting in brief close contact among nearly all children and attending adults. On March 7, food prepared by church
members was served buffet-style. A separate Bible study event was held March 11; the pastor reported most attendees sat
apart from one another in a large room at this event. Most children and some adults participated in singing during the
children's event; no singing occurred during the March 11 Bible study. Among all 94 persons who might have attended any of
the events, 19 (20%) attended both the children's event and Bible study.
The husband and wife were the first to be recognized by ADH among the 35 patients with laboratory-confirmed COVID-19
associated with church A attendance identified through April 22; their illnesses represent the index cases. During the
investigation, two persons who were symptomatic (not the husband and wife) during March 6-8 were identified; these are
considered the primary cases because they likely initiated the chain of transmission among church attendees. Additional
cases included those in persons who attended any church A events during March 6-11, but whose symptom onset occurred
on or after March 8, which was 2 days after the earliest possible church A exposure. One asymptomatic attendee who sought
testing after household members became ill was included among these additional cases.
Consistent with CDC recommendations for laboratory testing at that time (3), clinical criteria for testing included cough, fever,
or shortness of breath; asymptomatic persons were not routinely tested. To account for this limitation when calculating attack
rates, upper and lower boundaries for the attack rates were estimated by dividing the total number of persons with
laboratory-confirmed COVID-19 by the number of persons tested for SARS-CoV-2 and by the number of persons who
attended church A during March 6-11, respectively. All analyses were performed using R statistical software (version 4.0.0;
The R Foundation). Risk ratios were calculated to compare attack rates by age, sex, and attendance dates. Fisher's exact test
was used to calculate two-sided p-values; p-values <0.05 were considered statistically significant.
Overall, 94 persons attended church A events during March 6-11 and might have been exposed to the index patients or to
another infectious patient at the same event; among these persons, 92 were successfully contacted and are included in the
analysis. Similar proportions of church A attendees were aged :S18 years (35%), 19-64 years (35%), and ~65 years (30%) (Table
216

https://www.cdc.gov/mrrrNr/volumes/69/wr/mm6920e2.htm

R.A. 143

10113/2020

1). However, a higher proportion of adults aged 19-64 years and ~65 years were tested (72% and 50%, respectively), and
received positive test results (59% and 50%), than did younger persons. Forty-five persons were tested for SARS-CoV-2, among
whom 35 (77.8%) received positive test results (Table 2).
During the investigation, two church A participants who attended the March 6-8 children's event were found to have had
onset of symptoms on March 6 and 7; these represent the primary cases and likely were the source of infection of other
church A attendees (Figure). The two out-of-state guests developed respiratory symptoms during March 9-10 and later
received diagnoses of laboratory-confirmed COVID-19, suggesting that exposure to the primary cases resulted in their
infections. The two primary cases were not linked except through the church; the persons lived locally and reported no travel
and had no known contact with a traveler or anyone with confirmed COVID-19. Patient interviews revealed no additional
common exposures among church attendees.
The estimated attack rate ranged from 38% (35 cases among all 92 church A event attendees) to 78% (35 cases among 45
church A event attendees who were tested for SARS-CoV-2). When stratified by age, attack rates were significantly lower
among persons aged 5 18 years (6.3%-25.0%) than among adults aged 19-64 years (59.4%-82.6%) (p<0.01 ). The risk ratios for
persons aged 518 years compared with those for persons aged 19-64 years were 0.1-0.3. No severe illnesses occurred in
children . Among the 35 persons with laboratory-confirmed COVID-19, seven (20%) were hospitalized; three (9%) patients died.
At least 26 additional confirmed COVID-19 cases were identified among community members who, during contact tracing,
reported contact with one or more of the 35 church A members with COVID-19 as an exposure. These persons likely were
infected by church A attendees. Among these 26 persons, one was hospitalized and subsequently died. Thus, as of April 22, 61
confirmed cases (including eight [13%] hospitalizations and four [7%] deaths) had been identified in persons directly and
indirectly associated with church A events.
Top

Discussion

This investigation identified 35 confirmed COVID-19 cases among 92 attendees at church A events during March 6-11;
estimated attack rates ranged from 38% to 78%. Despite canceling in-person church activities and closing the church as soon
as it was recognized that several members of the congregation had become ill, widespread transmission within church A and
within the surrounding community occurred. The primary patients had no known COVID-19 exposures in the 14 days
preceding their symptom onset dates, suggesting that local transmission was occurring before case detection.
Children represented 35% of all church A attendees but accounted for only 18% of persons who received testing and 6% of
confirmed cases. These findings are consistent with those from other reports suggesting that many children with COVID-19
experience more asymptomatic infections or milder symptoms and have lower hospitalization rates than do adults (4,5). The
role of asymptomatic or mildly symptomatic children in SARS-CoV-2 transm ission remains unknown and represents a critical
knowledge gap as officials consider reopening public places.
The risk for symptomatic infection among adults aged ~65 years was not higher than that among adults aged 19-64 years.
However, six of the seven hospitalized persons and all three deaths occurred in persons aged ~65 years, consistent with
other U.S. data indicating a higher risk for COVID-19-associated hospitalization and death among persons aged ~65 years (6).
The findings in this report are subject to at least four limitations. First, some infected persons might have been missed
because they did not seek testing, were ineligible for testing based on criteria at the time, or were unable to access testing.
Second, although no previous cases had been reported from this county, undetected low-level community transmission was
likely, and some patients in this cluster might have had exposures outside the church . Third, risk of exposure likely varied
among attendees but could not be characterized because data regarding individual behaviors (e.g., shaking hands or hugging)
were not collected . Finally, the number of cases beyond the cohort of church attendees likely is undercounted because
tracking out-of-state transmission was not possible, and patients might not have identified church members as their source of
exposure.
High transmission rates of SARS-CoV-2 have been reported from hospitals (7), long-term care facilities (8), family gatherings
(9), a choir practice ( 1(JJ, and, in this report, church events. Faith-based organizations that are operating or planning to resume

in-person operations, including regular services, funerals, or other events, should be aware of the potential for high rates of
transmission of SARS-CoV-2. These organizations should work with local health officials to determine how to implement the
U.S. Government's guidelines for modifying activities during the COVID-19 pandemic to prevent transm ission of the virus to
their members and their communities (.2).
Top
https://www.cdc.gov/mrrrNr/volumes/69/wr/mm6920e2.htm

316

R.A. 144

10113/2020

Acknowledgments
Members of the congregation of church A, including the pastor and his wife; Arkansas Department of Health; Suzanne
Beavers, CDC; Laura Rothfeldt, Arkansas Department of Health; state and local health departments where out-of-state visitors
resided .
Top
Corresponding author: Allison E. James, hwj7@cdc.gov, 501-614-5278.
Top
1Arkansas

Department of Health; 2 Epidemic Intelligence Service, CDC; 3COVID-19 Response Team, CDC.
Top

All authors have completed and submitted the International Committee of Medical Journal Editors form for disclosure of
potential conflicts of interest. No potential conflicts of interest were disclosed.
Top

References

1. Office of the President of the United States. Coronavirus guidelines for America. Washington, DC: Office of the President
of the United States; 2020. https://www.whitehouse.gov/briefings-statements/coronavirus-guidelines-america/
2. Office of the President of the United States. Guidelines: opening up America again. Washington, DC: Office of the
President of the United States; 2020. https://www.whitehouse.gov/openingamerica/
3. CDC. Health Alert Network: update and interim guidance on outbreak of coronavirus disease 2019 (COVID-19). Atlanta,
GA: US Department of Health and Human Services, CDC; 2020. https://emergency.cdc.gov/han/2020/HAN00428.asp
4. Bialek S, Gierke R, Hughes M, McNamara LA, Pilishvili T, SkoffT; CDC COVID-19 Response Team. Coronavirus disease
2019 in children-United States, February 12-April 2, 2020. MMWR Morb Mortal Wkly Rep 2020;69:422-6. CrossRef
PubMed
5. Dong Y, Mo X, Hu Y, et al. Epidemiology of COVID-19 among children in China. Pediatrics 2020. Epub March 16, 2020.
CrossRef
PubMed
6. Bialek S, Boundy E, Bowen V, et al.; CDC COVID-19 Response Team. Severe outcomes among patients with coronavirus
disease 2019 (COVID-19)-United States, February 12-March 16, 2020. MMWR Morb Mortal Wkly Rep 2020;69:343-6.
CrossRef

PubMed

7. Heinzerling A, Stuckey MJ, Scheuer T, et al. Transmission of COVID-19 to health care personnel during exposures to a
hospitalized patient-Solano County, California, February 2020. MMWR Morb Mortal Wkly Rep 2020;69:472-6. CrossRef
PubMed
8. McMichael TM, Currie DW, Clark S, et al. Epidemiology of Covid-19 in a long-term care facility in King County, Washington.
PubMed
N Engl J Med 2020. Epub March 27, 2020. CrossRef
9. Ghinai I, Woods S, Ritger KA, et al. Community transmission of SARS-CoV-2 at two family gatherings-Chicago, Illinois,
PubMed
February-March 2020. MMWR Morb Mortal Wkly Rep 2020;69:446-50. CrossRef
10. Hamner L, Dubbel P, Capron I, et al. High SARS-CoV-2 attack rate following exposure at a choir practice-Skagit County,
PubMed
Washington, March 2020. MMWR Morb Mortal Wkly Rep 2020;69:606-10. CrossRef
Top

TABLE 1. Demographic characteristics, church A event attendance, and SARS-CoV-2 testing status of
persons who attended church A events where persons with confirmed COVID-19 (N = 92) also attended
..':'.Y
- Arkansas, March 2020
All attendees
No.(%)*

No. (%) tested'

92 (100)

45(49)

518

32(35)

8(25)

18-64

32(35)

23(72)

Characteristic
Total

p-value§

No. (%) who tested positive'

p-value§

35 (38)

Age group (yrs)
0.001

2(6)

0.004

19(59)
416

https://www.cdc.gov/mrrrNr/volumes/69/wr/mm6920e2.htm

R.A. 145

10113/2020

All attendees
No. (%)*

No. (%) tested'

28(30)

14(50)

Male

44(48)

22(50)

Female

48(52)

23(48)

Weekend only (Mar 6-8)

64(70)

33(52)

Bible study only (Mar 11)

9(10)

2(22)

1 (11)

Both weekend and Bible study

19 (21)

10(53)

6(32)

Characteristic
~65

p-value§

No. (%) who tested positive'

p-value§

14(50)

Sex
17(39)

1.0

1.0

18(38)

Church A event attendance
28(44)

0.28

0.16

Abbreviation: COVID-19 = coronavirus disease 2019.

* Includes all persons who were confirmed to have attended church A events during March 6-11; percentages are column
percentages.

+ Percentage of attendees (row percentages).
§

Calculated with Fisher's exact test.
Top

TABLE 2. Estimated attack rates of COVID-19 among attendees at church A events - Arkansas, March 611, 2020

Ret_':'.Y

All Mar 6-11 church A attendees
(lower bound)

Characteristic

No. of cases/no.
exposed(%)

overall

Risk ratio
(95%CI)

All tested Mar 6-11 church A attendees
(upper bound)
pvalue

35/92 (38.0)

No. of cases/no.

Risk ratio
(95% Cl)

pvalue

2/8 (25.0)

0.3 (0.1-1.0)

0.003

19/23 (82.6)

Referent

tested(%)
35/45 (77.8)

Age group (yrs)
2/32 (6.3)

0.1 (0.03-0.4)

19-64

19/32 (59.4)

Referent

~65

14/28 (50.0)

0.8 (0.5-1.3)

0.47

14/14(100.0)

1.2 (1 .0-1.5)

0.10

Male

17/44(38.6)

1.0 (0.6-1 .7)

0.91

17/22(77.3)

1.0 (0.7-1.3)

0.94

Female

18/48 (37.5)

Referent

18/23 (78.3)

Referent

28/64 (43.8)

1.4 (0.7-2.8)

28/33 (84.8)

1.4 (0.8-2.4)

:.18

<0.001

Sex

Church A event attendance
Weekend only (Mar 68)

0.3

0.09

516

https://www.cdc.gov/mrrrNr/volumes/69/wr/mm6920e2.htm

R.A. 146

10113/2020

All Mar 6-11 church A attendees
(lower bound)
No. of cases/no.
exposed(%)

Characteristic
Bible study only (Mar

Risk ratio
(95% Cl)

pvalue

1/9 (11.1)

0.4 (0.05-2.5)

6/19 (31.6)

Referent

11)

Both weekend and
Bible study

All tested Mar 6-11 church A attendees
(upper bound)
No. of cases/no.
tested(%)

0.25

Risk ratio
(95% Cl)

pvalue

1/2 (50.0)

1.7 (0.4-6.8)

6/10 (60.0)

Referent

0.21

Abbreviations: Cl= confidence interval; COVID-19 = coronavirus disease 2019.

FIGURE. Date of symptom onset* among persons with laboratory-confirmed cases of COVID-19 (N
= 35) who attended March 6-11 church Aevents - Arkansas, March 6-23, 2020
10

Top
Re~

Symptom onset,
inde)(cases

9

,---A--,

8

7

ill

6

0
0
z

5

CT

Children's event and
Sunday service

4

3
2

0

Symptom onset,

primary cases

6

8

9

10

11

12

13

14

15

16

17

18

19

20

21

22

23

24

Date of symptom on set, March 2020

Abbreviation: COVID-19 = coronavirus disease 2019.

* One asymptomatic person who had a positive test result is included on the date of specimen collection (March 18).

Top

Suggested citation for this article:James A, Eagle L, Phillips C, et al. High COVID-19 Attack Rate Among Attendees at Events
at a Church -Arkansas, March 2020. MMWR Morb Mortal Wkly Rep 2020;69:632-635. DOI :
http://dx.doi.org/10.15585/mmwr.mm6920e2 L'.'.l .
MMWR and Morbidity and Mortality Weekly Report are service marks of the U.S. Department of Health and Human Services.
Use of trade names and commercial sources is for identification only and does not imply endorsement by the U.S. Department of Health and Human
Services.
References to non-CDC sites on the Internet are provided as a service to MMWR readers and do not constitute or imply endorsement of these organizations
or their programs by CDC or the U.S. Department of Health and Human Services. CDC is not responsible for the content of pages found at these sites. URL
addresses listed in MMWRwere current as of the date of publication.
All HTML versions of MMWR articles are generated from final proofs through an automated process. This conversion might result in character translation or
format errors in the HTML version. Users are referred to the electronic PDF version (https://www.cdc.gov/mmwr) and/or the original MMWR paper copy for
printable versions of official text, figures, and tables.
Questions or messages regarding errors in formatting should be addressed to mmwrq@cdc.gov.
Page last reviewed: May 21, 2020

https://www.cdc.gov/mrrrNr/volumes/69/wr/mm6920e2.htm

616

R.A. 147

Finding coronavirus superspreaders may be key to halting a second wave | New Scientist
Page 1 of 7
Case 1:20-cv-04844-NGG-CLP Document 20-22 Filed 10/13/20 Page 1 of 7 PagelD # : 522

You'd make a terrible
trader.
NeWSdentlst
SUBSCRIBE AND SAVE 69%

Finding coronavirus superspreaders may be key to halting a second
wave
HEALTH 30 July 2020
By Clare Wilson

Indoor bars are thought to be a particular risk for superspreading events
ViewApart/Getty Images

https://www.newscientist.com/article/2250375-finding-coronavirus-superspreaders-may-be-... 8/5/2020

R.A. 148

Finding coronavirus superspreaders may be key to halting a second wave | New Scientist
Page 2 of 7
Case 1:20-cv-04844-NGG-CLP Document 20-22 Filed 10/13/20 Page 2 of 7 PagelD #: 523
A skiing trip, a wedding, a choir practice: what these events have in common is that they were all occasions of coronavirus
superspreading. This is when someone passes the virus on to an especially high number of people.
While there is no universally agreed definition of a superspreading event, it is sometimes taken to be an incident in which
someone passes on the virus to six or more other people. Getting to the bottom of why these puzzling clusters occur could be
key to gaining control of the covid-19 pandemic and stopping a second wave of cases.
For months, we have been hearing that the R number, or reproduction number, is what is needed to gauge the spread of
covid-19. This is the average number of people that each infected person passes the virus on to. Before lockdown in the UK,
the R number for coronavirus was estimated at somewhere between 2 and 3.
Advertisement

It is now more appreciated that there is great variability in the number of new cases that each infected person generates. This
can be described by the epidemics K number  the dispersion parameter  with a lower value of K signifying more
variability. You need to know both R and K for a good picture of how the virus is spreading through a community.
According to an analysis of how covid-19 had spread to other countries from China by the end of February, the K number was
0.1, an extremely low value. The researchers estimated that 80 per cent of cases were caused by about 10 per cent of infected
people. Those 10 per cent could trigger a cluster of infections, while most other people would pass on coronavirus to no one
else and a few would give it to just one other person.
In other words, superspreading is integral to the pandemic, says Quentin Leclerc at the London School of Hygiene and
Tropical Medicine.
Read more: Coronavirus: Second wave hits Asia as global cases continue to soar

In one well-studied example, at a choir practice with 61 attendees that took place one evening in March, in Skagit County,
Washington State, one person infected an estimated 52 others. Doctors followed up with the close contacts of every
secondary case, about three or four each, and could find only 10 further infections, says Lea Hamner, a public health official
in Skagit County. It is as if something qualitatively different were going on that night.
What might that be? Transmission clusters have been seen with other diseases, including HIV, TB and typhoid, with a famous
superspreader being a New York cook in the early 20th century who came to be known as Typhoid Mary. In these cases, it
seemed there was something biological that made the person more likely to pass on their germs, probably a heavy microbe
burden.
With coronavirus, virus burden may well play a role, but this hasnt been investigated and we have no easy way to start doing
so, says Benjamin Cowling at the University of Hong Kong in China. If we measure viral load in saliva, thats not the same as
how much virus theyre breathing out. You would have to do some kind of air sampling.
But as well as biology, the circumstances of the spreading event also seems to be important, and some common themes have
emerged. Cowlings group carried out contact tracing of the first 1037 coronavirus cases in Hong Kong. They found a
somewhat larger K value than the previous estimate, of 0.45, but that still means just 20 per cent of infected individuals
caused 80 per cent of locally acquired cases.
The team found that superspreading events tended to happen in indoor spaces, with people in close proximity. Social
occasions led to more clusters than exposure in the workplace or home  mass transmissions occurred at weddings, temples,
bars and karaoke parties, for instance. The risk seems to be higher if people are raising their voices in some way, such as
singing or shouting. Its the volume of air that comes out of your lungs, says Cowling.
Read more: Coronavirus vaccine hope rises after a flurry of positive results

Understanding superspreading is becoming even more important now that coronavirus cases are declining in many countries,
says Adam Kleczkowski at the University of Strathclyde in the UK. When case numbers are rising exponentially,
superspreading events are arguably less important, he says, as there are many clusters that spread and merge.

https://www.newscientist.com/article/2250375-finding-coronavirus-superspreaders-may-be-... 8/5/2020

R.A. 149

Finding coronavirus superspreaders may be key to halting a second wave | New Scientist
Page 3 of 7
Case 1:20-cv-04844-NGG-CLP Document 20-22 Filed 10/13/20 Page 3 of 7 PagelD #: 524
But avoiding these transmission clusters is key early in an epidemic before case numbers have risen sharply, or later on, when
cases are falling and a second wave must be avoided. When you have very few cases, its these [superspreading] events you
need to watch out for, says Leclerc.
How can we reduce the chances of further superspreading events? Our guiding principles right now are outdoors is safer
than inside, fewer people are safer than more people, says Hamner. She sees indoor bars as a particular risk. A drunk
person is well known for talking louder and louder the drunker they get.
These arent new ideas  but making people aware of how important superspreading is could reinforce the need to avoid or at
least mitigate these types of risky situations. It could also help inform how countries ease lockdown restrictions, says Leclerc,
whose team has created a database of superspreading events around the world. For instance, only eight of the 201 clusters
they identified took place within schools, which at the start of the pandemic were seen as a potential hotbed of infections.
Identifying clusters in real time is also key for contact-tracing work, says Leclerc. If you manage to detect [superspreading
events] and find the people infected, you can stop the spread before it goes on.
Reference: Research Square, DOI: 10.21203/rs.3.rs-29548/v1
Sign up to our free Health Check newsletter for a monthly round-up of all the health and fitness news you need to know
More on these topics:

coronavirus

covid-19

https://www.newscientist.com/article/2250375-finding-coronavirus-superspreaders-may-be-... 8/5/2020

R.A. 150

Finding coronavirus superspreaders may be key to halting a second wave | New Scientist
Page 4 of 7
Case 1:20-cv-04844-NGG-CLP Document 20-22 Filed 10/13/20 Page 4 of 7 PagelD # : 525
ll>X

TRENDING

LATEST

VIDEO

FREE

Coronavirus: US has no cohesive plan to tackle massive second wave

1

Covid-19 news: World faces catastrophe from school closures, says UN

2

Lyme disease vaccine found to be safe and effective in clinical trial

3

A radical new theory rewrites the story of how life on Earth began

4

Opening schools in UK without more testing risks covid-19 second wave

5

Magazine issue 3294 , published 5 August 2020

SUBSCRIBE
VIEW IN THE APP
BUY IN PRINT

Previous article

Next article

Coronavirus: US has no cohesive plan to tackle massive second
wave

How to hug people in a coronavirus-stricken world

https://www.newscientist.com/article/2250375-finding-coronavirus-superspreaders-may-be-... 8/5/2020

R.A. 151

Finding coronavirus superspreaders may be key to halting a second wave | New Scientist
Page 5 of 7
Case 1:20-cv-04844-NGG-CLP Document 20-22 Filed 10/13/20 Page 5 of 7 PagelD #: 526

D> X

Murphy Bed Clearance Sale
Here are popular searches for
people shopping for murphy beds

MORE FROM NEW SCIENTIST
HEALTH

https://www.newscientist.com/article/2250375-finding-coronavirus-superspreaders-may-be-... 8/5/2020

R.A. 152

Finding coronavirus superspreaders may be key to halting a second wave | New Scientist
Page 6 of 7
Case 1:20-cv-04844-NGG-CLP Document 20-22 Filed 10/13/20 Page 6 of 7 PagelD #: 527
PROMOTED STORIES

20 Movies So Disturbing People
Walked Out Of The Theater
Post Fun

Scalp Psoriasis: Easier To Treat
[Photos] Have Any of These 41
Than Ever. Search for How To Treat Items? You Could Be Rich
Scalp Psoriasis
History Chronicle
Yahoo! Search

These 1918 Photos Could Have
Been Taken Today
CBS News

Recommended by

https://www.newscientist.com/article/2250375-finding-coronavirus-superspreaders-may-be-... 8/5/2020

R.A. 153

Finding coronavirus superspreaders may be key to halting a second wave | New Scientist
Page 7 of 7
Case 1:20-cv-04844-NGG-CLP Document 20-22 Filed 10/13/20 Page 7 of 7 PagelD #: 528

Sign up to our newsletters
Enter your email address to get started
Your email
SIGN UP
Contact us

Coronavirus: customer update
Advertise
Gift subscriptions

Help

,••

I Write for us

About us
Events

Privacy & cookies

I Science jobs

Syndication

I Student subscriptions I Educational subscriptions
GET THE APP

Cookie preferences

Terms & conditions

RSS feeds

Corporate subscriptions

FOLLOW US

G t it

© Copyright New Scientist Ltd.

Back to top

©

https://www.newscientist.com/article/2250375-finding-coronavirus-superspreaders-may-be-... 8/5/2020

R.A. 154

Case 1:20-cv-04844-NGG-CLP D00llffl11m1iilQ.lili'£vEM1111Cl!tG.Ql,1~~cci!age 1 of 8 PagelD # : 529

8/5/2020

~

~.,-~ Centers for Disease
!lt'j Control and Prevention

'!i

1VU~.

Coronavirus Disease 2019 (COVID-19)

Considerations for Events and Gatherings
Considerations for Events & Gatherings
Updated July 7, 2020

As some communities in the United States begin to plan and hold events and gatherings, the CDC offers the following
considerations for enhancing protection of individuals and communities and preventing spread of coronavirus disease 2019
(COVID-19). Event planners and officials can determine, in collaboration with state and local health officials, whether and how
to implement these considerations, making adjustments to meet the unique needs and circumstances of the local
community. Because COVID-19 virus circulation varies in communities, these considerations are meant to supplement-not
replace-any state, local, territorial, or tribal health and safety laws, rules, and regulations with which gatherings must
comply. Organizers should continue to assess, based on current conditions, whether to postpone, cancel, or significantly
reduce the number of attendees for gatherings.

After reviewing the considerations listed on this page, event planners and administrators can use CDC's Events and
Gatherings Readiness and Planning Tool
[9 pages] to protect staff, volunteers, and attendees.

•

Guiding Principles
• A gathering refers to a planned or spontaneous event, indoors or outdoors, with a small number of people participating
or a large number of people in attendance such as a community event or gathering, concert, festival, conference, parade,
wedding, or sporting event.
• The more people an individual interacts with at a gathering and the longer that interaction lasts, the higher the potential
risk of becoming infected with COVID-19 and COVID-19 spreading.
• The higher the level of community transmission in the area that the gathering is being held, the higher the risk of COVID19 spreading during a gathering.
• The size of an event or gathering should be determined based on state, local, territorial or tribal safety laws and
regulations.
The risk of COVID-19 spreading at events and gatherings increases as follows:

Lowest risk: Virtual-only activities, events, and gatherings.
More risk: Smaller outdoor and in-person gatherings in which individuals from different households remain spaced at
least 6 feet apart, wear cloth face coverings, do not share objects, and come from the same local area (e.g., community,
town, city, or county).

Higher risk: Medium-sized in-person gatherings that are adapted to allow individuals to remain spaced at least 6 feet
apart and with attendees coming from outside the local area.
https://www.cdc.gov/coronavirus/2019-ncov/community/large-events/considerations-for..events-gatherings.html

R.A. 155

1/8

Case 1:20-cv-04844-NGG-CLP D00llffl11m1iilQ.lili'£vEM1111Cl!tG.Ql,1~~cci!age 2 of 8 PagelD #: 530

8/5/2020

Highest risk: Large in-person gatherings where it is difficult for individuals to remain spaced at least 6 feet apart and
attendees travel from outside the local area.

Targeting COVID-19's spread
SARS-CoV-2, the virus that causes COVID-19, is thought to be mostly spread by respiratory droplets released when people
talk, cough, or sneeze. It is thought that the virus may also spread to hands from a contaminated surface and then to the
nose, mouth or eyes, causing infection. Therefore, personal prevention practices (such as handwashing, staying home when
sick, maintaining 6 feet of distance, and wearing a cloth face covering) and environmental prevention practices (such as
cleaning and disinfection) are important ways to prevent the virus's spread.
These prevention principles are covered in this document. They provide event planners and individuals with actions to help
lower the risk of COVID-19 exposure and spread during gatherings and events.

Promoting Healthy Behaviors that Reduce Spread
Event planners should consider implementing strategies to encourage behaviors that reduce the spread of COVID-19 among
staff and attendees.

• Staying Home when Appropriate
o Educate staff and attendees about when they should stay home.

• Advise employees and attendees to stay home if they have tested positive for COVID-19 or are showing COVID-

19 symptoms.
• Advise employees and attendees to stay home and monitor their health if they have had a close contact with a

person who has symptoms of COVID-19 within the past 14 days.
• Develop policies that encourage sick employees to stay at home without fear of reprisal, and ensure
employees are aware of these policies.
•

•

CDC's criteria can help inform when employees should return to work:
• If they have been sick with COVID-19
•

If they tested positive for COVID-19 but had no symptoms

•

If they have recently had a close contact with a person with COVID-19

Consider developing flexible refund policies for attendees for events that involve a participation fee.

• Hand Hygieneand Respiratory Etiquette
o Require frequent employee handwashing (e.g., before, during, and after taking tickets; after touching garbage) with

soap and water for at least 20 seconds and increase monitoring to ensure adherence.
o If soap and water are not readily available, employees can use hand sanitizer that contains at least 60% alcohol and

rub their hands until dry.
o Encourage staff to cover the mouth and nose with a tissue when coughing and sneezing. Used tissues should be

thrown in the trash and hands washed immediately with soap and water for at least 20 seconds.
o Encourage attendees to wash hands often and cover coughs and sneezes.
o Attendees often exchange handshakes, fist bumps, and high-fives at meetings and sporting events. Display signs

(physical and/or electronic) that discourage these actions during the event.

• Cloth Face Coverings

o Require the use of cloth face coverings among staff. Cloth face coverings are most essential in times when physical

distancing is difficult (e.g., when moving within a crowd or audience).
o Provide all staff with information on proper use, removal, and washing of cloth face coverings.
o Advise staff that cloth face coverings should not be placed on:
•

Babies or children younger than 2 years old

• Anyone who has trouble breathing
• Anyone who is unconscious, incapacitated, or otherwise unable to remove the cloth face covering without

assistance
https://www.cdc.gov/coronavirus/2019-ncov/community/large-events/considerations-for..events-gatherings.html

R.A. 156

2/8

Case 1:20-cv-04844-NGG-CLP D00llffl11m1iilQ.lili'£vEM1111Cl!tG.Ql,1~~cci!age 3 of 8 PagelD #: 531

8/5/2020

o Encourage attendees ahead of the event to bring and use cloth face coverings at the event.
o Cloth face coverings are meant to protect other people in case the wearer is unknowingly infected but does not

have symptoms. Cloth face coverings are not surgical masks or respirators. They are not personal protective
equipment.
o Cloth face coverings are strongly encouraged in settings where individuals might raise their voice (e.g., shouting,

chanting, singing).

• Adequate Supplies

o Ensure adequate supplies to support healthy hygiene

•

behaviors. Supplies include soap, water, hand sanitizer
containing at least 60 percent alcohol, paper towels, tissues, disinfectant wipes, cloth face coverings (as feasible),
and no-touch trash cans.

• Signs and Messages

o Post signs in highly visible locations (e.g., at entrances, in restrooms) that promote everyday protective measures

and describe how to stop the spread
covering I!! .

•

of germs by properly washing handsand properly wearing a cloth face

o Broadcast regular announcements on reducing the spread of COVID-19 on public address systems.
o Include messages (for example, videos) about behaviors that prevent spread of COVID-19 when communicating

with staff, vendors, and attendees (such as on the event website and through event social media accounts).
o Consider developing signs and messages in alternative formats (e.g., large print, braille, American Sign Language)

for people who have limited vision or are blind or people who are deaf or hard of hearing.
o Find freely available CDC print and digital resources about COVID-19 on CDC's communications

resources main page.

Maintaining Healthy Environments
Event planners should consider implementing several strategies to maintain healthy environments.
• Cleaning and Disinfection
o Clean and disinfect frequently touched surfaces within the venue at least daily or between uses as much as possible
-for example, door handles, sink handles, drinking fountains, grab bars, hand railings, and cash registers.
o Clean and disinfect shared objects between uses-for example, payment terminals, tables, countertops, bars, and

condiment holders.
o Consider closing areas such as drinking fountains that cannot be adequately cleaned and disinfected during an

event.
o Develop a schedule for increased, routine cleaning and disinfection.
o Plan for and enact these cleaning routines when renting event space and ensure that other groups who may use

your facilities follow these routines.
o If transport vehicles like buses are used by the event staff, drivers should practice all safety actions and protocols as

indicated for other staff-for example, washing hands often and wearing cloth face coverings and maintaining
social distance of bus riders. To clean and disinfect event buses, vans, or other vehicles see guidance for bus transit
operators and drivers for hire, and adapt as needed.
o Ensure safe and correct use and storage of cleaners and disinfectants

to avoid harm to employees and other
individuals. Always read and follow label instructions for each product, and store products securely away from
children.

o Use EPA-approved disinfectants against COVID-19

.

o Cleaning products should not be used near children. Staff should ensure that there is adequate ventilation when

using these products to prevent attendees or themselves from inhaling toxic vapors.
o Use disposable gloves when removing garbage bags or handling and disposing of trash .
• After using disposable gloves, throw them out in a lined trash can.
•

Do not disinfect or reuse the gloves.

• Wash hands after removing gloves.

• Restrooms
https://www.cdc.gov/coronavirus/2019-ncov/community/large-events/considerations-for..events-gatherings.html

R.A. 157

3/8

Case 1:20-cv-04844-NGG-CLP D00llffl11m1iilQ.lili'£vEM1111Cl!tG.Ql,1~~cci!age 4 of 8 PagelD # : 532

8/5/2020

o Consider limiting the number of people who occupy the restroom at one time to allow for social distancing.
o Do not allow lines or crowds to form near the restroom without maintaining a distance of at least 6 feet from other

people. It may be helpful to post signs or markers to help attendees maintain the appropriate social distance of at
least 6 feet.
o Ensure that open restrooms are:

• Operational with functional toilets.
• Cleaned and disinfected regularly, particularly high-touch surfaces such as faucets, toilets, stall doors,

doorknobs, countertops, diaper changing tables, and light switches.
• Clean and disinfect restrooms daily or more often, if possible, with EPA-approved disinfectants against
COVID-19.
•

Ensure safe and correct application of disinfectants and keep products away from children.

• Adequately stocked with supplies for handwashing, including soap and water or hand sanitizer with at least

60% alcohol (for staff and older children who can safely use hand sanitizer), paper towels, tissues, and notouch trash cans.
• If you are providing portable toilets, also provide portable handwashing stations and ensure that they
remain stocked throughout the duration of the event. If possible, provide hand sanitizer stations that are
touch-free.

• Ventilation
o Ensure ventilation systems operate properly and increase circulation of outdoor air as much as possible, for

example, by opening windows and doors. Do not open windows and doors if doing so poses a safety or health risk
to staff or attendees (e.g., risk of falling or triggering asthma symptoms).
o If portable ventilation equipment like fans are used, take steps to minimize air from them blowing from one person

directly at another person to reduce the potential spread of any airborne or aerosolized viruses.

• Water Systems
o To minimize the risk of Legionnaires' disease and other diseases associated with water, take steps to ensure that all

water systems and features (e.g., sink faucets, dri nking fountains, decorative fountains) are safe to use after a
prolonged facility shutdown. Drinking fountains should be cleaned and sanitized, but encourage staff
and attendees to bring their own water, as feasible, to minimize touching and use of water fountains.

• Modified Layouts

o Limit attendance or seating capacity to allow for social distancing, or host smaller events in larger rooms.
o Use multiple entrances and exits and discourage crowded wa iting areas.
o Block off rows or sections of seating in order to space people at least 6 feet apart.
o Eliminate lines or queues if possible or encourage people to stay at least 6 feet apart by providing signs or other

visual cues such as tape or chalk marks.
o Prioritize outdoor activities where social distancing can be maintained as much as possible.
o Offer online attendance options in addition to in-person attendance to help reduce the number of attendees.

• Physical Barriers and Guides

o Provide physical guides, such as tape on floors or sidewalks and signs on walls, to ensure that individuals remain at

least 6 feet apart in lines and at other times (e.g., guides for creating one-way routes).
o Install physical barriers, such as sneeze guards and partitions, in areas where it is difficult for individuals to remain

at least 6 feet apart. Barriers can be useful at cash registers and other areas where maintaining physical distance of
6 feet is difficult.
o Change seating layout or availability of seating so that people can remain least 6 feet apart.

• Communal Spaces
o Stagger use of shared indoor spaces such as dining halls, game rooms, and lounges as much as possible and clean

and disinfect them between uses.
o Add physical barriers, such as plastic flexible screens, between bathroom sinks and beds, especially when they

cannot be at least 6 feet apart.
https://www.cdc.gov/coronavirus/2019-ncov/community/large-events/considerations-for..events-gatherings.html

R.A. 158

4/8

Case 1:20-cv-04844-NGG-CLP D00llffl11m1iilQ.lili'£vEM1111Cl!tG.Ql,1~~cci!age 5 of 8 PagelD #: 533

8/5/2020

o Clean and disinfect bathrooms regularly (e.g., in the morning and evening or after times of heavy use) using EPA-

registered disinfectants

.

o For more information on communal spaces in event housing (e.g., laundry rooms, shared bathrooms, and

recreation areas) follow CDC's guidance for Shared or Congregate Housing.

• Food Service
o There is no evidence that COVID-19 is spread by food. However, people sharing utensils and congregating around

food service areas can pose a risk.
o If the event includes food service, refer to CDC's COVID-19 considerations for restaurants and bars.
o Use touchless payment options as much as possible, if available.
o Ask customers and employees to exchange cash or card payments by placing them on a receipt tray or on the

counter rather than by hand to avoid direct hand-to-hand contact.
o Clean and disinfect frequently touched surfaces such as pens, counters, or hard surfaces between use and

encourage patrons to use their own pens.
o Provide physical guides, such as tape on floors or sidewalks and signs on walls, to ensure that individuals remain at

least 6 feet apart when waiting in line to order or pick up.
o If a cafeteria or group dining room is used, serve individually plated meals or grab-and-go options, and hold

activities in separate areas.
o Use disposable food service items including utensils and dishes. If disposable items are not feasible or desirable,

ensure that all non-disposable food service items are handled with gloves and washed with dish soap and hot water
or in a dishwasher.
o Individuals should wash their hands after removing their gloves or after directly handling used food service items.
o Avoid offering any self-serve food or drink options, such as buffets, salad bars, and drink stations. Consider having

pre-packaged boxes or bags for each attendee.

• Shared Objects

o Discourage people from sharing items that are difficult to clean, sanitize, or disinfect.
o Limit any sharing of food, tools, equipment, or supplies by staff members.

o Ensure adequate supplies to minimize sharing of high-touch materials to the extent possible; otherwise, limit use of

supplies and equipment to one group of staff members or attendees at a time, and clean and disinfect them
between use.

Maintaining Healthy Operations
Event organizers and staff may consider implementing several strategies to maintain healthy operations.

• Regulatory Awareness
o Be aware of local or state regulatory agency policies related to group gatherings to determine if events can be held.

• Protections for Staff and Attendees who are at Higher Risk of Severe Illness from COVID-19
o Offer options for staff at higher risk for severe illness (including older adults and people of any age with underlying

medical conditions) that limit their exposure risk. For example:
• Offer telework and modified job responsibilities for staff, such as setting up for the event rather than working
at the registration desk.
•

Replace in-person meetings with video- or tele-conference calls whenever possible.

o As feasible, offer options for attendees at higher risk for severe illness that limit their exposure risk (e.g., virtual

attendance).
o Consider limiting event attendance to staff and guests who live in the local area (e.g., community, city, town, or

county) to reduce risk of spreading the virus from areas with higher levels of COVID-19. If attendance is open to
staff and guests from other communities, cities, town or counties, provide information to attendees so they can
make an informed decision about participation.
o Put policies in place to protect the privacy of people at higher risk for severe illness regarding their underlying

medical conditions.
https://www.cdc.gov/coronavirus/2019-ncov/community/large-events/considerations-for..events-gatherings.html

R.A. 159

5/8

Case 1:20-cv-04844-NGG-CLP D00llffl11m1iilQ.lili'£vEM1111Cl!tG.Ql,1~~cci!age 6 of 8 PagelD #: 534

8/5/2020

• Limited, Staggered, or Rotated Shifts and Attendance Times
o Consider ways to significantly reduce the number of attendees.
o Use flexible worksites (e.g., telework) and flexible work hours (e.g., staggered shifts) to help establish policies and

practices for social distancing of 6 feet between employees, volunteers, and others.
o Rotate or stagger shifts and arrival times to limit the number of employees in a venue at the same time.
o Stagger and limit attendance times to minimize the number of guests at the venue.

• Travel & Transit
o Encourage employees to use transportation options that minimize close contact with others (e.g., walking or biking,

driving or riding by car - alone or with household members only). Consider offering the following support:
• Ask employees to follow the CDC guidance on how to Protect Yourself When Using Transportation, including
public transit.
• Allow employees to shift their hours so they can commute during less busy times.
• Ask employees to wash their hands as soon as possible after their trip.

o Reconfigure parking lots to limit congregation points and ensure proper separation of employees (e.g., closing

every other parking space).
o Encourage rideshare drivers to clean and disinfect frequently touched surfaces in the vehicle and avoid providing

pooled rides or picking up multiple passengers who would not otherwise be riding together on the same route.

• Designated COVID-19 Point of Contact

o Designate an administrator or office to be responsible for responding to COVID-19 concerns. All staff and attendees

should know who this person or office is and how to contact them.
• Communication Systems
o Put systems in place to:
• Encourage staff and attendees to self-report to event officials or a COVID-19 point of contact if they have
symptoms of COVID-19, a positive test for COVID-19, or were exposed to someone with COVID-19 within the
last 14 days, in accordance with health information sharing regulations for COVID-19 (e.g., see "Notify Health
Officials and Close Contacts" in the Preparing for When Someone Gets Sick section below), and other
applicable privacy and confidentiality laws and regulations.
• Advise attendees prior to the event or gathering that they should not attend if they have symptoms of, a

positive test for, or were recently exposed (within 14 days) to COVID-19.
•

Notify staff, attendees, and the public of cancellations and restrictions in place to limit people's exposure to
COVID-19 (e.g., limited hours of operation).

•

Identify and address potential language, cultural, and disability barriers associated with communicating
COVID-19 information to event staff and participants. Tailor information so that it is easily understood by
various audiences and is available in alternative formats and languages.

•

Learn more about reaching people of diverse languages and cultures by visiting: Know Your Audience. You
also can learn more about commun icating to staff in a crisis at: Crisis Communications Plan.

• Leave (Time Off) Policies
o Implement flexible sick leave policies and practices that are not punitive and enable employees to stay home when

they are sick, have been exposed, are caring for someone who is sick, or who must stay home with children if
schools or child care centers are closed .
o Examine and revise policies for leave, telework, and employee compensation as needed.
o Ensure that any relevant policies are communicated to staff.

• Back-Up Staffing Plan
o Monitor absenteeism of employees, cross-train staff, and create a roster of trained back-up staff.
o Develop policies for return-to-work and event facilities after an employee has COVID-19. CDC's criteria to

discontinue home isolation and quarantine can inform these policies.

• StaffTraining
https://www.cdc.gov/coronavirus/2019-ncov/community/large-events/considerations-for..events-gatherings.html

R.A. 160

6/8

Case 1:20-cv-04844-NGG-CLP D00llffl11m1iilQ.lili'£vEM1111Cl!tG.Ql,1~~cci!age 7 of 8 PagelD #: 535

8/5/2020

o Train staff on all safety protocols. Consider using CDC's Interim Guidance for Businesses and Employers as a guide.
o Conduct training virtually to ensure that social distancing is maintained during training.

o If training needs to be done in person, maintain social distancing. Virtual training is clearly better for infection

control when feasible.

• Recognize Signs and Symptoms
o If feasible, conduct daily health checks (e.g., temperature screening and/or symptom checking) of staff and

attendees safely and respectfully, and in accordance with any applicable privacy laws and regulations.
o Event administrators may consider using examples of screening methods in CDC's General Business FAQs as a

guide.

• Sharing Facilities

o Encourage any organizations that share or use the same venue to also follow these considerations and limit shared

use, if possible.

• Support Coping and Resilience
o Promote employees' ability to eat healthy foods, exercise, get enough sleep, and find time to unwind.
o Encourage employees to talk with people they trust about their concerns and how they are feeling.
o Consider posting signs for the national distress hotline: 1-800-985-5990, or text TalkWithUsto 66746; The National

Domestic Violence Hotline: 1-800-799-7233 and TTY 1-800-787-3224; and The National Suicide Prevention Lifeline:
1-800-273-TALK (8255).

• Lessons Learned After the Event
o Meet with the emergency operations coordinator or planning team for your venue to discuss and note lessons

learned.
o Determine ways to improve planning and implementation processes if the event will happen again.
o Update your plans regularly according to the state and local situation and orders.

Preparing for When Someone Gets Sick
Event planners should consider several strategies to implement when someone gets sick.

• Advise Sick Individuals of Home Isolation Criteria

o Communicate to sick staff members that they should not return to work until they have met CDC's criteria to

discontinue home isolation.

• Isolate and Transport Those Who are Sick

o Make sure that staff and attendees know that they should not come to the event and that they should notify event

planners (e.g., the designated COVID-19 point of contact) if they become sick with COVID-19 symptoms, test positive
for COVID-19, or have been exposed to someone with symptoms or a suspected or confirmed case.
o Immediately separate staff and attendees with COVID-19 symptoms (e.g., fever, cough, shortness of breath) at the

event. Individuals who are sick should go home or to a healthcare facility, depending on how severe their
symptoms are, and follow CDC guidance for caring for themselves.
o Individuals who have had close contact with a person who has symptoms should be separated, sent home, and

advised to follow CDC guidance for community-related exposure (see "Notify Health Officials and Close Contacts"
below). If symptoms develop, individuals should follow CDC guidance for caring for themselves.
o Planners may follow CDC's Guidance for Shared or Congregate Housing for any staff who live in event housing.

o Work with venue administrators, local officials, and healthcare providers to identify an isolation area to separate

anyone who has COVID-like symptoms or who has tested positive but does not have symptoms. Event healthcare
providers should use Standard and Transmission-Based Precautions when caring for sick people. See: What
Healthcare Personnel Should Know About Caring for Patients with Confirmed or Possible COVID-19 Infection.
o Establish procedures for safely transporting anyone sick to their home or to a healthcare facility. If you are calling

an ambulance or bringing someone to the hospital, call first to alert them that the person may have COVID-19.

• Clean and Disinfect
https://www.cdc.gov/coronavirus/2019-ncov/community/large-events/considerations-for..events-gatherings.html

R.A. 161

7/8

Case 1:20-cv-04844-NGG-CLP D00llffl11m1iilQ.lili'£vEM1111Cl!tG.Ql,1~~cci!age 8 of 8 PagelD #: 536

8/5/2020

o Close off areas used by a sick person and do not use these areas until after cleaning and disinfecting them (for

outdoor areas, this includes surfaces or shared objects in the area, if applicable).
o Wait at least 24 hours before cleaning and disinfecting. If 24 hours is not feasible, wait as long as possible. Ensure

safe and correct ~
from children.

and storage of cleaning

and disinfection products, including storing them securely away

• Notify Health Officials and Close Contacts

o In accordance with state and local laws and regulations, event planners should notify local health officials, staff, and

attendees of any case of COVID-19 while maintaining confidentiality in accordance with the Americans with
Disabilities Act (ADA)
and other applicable laws and regulations.
o Advise those who have had close contact with a person diagnosed with COVID-19 to stay home, self-monitor for

symptoms, and follow CDC guidance if symptoms develop.

After reviewing the considerations listed on this page, event planners and administrators can use CDC's Events and
Gatherings Readiness and Planning Tool
[9 pages] to protect staff, volunteers, and attendees.

•

Other Resources
Latest COVID-19 Information

Persons at Higher Risk

Cleaning and Disinfection

Managing Stress and Coping

Guidance for Businesses and Employers

HIPAA and COVID-19

Guidance for Schools and Childcare Centers

CDC communication resources

Guidance for Park Administrators

Community Mitigation

Shared and Congregate Housing

Transportation

COVID-19 Prevention

Interim Guidance for Communities of Faith

Handwashing Information

Crisis Communications Plan.

Face Coverings

Restaurants and bars

Social Distancing

Americans with Disabilities Act (ADA) and other applicable
laws and regulations

COVID-19 Frequently Asked Questions:

Last Updated July 7, 2020

https://www.cdc.gov/coronavirus/2019-ncov/community/large-events/considerations-for..events-gatherings.html

R.A. 162

8/8

Case 1:20-cv-04844-NGG-CLP Document 20-24 Filed 10/13/20 Page 1 of 8 PagelD #: 537

Asian Bioethics Re-Jew
https://doi.org/10.1007/541649 020 00118 2

PERSPECTIVE

COVID-19 Super-spreaders: Definitional
Quandaries and Implications

Check for
updates

Emma Cave 1
Received: 17 April 2020 / Re-Jsed: 4 M11J 2020 / Accepted: 5 May 2020

Published on linc: 16 Mu} 2020
The Autrorjs) 2020

Abstract

Uncertainty arolIDd the role ·super-spreaders' play in the transmission and escalation of
infectious disease is compounded by its broad and vague definition. It is a term that has
been much used in relation to COVID-19, particularly in social media. On its widest
definition, it refers to a propensity to infect a larger than average ownber of people. Given
the biological, behavioural and environmental variables relevant to infectivity, this migbt be
pertinent to ahnost any infucted individual who is not physically isolated from others. or
is the term confined to individuals with a propensity to pread iofectiow; disease: it can
potentially be used to describe events, policies or settings. This article explores the use of
the term and considers circumstances in which the wide definition can be problematic. One
problem is that it can lead to undeserved apportionment of moral blame to aJleged superspreaders. Another is that it can detract from scientific investigation of the heterogeneity of
COVID-19 transmission. The author calls for a clearer epidemiological definition.
Keywords Confidentiality -Corona virus • OVID- 19 • Privacy •Super-spreader • Superpreadiog
Introduction: COVID-19 Super-spreaders

At the time of writing, exit strategies from COVID-19 lock.down are unclear, but deescalation of phy ical distancing measures is likely to be gradual. One aspect of
hielding the vulnerable is to identify those at risk of developing serious and potentiaJJy
life-threatening symptoms and distance them from sources of infection. More work is
needed to identify such groups, which include people over the age of65 and those with
underlying health conditions. Another is to identify and isolate the infected. This is
complicated by 1IDcertainty a to whether efforts to produce a vaccine will succeed and
!El Emna Cnve

E1U11a.cave@dwhnm.sc.uk

Durham Law Schoo~ Durham University, Durham, UK

f;) Springer

R.A. 163

Case 1:20-cv-04844-NGG-CLP Document 20-24 Filed 10/13/20 Page 2 of 8 PagelD #: 538

Asian Bioethics Review

how long it will take. JI is possible that post-infection immunity may be short-lived
(European Centre for Disease Prevention and Control (ECDC) 2020, 9), and even if
infection confers immunity, the ECDC estimates that 67% of the population would
need to have had the virus in order to prevent ongoing transmission and that 'Some
form of physical distancing interventions will therefore need to be in place for at least
several months from now' (2020, 18). A second wave (and potentially further waves)
of COVID- 19 is possible (Xu and Li 2020).
The ECDC (2020, 7) estimates that the reproductive number (RO) of COVID- 19 in
EU/EEA countries is 3 28. That is, a person contracting the novel virus will pass it on to
an average of around 3 people. The RO is a measure of potential transmissibility that is
difficult to establish, particularly if the accuracy of the data is questionable as where, for
example, there is under- or mis-reporting. Underlying the RO is a considerable variation
which, early in the outbreak, Mackenzie (2020) postulated may be down to the role of
super-spreaders: around 10% of cases could be responsible for up to 80% of transmission. If so, she argued, control of super-spreading would be essential in tackling the
outbreak.
The situation is complicated by the fact that so-called super-spreaders ofCOVID-19
cannot always self-identify and take steps to mitigate the risk to others. The virus has
been detected 1- 3 days before onset of symptoms, and the ECDC sees this as a
potential major source of transmission. Some individuals are asymptomatic throughout,
though the risk of transmission is probably somewhat lower in such cases. There have
also been reports of COVID-19 positive tests during convalescence, following a
negative test (Chen et al 2020). COVID-19 may itself have super-spreading tendencies
flowing from the occurrence of atypical symptoms (Wang et al. 2020), which may have
led to a failure to identify many mild case a phenomenon that bas been exacerbated
by limited and variable availability of testing, tracing and screening.
In light of the importance of identifying and controlling infection, this article begins
by considering the definition of 'super-spreader' and argues that the term is vague and
unhelpful. It goes on to demonstrate ways in which it has been applied to impute moral
condemnation on individuals accused of spreading COVID-19 and calls for the
development of a clearer and widely held scientific definition of super-spread that
accommodates the relevance of individual factors in disease transmission without
attributing moral blame.

A Term of Art
The term 'super-spreader' bas recently entered our consciousness, alongside words such as
'comorbidity', 'furlough' and 'lockdown'. A super-spreader, usually identified in retrospect,
has a greater than average propensity to infect a larger munber of people. Super-spreading is
not a new phenomenon: symptomless 'Typhoid Mary' was exiled for 26 years for apparently infecting many others in the 1800s (Marineli et al. 2013), and super-spreading was
thought to be a driver ofMERS, SARS (2002- 2003) and, to a lesser extent, Ebola (Wong
et al. 2015). Stein (2011 ) observes that observational and modelling studies support a 20l80
mle whereby 20% of individuals are likely to contribute around 80% of the transmission
potential in a given infectious disease. Many variables make up this tendency, and this bas
potential to limit the meaningfulness of the term.
Springer

R.A. 164

Case 1:20-cv-04844-NGG-CLP Document 20-24 Filed 10/13/20 Page 3 of 8 PagelD #: 539

Asian Bioethics Review

The label 'super-spreader' is a term of art that has been utilised to describe settings,
events and individuals. Super-spreading settings include cruise ships and aeroplanes as
well as hospitals, care homes and potentially schools, particularly where they utilise
ventilation systems. As for events, any large gathering or movement of groups or
individuals can constitute super-spreading. So too can policy decisions or indeed any
occurrence which in hindsight exacerbated infection rates, such as the lack of control
measures when SARS first emerged and single cases were treated as atypical pneumonia and transmitted to others (WHO 2003). As highlighted above, COVID-19 itselfhas
super-spreading tendencies given its potential for atypical symptoms and presymptomatic and asymptomatic transmission.
The term is particularly problematic when applied to individual 'super-spreaders', as
it can mean different things to different groups. Media interest in super-spreaders
focuses on the early stages of the epidemic when efforts are being made to contain,
trace and delay. Used in this way, a 'super-spreader' will generally have interacted with
a larger than average number of people, making tracing difficult or impossible. At the
other end of the spectrum, scientific interest can focus on the heterogeneity of populations in the transmission of infectious d.isease. Used in this sense. 'super-spreading' is
connected to the scientific nature of the virus and the way it manifests in some humans.
There is speculation that some people with COVID- 19 are especially infectious
(Boseley and Belam 2020).
Super-spreading is therefore a product of biological, behavioural and environmental
factors. It can be used to describe decisions, policies, events, settings and individualsin fact, anything that contributes to inc.reased rates of infection can be seen (by some
groups) as super-spreading. The wide and varied use of the term ' super-spreader' is
problematic for two reasons considered in subsequent sections: it can lead to apportionment of moral blame to alleged super-spreaders and it cou Id detract from scientific
investigation into heterogeneity ofCOVID-19 if misunderstanding leads to diminished
public support and trust.

Blaming Super-spreaders
Alleged super-spreaders of COVID-19 have attracted considerable media interest
Patient 31, a member of the Shincheonji church, was thought to have turned the tide
in South Korea (Kasulis 2020). As the number of deaths increased, anger was directed
at the church, and the founder's apology was broadcast around the world. In India, the
state of Punjab quarantined 40,000 people following around 30 deaths linked to a 70year-old preacher who died of the disease (BBC News 2020). In the UK, a Brighton
businessperson was labelled a 'culprit' early in the course of COVID-19 (see Ball 2020
for criticism). Each was labelled by parts of the media a 'super-spreader' whether or not
the host was aware of the risks they posed to others or the repercussions their infection
could have. These factors were not always reflected in media reports.
There is a public interest in the location and number of cases, and in the early days of
the crisis, when cases were few, this may have enabled some to piece together the
identity of infected individuals. The Brighton case in England resulted in 'superspreader' headline claims from newspapers including the Daily Mail, Guardian, Sun
and Telegraph_ The individual came foiward to reveal the steps he had taken on
Springer

R.A. 165

Case 1:20-cv-04844-NGG-CLP Document 20-24 Filed 10/13/20 Page 4 of 8 PagelD #: 540

Asian Bioethics Review

learning that he had come into contact with a COVID-19-positive person, allegedly due
to fears of scapegoating (Duggan et al. 2020). Tum to Twitter and #superspreaders has
been employed as a term to signal moral blame, aimed at individuals and groups
including political leaders, runners, cyclists and the police.
Opprobrium may rightly follow ifa symptomatic individual knowingly puts others
at risk in avoidable circumstances, such as the reported cases of people deliberately
coughing in the faces of others. However, to attach moral blame to those labelled after
the event as super-spreaders is highly problematic, most obviously because carriers of
COVID-19 can be asymptomatic, but also because the label can be stigmatising and
potentially deter the symptomatic from coming forward if they have recently been in
contact with large or vulnerable numbers. Spreading can be exaceibated by poor
hygiene or certain social practices such as hand shaking, but infection of others is not
evidence alone that guidelines on behaviour have been ignored. SadJy, as the pandemic
and resulting fear have escalated, so have examples of the public viewing anyone
'other' as a potential super-spreader (Coates 2020).
Delivering Ethical Research on Heterogeneity of COVID-19
Transmission

Another problem with the term 'super-spreader' is that its wide use has potential to
detract from its importance in research on heterogeneity oftransmissionofCOVID-19.
If 'super-spreader' is understood in lay terms to attract varying degrees of moral blame,
then epidemiological investigation of its incidence may be less likely to gain public
support and understanding.
There is a paucity of scientific evidence of the role or even the existence of especially
infectious people with COVID-19. On a narrow scientific definition, a super-spreader would
have particular biological characteristics that would increase the tendency to infect others.
For example, a mouse model study by Gopinath et al (2014) demonstrated the superspreading tendencies of a minority of mice infected with Salmonella. lf any potential
biological super-spreading tendencies of COVID-19 were better understood, then it could
aid management and control through, for example, isolation or targeted vaccination if and
when it becomes available. Research might usefully focus on the tendency of some
individuals to shed high levels of the pathogen, including investigation of co-moibidity,
genetics, viral load and infectivity at different stages of presentation. lo COVID-19, the
relationship between viral load, severity and infectivity is complex and poorly understood.
Increased viral load does not necessarily result in more severe symptoms (Geddes 2020),
and infection dose is currently uncertain. Clearly, the propensity for biological factors to lead
to infection of olhers is highly dependent on behavioural and environmental factors.
Thus, a broader definition of super-spreading might encompass research on biological
and external factors, combining focus on the virus, the host and the environment Prt>COVID-19, Lloyd-Smith et al (2005) argued that control measures for infectious disease
that focus on individual-specific measures can outperform population-based measures. They
proposed a rigorous protocol for defining super-spreading events that would supplement the
RO with information about factors such as distribution and range. Research bringing greater
clarity as to the factors that drive variations in infectivity would contribute to targeted control
policies that could reduce reliance on widespread lockdown.
Springer

R.A. 166

Case 1:20-cv-04844-NGG-CLP Document 20-24 Filed 10/13/20 Page 5 of 8 PagelD #: 541

Asian Bioethics Review

However, such research is likely to be reliant upon the public giving up their
confidential data or at least cooperating if such data are mandated. Technology
offers a potential to track, predict, trace contacts and respond in a more precise
manner. There are, for example, several apps in development/use. Some allow
users to report symptoms so that more can be learned about how the virus
behaves, some give people advice on the basis of reported symptoms and some
operate in conjunction with testing to alert individuals with whom an infected
person has come into contact, to isolate. These apps offer potential to learn
more about heterogeneity and also to implement more targeted control measures
in response. In many countries, efficacy will be reliant on the willingness of
individuals to sign up to the apps. Those individuals will need assurance that
their privacy will be respected and that negative implications will not flow from
their identification as a perceived ' super-spreader' .
Some governments are making more extensive use of c.onfidential information that does not rely on patient consent. In the UK, National Health Service
(NHS) England and Improvement and NHSX (the unit driving digital transformation of care) have announced the development of a digital platform that will
bring together health data, Al and cloud computing (Gould et al. 2020). They
are investing in the help of private companies such as Micro oft, Google and
Amazon Web services to bring this about. They have provided assurances that
the data 'will remain under NHS England and NHS Improvement's control' and
that the data will be destroyed or returned when the emergency is over (Gould
et al. 2020). The dashboard will give metrics about occupancy levels in
hospitals and capacity and will enable decision-makers to 'Understand how
the virus is spreading at a local level and identify risks to particularly vulnerable populations'.
On 20 March 2020, the Department of Health and Social Care (DHSC), on behalf
of the Secretary of State for Health and Social Care, issued a notice under Regulation 3(4) of the Health Service (Control of Patient Information) Regulations 2002
(COPI). Regulation 3(4) allow the Secretary of State, having had independent
advice from the Confidentiality Advisory Group, to give notice to health organisations, general practices and local authorities that confidential information will be
re.quired (DHSC 2020) for a certain purpose. The purpose in this case is COVID-19
and includes understanding risks and trends including (amongst other things):
locating, contacting, screening, flagging and monitoring such patients and
collecting information about and providing services in relation to testing, diagnosis, self-isolation, fitness to worlc, treatment, medical and social interventions
and recovery from Covid-19. (DHSC 2020, 2)
This widely framed notice mandates the processing and sharing of confidential
information, in circumstances where patients have not given informed consent
Together with the proposals to share information with private companies for the
production of the Dashboard, it is a high-risk strategy that will have profound
implications if public trust is undermined. Whilst efforts will be made to
protect the identity of the patients, anonymity is not a binary concept and, as
argued above in relation to the Brighton case, media interest in 'superSpringer

R.A. 167

Case 1:20-cv-04844-NGG-CLP Document 20-24 Filed 10/13/20 Page 6 of 8 PagelD #: 542

Asian Bioethics Review

spreaders' could lead to 'jigsaw identifiability' and to moral blame, which in

turn could impact on trust.

A Change in Terminology?
The term ' uper-spreader' makes an exciting headline, but its employment in
social media sometimes lacks a scientific basis . Rather it often points to
uointended action or is suggestive of negligent actions of an individual and
apportions moral blame. And yet, it is essential that we promote a culture of
ethical research on the biological, behavioural and environmental influences on
transmission.
The argument set out in this article is that the definition is too broad to be
helpful and that its (mis)use in some social media has resulted in negative
connotations. Consideration of the tendencies of individuals to exacerbate
infection rates is a worthy focus of research. As more targeted public health
responses are developed to replace widespread physical distancing policies, it is
increasingly important that heterogeneity of COVID-19 transmission is explored
and factored into responses. To the extent that super-spreading is an aspect of
research on heterogeneity, there is a risk that the negative connotations the term
has attracted will result in public reticence to give up the private information
upon which that research might depend. Greater accuracy of definition would
help ensure that debate around the term is not at cross-purposes, help reduce or
prevent moral blame of those who unwittingly infect oth.ers and could enhance
public trust around the use of confidential data.
The aim of this article has been to draw attention to problems in the use of
the term 'super-spreader'. Turning briefly to potential solutions, one option
would be to avoid use of the term altogeth.er, but it is well accepted in the
scientific literature (see for example Lloyd-Smith 2005, Stein 20 11, Gopinath
2014), and its abandonment could disrupt important linkage between current
and previous research. Another option would be to encourage the use of the
terms 'super-spreading' and 'super-spreading events' in epidemiology. in place
of ' super-spreader'. This might reduce stigma, but it is unlikely to limit more
general (mis)application of the term . Another option would be to encourage the
development of a clearer taxonomy of super-spreading so as to take scientific
ownership of the term and discourage inappropriate lay adoption, potentially
through a classification of behavioural, environmental and biological superspreading.
Acknowledgements

Thanks to the anonymous reviewer for very helpful comments.

Compliance with Ethical Standards
Con0ic1· of lnleresl

The aulhor declares lhat she has no conflict of interest

Open Access This article is licensed under a Creative Commons Atb:ibution 4.0 International License, which
pennits use. sharing, adaptation, distnbution and reproduction in any medium or format. as long as you give
~ . Springer

R.A. 168

Case 1:20-cv-04844-NGG-CLP Document 20-24 Filed 10/13/20 Page 7 of 8 PagelD #: 543

Asian Bioethics Review

appropriate credit to the original author(s) and the source, provide a link to the Creative Ccmmons Licence, and
indicate if changes were made. The images or other third party material in this article are included in the
article's Creative Commons Licence, unless indicated otherwise in a credit line to the material If material is not
included in the article's Creative Commons Licence and your intended use is not pennitted by statutory
regulation or exceeds the permitted use, you will need to obtain permission directly from the copyright holder.
To view a copy of this Licence, visit bttp://creativecommons.orglliccnseslby/4.0/.

References
Ball. Philip. 2020. Stigmatising 'super spreaders' won't help the fight agµinst coronavirus. T11e G11ardia11, 12
February 2020. hrtpsJ /www.tbeguardian.com/commentisfree/'2020/reb/12/super spreaders corona virus.
Accessed 16 April 2020.
BBC News. 2020. Coronavirus: India 'super spreader' quarantines 40,000 people. BBC News, 27 March 2020.
bttpsJ/www hbc.co.uk/news/world asia india 52061915. Accessed 16 April 2020
Boseley, Su.an and Martin Belam. 2020. Super spreaders: what are they and bow are they transmitting
coronavirus? The Guardian, 3 March 2020. httpsJ/www.li1eguardian.com/world/2020/feb/27/wbat are
super spreaders and bow are they transmitting ccronavirus. Accessed 16 April 2020.
Chen, Dabiao, Wenxiong Xu, Ziying Lei, Zhanlian Huang. Jing Liu. Zhiliang Gao, and Liang Peng. 2020.
Recurrence of positive SARS CoV 2 RNA in COVID 19: a case report International Journal of
lnfeaious Disea<es 93: 297 299. bttps ://doi.org/lO .I0Hilj.ijid.2020.03.003.
Coates, Melanie. 2020. Covid 19 and the rise of racism. BMJ369: m 1384. bttpsJ/doi.org/l0. 1136'bmj.ml384.
Department of Health and Social Care. 2020. Covid-19 Notice 1111der Regulatum 3(4) of the Health Service
Control of Patient lnfom,ation Regulations 2002. 20 March 2020. hnps://asseis.publisbing.scrvice.gov.
uk/government/uploads/system/uploads/attachment_data/61e/874509/Coronavirus_COVJD 19_ _
notice_u oder_reg ulation_ 3 _ 4_of_ the_ Hea lth_ Service_Con tro t_ of_Patient_ lnforma tion_
Regulations_2002 .pdf. Acressed 16 April 2020.
Duggan, Joe, Chris Pollard, Patrick Gysin, and Stephen Moyes. 2020. British coronavirus 'super spreader' is
' terrified of being made national scapegoat' amid fears he's infocted dozens. The S101, 12 February 2020.
httpsJ/www.tbcsun.eo.uk/news/ 10937268/coronavirus uk brit sup.,.spreader/. Accessed 16 April 2020.
European Centre for Disease Prevention and Control. 2020. Coronavir11s disease 20/9 (COVTI>/9) i11 the EU/
EFA a11d the UK
eighth ,,pdate. Rapid Risk Assessment 8 April 2020. https://www.ecdc.europa.
eu/si1es/defimlt/files/documeulS/covid 19 rapid risk assessment coronavirus disease 20 19 eigbtl1 update
8 april 2020.pd( Accessed 16 April 2020.
Geddes, Linda. 2020. Does a high viral load or infectiou.s dose make covid 19 worse? New Scientist, 27
March 2020. https://www.newscientisLcom/article/2238819 does a high viral load or inJectious dose
make covid 19 worse/. Accessed I6 April 2020.
Gopinatb, Smita, Joshua S. Llchbnan, Drona M Bruley, Josbm E. Flias, and Denise M Monack. 2014. Role of
disease associated tolerance in infuctious superspreaders. Proceedmg, ofthe National Academy ofSciences of
the Uniti'li States ofAmerica 111(44): 15780 15785. httpsJ/doi.org/l0.1073/pnas.1409%8111.
Gould, Matthew, Indra Joshi and Ming Tag. 2020. The power of data in a pandemic. Technology ill the NHS
Blog , 28 March 2020. UK Department of Health and Social Care. https://healthtech.blog.gov.uk/2020/03
/28/the power of data in a pandemic/. Accessed 16 April 2020.
Kasulis, Kelly. 2020. ' Patient 31 ' and South Korea's sudden spike in coronavirus cases. A/jazeera, 3
March 2020. bttpsJ/www,aljazeera.com/news/2020/03/31 south korea sudden spike coronavirus cases
20030306595384 I .hbnl. Accessed 16 April 2020.
Lloyd Smith, J.O .. SJ. Schreiber, P.E. Kopp, and WM. Getz. 2005. Superspreading aro the effect of
individual variation on disease emergence. Nature 438: 355 359. bttps ://doi.org/l0. 1038/nature04l53.
Mackenzie, Debora. 2020. Why coronavirus sup.,.spreaders may mean we avoid a deadly pandemic. New
Scientist, 18 February 2020. https://www.newscientist.com/article/2234388 why coronavirus
superspreaders may mean we avoid a deadly pandemic/. Accessed 16 April 2020.
Marineli, Filio, Gregory Tsoucalas, Mariana Karamanou, and George Androutsos. 2013. Mary Mallon (1869
1938) aro the history of typhoid fever. Annals ofGastroemerology, 26 (2): 132 134.
Stein, Richard A. 2011. Super spreaders in infectiousdisea.ses. !11temationa/Jo11malofl1lfe ctious Diseases 15
(8): e.510 e5l3. httpsJ/doi.org/l0.1016.!j.ijid.2010.06.020
Springer

R.A. 169

Case 1:20-cv-04844-NGG-CLP Document 20-24 Filed 10/13/20 Page 8 of 8 PagelD #: 544

Asian Bioethics Review
Wang, Dawai , Bo Hu, Chang Hu, Fangfang Zhu, Xing Liu, Jing Zhang, Binbin Wang, Hui Xiang,
Zhenshun Cheng, Yong Xiong, Yao Zhao, Yirong L~ Xinghuao Wang, and Zhiyong Peng. 2020.
Clinical characteristics of 138 hospitalized patients with 2019 novel coronavirus infected pneumonia in
Wuhan, China JAMA 323(11): 1061 1069. httpsJ/doi.org/l0.100i/jama2020.1585.
WHO. 2003. Emergencies preparedness, response. Update 30 - scanis ofdiag,wstic tert. sign!f=nce of "'super
spreadera ''. situation in O,ina. 15 April 2003. bttpsJ/www.who.int/csdsars/archive/2003_04_15/en/
Wong. Gary, Wenjun Liu, Yinxia Liu, Bi:ying Zhou, Yuhai B~ and George F. Gao. 20 15. MERS, SARS, and
Ebola: the role of super spreaders in infectious disease. Cell Host & Microbe 18(4): 398 401. bttps://doi.
org/10.1016/j.chom.2015 .09.013.
Xu, Shunqing, and Yuanyuao Li. 2020. Comment beware of the second wave ofCOVID 19. Lancet, 8 April
2020. httpsJ/doLorgll0. 1016/S0140 6736(20)30845 X
Publisher's No1e Springer Nature remains neutral with regard to jurisdictional claims in published maps and
institutional affiliations.

Springer

R.A. 170

1011212<12lase 1 :2O-cv-O4844-NGG-CLP

Docu m emtbm;lsd2!ian f.ileo WiWB/12.0erP age 1 of 8 PagelD # : 545

(atJ>JD\ World Health

\.•J Organization

Faith-based organizations and
faith leaders
Faith-based organizations (FBOs) and leaders can play a major role in saving lives and reducing
illness related to COVID-19. They are a primary source of support and comfort for their members.
Often trusted more than governments or health-agencies, faith leaders can share health information
to protect their communities that will be more likely to be accepted than from other sources.
By sharing simple steps to prevent COVID-19 faith organizations can promote helpful information,
reduce fear and stigma, and provide reassurance to people in their communities. Because faith
leaders are integrated into their communities through service and compassionate networks, they are
often able to reach the most vulnerable among us with assistance and health information. In short,
they are a critical link in the safety net for vulnerable people in their communities.

Advice
FBOs are advised to conduct faith activities remotely, rather than in-person, using available
technology to maintain community and continue worship.

Recommendations for faith-based organizations (FBOs) to
ensure safe gatherings (where permitted)
Follow local, subnational, and national guidance regarding whether large gatherings, such as
services, weddings and funerals are permitted based on the spread of COVID-19.
If permitted to proceed with safe gatherings, FBOs should :
FBOs are also advised to conduct faith activities remotely, rather than in-person, using available

https://www.who.int/teams/risk-communication/faith-based-organizations-and-faith-leaders

R.A. 171

1/8

1011212<12lase 1 :2O-cv-O4844-NGG-CLP

Docu m emtbm;lsd2!ian f.ileo WiWB/12.0erP age 2 of 8 PagelD # : 546

Gather with a few people, rather than crowded sessions.
Educate their members/communities on key protection measures against COVID-19.
Encourage frequent healthy hand and respiratory hygiene among participants at all times.
Ensure safe distancing at all times - at least 1 meter (3 feet) of distance between community membe1
including seating or standing of participants in faith services and those entering, attending and
departing from worship spaces.
• Prevent touching between people attending faith services and the touching of devotional and
communal objects.
• Frequently clean worship spaces, pilgrimage sites, and other buildings with disinfectant.
• Conduct safe ceremonies including safe burial practices.

•
•
•
•

technology to maintain community and continue worship.
FBOs should strengthen their communities' mental health and resilience by keeping people
connected and identifying safe ways that members can help others.

Guidance
Practical considerations and recommendations for religious
leaders and faith-based communities in the context of COVID19
This document and risk assessment tool provides practical guidance and recommendations to
support the special role of religious leaders, faith-based organizations, and faith communities in
COVID-19 education, preparedness, and response.
- Access the P-Ublication
- Access the risk assessment tool
- Access the decision tree
- Acknowledgements

Risk communication and community engagement
https://www.who.int/teams/risk-communication/faith-based-organizations-and-faith-leaders

R.A. 172

2/8

1011212<12lase 1:2O-cv-O4844-NGG-CLP Documemtbm;lsd2!ianf.ileo WiWB/12.0erP age 3 of 8 PagelD # : 547

Mental health considerations during COVID-19 outbreak

These mental health considerations were developed by the Mental Health Department as support for
mental and psychological well-being during COVID-19 outbreak.
- Access the P-Ublication
A guide to preventing and addressing social stigma associated with COVID-19

Social stigma in the context of health is the negative association between a person or group of
people who share certain characteristics and a specific disease. In an outbreak, this may mean
people are labelled, stereotyped , discriminated against, treated separately, and/or experience loss of
status because of a perceived link with a disease.
The current COVID-19 outbreak has provoked social stigma and discriminatory behaviours against
people of certain ethnic backgrounds as well as anyone perceived to have been in contact with the
virus.
- Access the P-Ublication

COVID-19 updates from our partners
Faith and caring for each other in the times of the COVID 19 P-andemic*
13 March 2020 I World Council of Churches

Statement regarding the Church of the HolY. SeP-ulchre, Jerusalem*
20 March 2020 I Church of the Holy Ser;iulchre,

COVID-19 Guidelines from EP-iSCOP-al Conferences in Eastern Africa on Safe
Mass Gatherings*
21 March 2020 I AMECEA

https://www.who.int/teams/risk-communication/faith-based-organizations-and-faith-leaders

R.A. 173

3/8

